<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                JOSEPH M. McDADE, Pennsylvania, Chairman

HAROLD ROGERS, Kentucky              VIC FAZIO, California
JOE KNOLLENBERG, Michigan            PETER J. VISCLOSKY, Indiana
RODNEY P. FRELINGHUYSEN, New Jersey  CHET EDWARDS, Texas
MIKE PARKER, Mississippi             ED PASTOR, Arizona
SONNY CALLAHAN, Alabama              
JAY DICKEY, Arkansas                 

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

       James D. Ogsbury, Jeanne L. Wilson, and Donald M. McKinnon,
                            Staff Assistants
                                ________

                                 PART 6

                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management and Commercial Waste Management.........    1
 Nuclear Waste Technical Review Board.............................  330
 Atomic Energy Defense Activities.................................  351
 Naval Reactors...................................................  691
 Defense Nuclear Facilities Safety Board.......................... 1010

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
47-854 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          










                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director



















          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 1999

                              ----------                              

                                          Thursday, March 12, 1998.

                 NUCLEAR WASTE MANAGEMENT AND DISPOSAL

                               WITNESSES

JAMES M. OWENDOFF, ACTING ASSISTANT SECRETARY FOR ENVIRONMENTAL 
    MANAGEMENT
LAKE H. BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT
HOWARD R. CANTER, ACTING DIRECTOR, OFFICE OF FISSILE MATERIALS 
    DISPOSITION

                            Opening Remarks

    Mr. McDade. The committee will come to order.
    We are privileged to have three very distinguished 
witnesses with us today who perhaps have the most difficult job 
in government, and we appreciate all of your attention to it 
and your bringing your expertise to bear on it. It is a real 
tough one for you.
    Mr. Owendoff, I want to say something to you, if I may, 
please.
    We have been getting testimony up here for a long time, and 
we have had an opportunity to examine your prepared statement. 
We think it is absolutely highly, professionally done, very 
articulate, very pointed, very helpful. And even before you 
give it, I want to compliment you because we have had a chance 
to review it.
    We will now recognize you, and you may proceed in your own 
way, if you want to file your statement and proceed, whatever 
is comfortable for you.
    You are recognized, Mr. Owendoff.

       fy 1999 Office of Environmental Management Budget Request

    Mr. Owendoff. Thank you, Mr. Chairman. I appreciate that.
    I would certainly like to say that it is only by having a 
good staff that I am able to have those prepared statements, so 
I would like to recognize the good staff supporting us.
    Mr. McDade. It always takes a team and a team leader, too.

                  Oral Statement of James M. Owendoff

    Mr. Owendoff. It is a pleasure to be here, and I appreciate 
this opportunity to appear before you to discuss the Department 
of Energy's Environmental Management Program and its fiscal 
year 1999 budget request.
    Our request for fiscal year 1999 reflects a roughly level 
budget from last year, with a substantial investment for 
privatizing certain large cleanup projects. Key accomplishments 
resulting from this budget will be accelerating cleanup and 
closure, deployment of new technologies, and progress in 
resolving the nuclear waste backlog.
    We have set very ambitious goals for closing several sites 
by the year 2006, including the Rocky Flats Site in Colorado, 
the Weldon Spring Site in Missouri, as well as the Mound and 
Fernald Sites in Ohio. Consequently, we are eager to continue 
working with the Congress to focus funding on cleaning up and 
closing sites.
    The Environmental Management budget also reflects our 
target of opening the Waste Isolation Pilot Plant in May 1998, 
pending the expected certification from the U.S. Environmental 
Protection Agency this spring. In fiscal year 1999, the WIPP 
should be accepting defense transuranic waste from as many as 
six States. This will be a crucial step forward in providing 
for the permanent disposal of the Department's long-lived 
radioactive waste.
    Perhaps the most important management step we have taken is 
the establishment of a goal to clean up as many of the 
remaining 53 contaminated sites as possible by 2006 in a safe 
and cost-effective manner. By working towards this goal, we can 
not only reduce the hazards presently facing our workforce and 
the public, but also reduce the long-term financial burden on 
the taxpayer.
    For every year that a site remains open, we are paying a 
``mortgage'' of necessary overhead for activities such as site 
security, facility operations, personnel, safety and other 
costs. By completing a cleanup sooner, particularly at sites 
where we have no other continuing DOE missions, we can 
substantially reduce these overhead costs.

                             mortgage costs

    Mr. McDade. Mr. Owendoff, may I interrupt you for a second?
    Your testimony just rings a bell; and mortgage costs have 
been, as you know, of great concern to the Department and to 
the committee. And I have, in conversation around the city, 
have heard a specific number about the savings that are 
potential just in security alone if you can move, let's say, 5 
years in Rocky Flats and close it earlier. Do you have a number 
that you have had a chance to look at to see what the security 
savings costs alone would be?
    Mr. Owendoff. Let me provide that for you, because it is 
not an easy number. Because some of it has to do with the 
various materials, mainly plutonium. But whether it is pits or 
residues or oxides--we will provide you. In fact, we have a 
chart that is pretty dramatic that I can provide you that shows 
those reductions.
    Mr. McDade. You may amplify your answer in the record; and 
if you would have the chart sent up to the committee, we would 
appreciate it.
    Mr. Owendoff. I will provide that, Mr. Chairman.
    [The information follows:]

                        Rocky Flats Cost Savings

    The current cost for Safeguards and Security at Rocky Flats 
is $65 million per year. Therefore, if closure of Rocky Flats 
is accelerated from 2010 to 2006, approximately $260 million in 
Safeguards and Security savings will be realized.

       fy 1999 office of environmental management budget request

    Mr. McDade. Proceed.
    Mr. Owendoff. By working towards this goal we can not only 
reduce the hazards presently facing our workforce and the 
public but also reduce the long-term financial burden. By 
completing cleanup sooner, particularly at sites where we have 
no other continuing missions, we can substantially reduce these 
overhead costs.

                  site closure and project completion

    The fiscal year 1999 budget request reflects a fundamental 
restructuring to emphasize site closure and project completion.
    As you know, the Environmental Management Program is 
responsible for managing and cleaning up the environmental 
legacy of the Nation's nuclear weapons and government nuclear 
energy projects. We have been giving priority to high-risk 
problems such as stabilizing and ensuring the security of 
plutonium and stabilizing tanks containing high-level 
radioactive wastes. We have also addressed problems in order to 
comply with statutory and regulatory requirements and to meet 
our legal obligations under our compliance agreements with 
State and Federal agencies.
    We know that successful cleanup also requires investing and 
developing and deploying more effective technologies. Without 
successful investments in technology, the cost and technical 
challenges would make long-term success impossible.
    Finally, we have found that performing good technical work 
is not enough. Getting the job done requires cooperation with 
regulators and other stakeholders. We have supported effective 
public participation through continued relationship with States 
and site-specific and national advisory boards as well as 
funding for Indian tribes potentially affected by our 
activities. We intend to continue improving this process to 
ensure appropriate representation from elected officials and 
diversity.
    The most significant change in our fiscal year 1999 budget 
request is a new structure based on our vision of completing 
cleanup at as many sites as possible by the year 2006. Through 
this account structure, we are seeking to provide greater 
accountability to program managers, Congress and the 
stakeholders.
    The new account structure helps highlight how much funding 
is being provided for: sites where cleanup and closure is 
expected by 2006; sites where cleanup is expected to be 
completed by 2006 but where the sites will remain open for 
other Departmental missions; and sites where cleanup is 
expected to be completed after 2006.
    We believe this budget structure also serves to change the 
culture at sites from long-term cleanup to completing cleanup 
and closing sites.

                 accelerating cleanup: paths to closure

    On March 2, 1998, Environmental Management publicly 
released a draft strategy document, Accelerating Cleanup: Paths 
To Closure, emphasizing completing cleanup at most sites by 
2006. This strategy document consists of integrated life-cycle 
baselines for 353 discrete cleanup projects that provide the 
blueprint for completing cleanup at the remaining 53 sites. The 
draft strategy addresses facilities and materials currently 
within Environmental Management's responsibility but does not 
cover any future transfers of responsibility to Environmental 
Management from other DOE programs for excess facilities.
    The fiscal year 1999 budget is structured to associate the 
funding request and each project with specific data on past 
performance and with future commitments to demonstrate the 
results that have been achieved and the performance to be 
accomplished for the resources requested.
    The goal is to identify complete projects with a clear 
beginning and end, with measurable performance measures along 
the way. This will significantly improve management efficiency 
and accountability, focus funding on tangible outcomes and meet 
the intent and requirements of the Government Performance and 
Results Act.
    We are now making substantial progress in establishing the 
flow of waste and materials from cleanup in collaboration with 
regulators and other stakeholders.
    First, the Department is constructing and operating a 
number of large waste management facilities. To avoid 
duplication in treating and disposing of similar wastes, the 
Department is seeking to share facilities with comparable 
capabilities.
    Second, we have been consolidating storage of certain 
special nuclear materials, such as plutonium.
    Third, DOE has proposed shipping certain plutonium oxides 
and residues from the Rocky Flats Site and the Plutonium 
Finishing Plant at Hanford to the Savannah River Site in South 
Carolina, which should considerably accelerate closing of Rocky 
Flats and the Hanford facility.

                   waste isolation pilot plant (wipp)

    Finally, the Waste Isolation Pilot Plant in New Mexico, 
which is expected to begin accepting wastes in 1998, presents 
one of the most compelling examples of shipping nuclear waste 
to greatly reduce costs and risks.
    Integration of the DOE waste complex will be crucial to our 
efforts to reduce costs and raise productivity, but it also 
requires the support of our host States. We would greatly 
appreciate your help in fostering a sense of national purpose 
and responsibility among constituent States.
    In fiscal year 1999, we are requesting $346 million for 
program direction. This funding supports a variety of 
activities that are crucial to improving the cost-effectiveness 
of the program. Because of the importance of program direction 
activities, we have substantially reformed this account in the 
past few years, partly in response to congressional concerns.

                       program direction account

    The program direction account provides funding for Federal 
personnel salaries and headquarters and field offices as well 
as necessary funding for technical and analytical support and 
other related activities that are vital to managing the 
Environmental Management Program.
    In response to congressional concerns about the size of the 
Federal workforce and headquarters, we have dramatically 
reduced the number of Federal employees at headquarters. The 
number has declined from 772 in July of 1995, its highest 
level, to our current level of 440 employees. That is the 
number that is supported in the 1999 budget request.
    Similarly, we have reduced the budget for support services 
at headquarters by 80 percent over a similar period of time. 
This reduction of over 300 Federal staff at headquarters and 80 
percent of our support services budget has occurred at a time 
when the overall Environmental Management budget has remained 
fairly level.
    We believe that these reductions have been entirely 
appropriate, allowing us to put more resources into the field 
where the cleanup work gets done. However, we also believe that 
further reductions would be extremely disruptive to the 
Environmental Management Program. The consequences of further 
reductions could include less ability to carry out and monitor 
contract reform, reduced analysis of cross-siteissues and 
opportunities, and further disruption of appropriate skill mix.
    Again, Mr. Chairman, thank you for the opportunity to speak 
with you about the Environmental Management Program and its 
budget request for 1999. And certainly, later on, I would be 
pleased to respond to your questions.
    Mr. McDade. Mr. Owendoff, the committee thanks you for an 
excellent statement.
    [The prepared statement of Mr. Owendoff follows:]

[Pages 6 - 40--The official Committee record contains additional material here.]


          civilian radioactive waste management budget request

    Mr. McDade. Mr. Barrett, we know that you have spent many a 
long hour working these problems in the Department; and we want 
to welcome you. You may introduce your statement into the 
record and proceed in your own way. You have full latitude. We 
are delighted to hear your testimony.

                   Oral Statement of Lake H. Barrett

    Mr. Barrett. Thank you very much, Mr. Chairman and members 
of the committee. It is a pleasure to present our fiscal year 
1999 budget request.
    Permanent disposal of civilian and defense-related high-
level radioactive wastes is one of the most complex 
technological challenges facing our Nation. Our Nation's policy 
to support geologic disposal is essential not only for 
commercial spent fuel at reactors but also for the cleanup of 
our nuclear weapons complex, our international nonproliferation 
policy, our support of the international consensus on the 
permanent disposal of nuclear waste, and our national defense 
mission.
    Our major milestone this year is the Yucca Mountain 
viability assessment. Following the viability assessment, the 
program's efforts will turn to the completion of the draft 
environmental impact statement in 1999 and, if the site is 
found suitable, the recommendation of the site to the President 
in 2001.
    This committee's support of our fiscal year 1999 budget 
request will enable us to draw considerably closer to a 
national decision on geologic disposal at Yucca Mountain.
    With your permission, I will submit my statement for the 
record and would like to summarize the accomplishments we have 
made and what we intend to do in 1999.
    Mr. McDade. Without objection.

                           fy 1998 activities

    Mr. Barrett. Most of our funding in fiscal year 1998 was 
allocated to the Yucca Mountain Site Characterization Project. 
A small portion of the budget funds our plans for waste 
acceptance and transportation.
    At Yucca Mountain, our activities focused on the scientific 
exploration of the site and on the repository and waste package 
design and engineering to support the viability assessment.
    Last year, we completed the 5-mile-long exploratory studies 
facility tunnel.
    In fiscal year 1998, we initiated and will complete, to the 
west side of the repository block, the excavation of a 15-foot-
diameter, almost two-mile-long cross-drift off the main 
facility tunnel. This cross-drift will cut across the entire 
potential repository block and will give a more complete three-
dimensional view of the area.
    Our thermal testing program is under way and is providing 
valuable information to validate laboratory data and conceptual 
numerical transport models.
    We are also constructing an underground facility in an area 
called Busted Butte to examine the rock body that underlies the 
potential repository horizon. We are conducting total system 
performance assessments to determine how the repository may 
perform, based on our waste package and repository designs, for 
thousands of years in the future.
    Our work will culminate this year in the completion of the 
viability assessment. It will be a comprehensive description of 
the repository and its performance in the specific Yucca 
Mountain geologic setting. It will be used as a management 
tool, to focus future work needed toward the site suitability 
determination, the site recommendation, and license 
application.
    The viability assessment will provide all parties with a 
better understanding of the repository design and its 
performance in a specific Yucca Mountain geologic setting, a 
better appreciation of the remaining work to prepare a complete 
license application, and a more precise estimate of the cost of 
a repository.
    We still have work to do before we will be able to prepare 
a final environmental impact statement in the year 2000, make a 
site recommendation to the President in 2001, and submit a 
complete license application to the Nuclear Regulatory 
Commission in 2002.
    In the area of waste acceptance, as everyone knows, 
January, 1998, came without the initiation of waste acceptance; 
and we are currently in litigation and discussions with utility 
contract holders and State organizations. The Department 
continues to explore ways to proceed in a manner that results 
in fair and equitable solutions for all the parties. We remain 
willing to work with the contract holders to address any 
hardships associated with the delay in the acceptance of spent 
fuel and to comply with any applicable court order.
    To maintain our readiness to proceed with waste acceptance, 
we developed and submitted to the Nuclear Regulatory Commission 
a non-site-specific topical safety analysis report for a spent 
nuclear fuel interim storage facility. We have just last week 
received the initial comments from the NRC staff on that 
report, and we are making progress in that area together.
    In the transportation area, we continued development of a 
market-driven approach, relying on private industry 
capabilities to accept and transport commercial spent nuclear 
fuel to a Federal facility when one becomes available.
    In the regulatory compliance, program control, and 
management area, we responded to the committee's direction 
regarding the use of support service contractors by further 
limiting their scope of work.
    We have also streamlined our operations by reducing 
headquarters staff. Since 1992, the program has reduced its 
headquarters staff by over 50 percent and increased the Yucca 
Mountain staff by 40 percent. We have refocused our staffing 
where the priority issues are.

                            fy 1999 request

    Now I would like to turn to how we plan to expend the 
fiscal year 1999 budget request.
    The President's budget request of $380 million for 1999 is 
consistent with the policy direction provided by you over the 
last several Energy and Water Development Appropriations Acts. 
Of the $380 million, the Yucca Mountain Site Characterization 
Project will receive $298 million. Of the remaining funds, $10 
million will fund the Waste Acceptance, Storage and 
Transportation Project; and $72 million will be required for 
regulatory compliance, program control, and management 
functions. Most of these latter funds directly support the 
Yucca Mountain Site Characterization Project.
    The source of funds is equally divided: $190 million from 
the nuclear waste fund and $190 million from the defense 
nuclear waste disposal appropriation.
    The $298 million we are requesting for the Yucca Mountain 
Site Characterization Project will allow us to capitalize on 
the Yucca Mountain viability assessment information. The budget 
request will fund activities that are necessary to: continue 
our efforts to complete site characterization; continue to 
address remaining uncertainties about the site's ability to 
isolate and contain nuclear waste; further refineour repository 
and waste package designs to assist in the assessment of the repository 
safety strategy and total system performance calculations; complete the 
final phase of the peer review of the total system performance 
assessment to support a license application; prepare and issue for 
public comment the draft environmental impact statement for a geologic 
repository at Yucca Mountain; and support the preparation of a high-
quality, complete and defensible site recommendation and license 
application.
    In fiscal year 1999, the budget request for waste 
acceptance, storage and transportation activities is $10 
million and will be used to support: interactions with the 
standard contract holders to discuss how best to accommodate 
the delay in the acceptance of spent fuel from commercial 
utilities; ongoing non-site-specific responsibilities 
concerning commercial spent nuclear fuel and long-lead-time 
items that must precede the removal of spent nuclear fuel from 
reactor sites once a Federal receiving facility becomes 
available; interactions with States and Indian tribes to plan 
for the provision of technical and financial assistance for 
emergency response training for public safety officials through 
whose jurisdictions shipments of spent nuclear fuel and high-
level radioactive waste will be transported; work on the 
market-driven approach for waste acceptance and transportation 
of spent nuclear fuel; and efforts to provide the private 
sector with incentives to stimulate the development and 
implementation of storage and transportable canistered systems 
that could be compatible with repository disposal requirements.
    Our request for the regulatory compliance, program control 
and management set of activities is $72 million. Funding will 
be applied as follows:
  --$29 million for regulatory compliance related to activities 
        that include nuclear quality assurance/quality control, 
        support for the Yucca Mountain Environmental Impact 
        Statement, independent technical oversight, systems 
        engineering and integration, and necessary records 
        management;
  --$8 million for program control that includes planning, 
        program management and control functions, and total 
        life-cycle cost and fee adequacy report preparation; 
        and
  --$35 million for management functions that include our 
        Federal salaries, information technology applications, 
        audits, and public information.
    Your approval of our fiscal year 1999 budget request will 
allow us to step closer to being able to make decisions about 
the suitability of the Yucca Mountain site for development as a 
permanent geologic repository. We are concluding work we 
started in 1996. We have gained considerable momentum and have 
made substantial progress in answering the remaining questions 
regarding the suitability of the site.
    As an aside, but I believe an important one, I would like 
to tell you that, to date, we have found nothing at Yucca 
Mountain that indicates that it would be unsuitable as a site 
for the permanent disposal of spent nuclear fuel or high-level 
radioactive waste.
    The completion of the Yucca Mountain viability assessment 
will clarify the direction and scope of remaining work toward a 
formal site recommendation by the President. With your 
continued support we will be able to complete our work.
    Thank you, and I will be pleased to respond to any 
questions that you may have.
    Mr. McDade. Thank you for excellent testimony.
    [The prepared statement of Mr. Barrett follows:]

[Pages 45 - 68--The official Committee record contains additional material here.]


     fy 1999 office of fissile materials disposition budget request

    Mr. McDade. Mr. Canter, we are saving the best for the 
last. I see by your biography that you were 20 years in the 
nuclear Navy, were you?
    Mr. Canter. Yes, sir, 20 years in the Navy, most of that in 
the nuclear end of things.
    Mr. McDade. You were there in the early days?
    Mr. Canter. I worked for the little white-haired admiral 
for a number of years, and he taught me a few things.
    Mr. McDade. I guess.
    We are pleased to have you here, Mr. Canter. Delighted to 
have your testimony. You may file it for the record and proceed 
independently. You have latitude to do whatever is comfortable.
    Mr. Fazio. Mr. Chairman, I might say I do not remember the 
little white-haired admiral reading any statement to us. I 
wonder if you learned to testify as he used to, ad hoc.
    Mr. Canter. We have a unique--with the old joint committee, 
we had a unique privilege; and that is the draft before 
testimony was published came over, and we did some editing in 
the name of security. So we would take out the wild claims that 
he would make and tone them down. But I know of nobody who has 
such a privilege today.
    Mr. McDade. Mr. Canter, over on the floor we call that 
revision of remarks.

                   Oral Statement of Howard R. Canter

    Mr. Canter. Mr. Chairman and members of the subcommittee, I 
am the Acting Director of the Department of Energy's Office of 
Fissile Materials Disposition. I appreciate the opportunity to 
appear before you today to testify on the Department's fiscal 
year 1999 budget for this program. With your permission, I 
would like to proceed with a brief oral statement and submit 
the written statement for the record.
    The Department of Energy's Office of Fissile Materials 
Disposition is responsible for implementing the 
administration's approach to irreversibly dispose of the 
national's post-Cold War stockpiles of surplus plutonium and 
highly enriched uranium and for providing technical support for 
efforts to attain reciprocal actions for the disposition of 
surplus Russian plutonium. These important nonproliferation 
efforts are aimed directly at reducing the threat that nuclear 
weapons materials could fall into the hands of terrorists or 
rogue nations.
    This past year has been one of transition as we move past 
the study phase to begin implementing a hybrid strategy for 
plutonium disposition. We are pursuing both immobilization and 
burning mixed oxide fuel in existing, domestic commercial 
reactors. Both approaches would meet the spent fuel standard. 
That is, the excess weapons plutonium would be converted into a 
form in which it would be roughly as unattractive and 
inaccessible for recovery and use in weapons as the plutonium 
in ordinary commercial spent fuel.
    A number of very important activities have been conducted 
this year to enable surplus weapons plutonium disposition to 
proceed to the construction phase in the fiscal year 2001-2002 
time frame.
    These include a recent decision to focus future work in the 
immobilization area on the use of ceramics as opposed to glass, 
allowing us to bring immobilization of weapons plutonium one 
step closer to realization. The soon-to-be-released request for 
proposals to solicit business proposals from industry to 
provide MOX fuel and irradiation services is another major 
step. The start of testing and demonstrating an integrated 
prototype system at the Los Alamos National Laboratory for 
disassembling nuclear weapons pits and converting the resulting 
plutonium metal to a form suitable for either disposition 
approach as well as for international inspection; and the 
recently completed round of negotiations with Russia on a 
bilateral agreement on scientific and technical cooperation in 
plutonium management and disposition. We expect this agreement 
to be signed in the near future.

                         fy 1999 budget request

    Our fiscal year 1999 budget request for fissile material 
disposition activities is $169 million, an increase of $65.3 
million over fiscal year 1998. The increase will allow 
theDepartment to begin the design of key U.S. plutonium disposition 
facilities for disassembling and converting nuclear weapons pits to 
unclassified forms and for fabricating mixed oxide fuel and will also 
allow us to expand the joint technical work with Russia by designing a 
pilot-scale plutonium conversion system in Russia.
    DOE is also completing the analyses necessary to select the 
sites where surplus plutonium disposition will take place, and 
we expect to announce this spring the preferred sites for the 
pit disassembly and conversion facility and the MOX fuel 
fabrication facility. The Savannah River Site, which has an 
operational high-level waste vitrification facility, has 
already been named as the preferred site for immobilization. 
Following completion of an environmental impact statement later 
this year, final site selection would appear in a record of 
decision.
    Fiscal year 1999 efforts on the immobilization approach are 
aimed at resolving technological issues, developing and 
demonstrating production-scale processes and equipment, and 
conducting the necessary verification testing of the preferred 
can-in-canister approach in order to be confident that it can 
be successfully implemented in a timely and cost-effective 
manner.
    For the MOX/reactor approach, we plan to complete fuel 
qualification design, initiate licensing efforts and process 
development for MOX fuel fabrication, continue irradiation 
tests of the MOX fuel as well as to begin the design of the MOX 
fuel fabrication facility with a capacity to process 3.5 tons 
of surplus plutonium oxide per year.
    The next 3 years will be a crucial period in the U.S.-
Russian relationship concerning the storage and disposition of 
surplus weapons plutonium. Work with Russia on small-scale 
tests and demonstrations of disposition technologies is moving 
forward, and negotiations with Russia have begun on a framework 
agreement for plutonium disposition. We recognize, however, 
that the United States cannot proceed independently to dispose 
of our surplus plutonium without significant progress from 
Russia. As a result, the administration will not construct new 
facilities for disposing of surplus U.S. plutonium unless there 
is significant progress with Russia on plans for plutonium 
disposition.
    Beginning the design of key U.S. disposition facilities, 
developing a pilot-scale system in Russia to convert weapons 
plutonium, and implementing a framework of agreements on 
plutonium disposition are significant steps in this important 
nonproliferation program. I believe that these efforts will 
send a clear signal to the world community regarding U.S. 
nonproliferation goals, will strengthen our negotiating 
position with the Russians, and encourage the Russian 
Government to take significant reciprocal actions to initiate 
plutonium disposition. It is an investment in our future well 
worth making.
    Thank you very much.
    Mr. McDade. Thank you, Mr. Canter.
    [The prepared statement of Mr. Canter follows:]

[Pages 72 - 80--The official Committee record contains additional material here.]


                        russian nuclear program

    Mr. McDade. Let me ask you a question if I may, just your 
opinion. There was a change in the control of the Russian 
nuclear program within the Soviet Union. How do you read that 
change? Is it positive or is it negative?
    Mr. Canter. Right now, Dr. Adamov has been appointed 
Minister of Atomic Energy to replace Victor Mikhailov. He is an 
interesting gentleman. He speaks very good English.
    He is sort of more of a modern man, but he ran the 
institute that was responsible for the design of the Chernobyl-
style reactors and has pushed the concept of extending the life 
of those reactors while most of the Western European nations 
want them shut down. He was intimately involved with Mikhailov 
in negotiations with Iran on the reactor sale to Teheran.
    So it is not clear that there will be any change in policy 
that comes out; and, right now, we are proceeding as if there 
will not be.

                         total cost of cleanup

    Mr. McDade. Sounds like the prudent course, unfortunately.
    Mr. Owendoff, let me ask you a couple of questions, please. 
What is your current estimated total cost of the cleanup 
program, total cost?
    Mr. Owendoff. Within the Paths to Closure that we just came 
out with, Mr. Chairman, $147 billion is the total cost. I need 
to point out what is in that, and what is not in that cost, 
though.
    Mr. McDade. And the time frame that it is based on, the 
assumption of how many years to do it?
    Mr. Owendoff. Certainly. That is broken down. Between 1997 
and 2006, it is $57 billion. And then, from 2007 to 2070, it is 
$90 billion. Mainly what we will be working on beyond 2006, are 
big-ticket items for high-level waste and transuranic wastes. 
We will still be doing some decontamination and decommissioning 
of buildings and some soil and water cleanups also, but the 
big-ticket items are high-level waste.
    But a couple of things that I want to point out that are 
not in that estimate so it is not misleading as far as how that 
relates to previous estimates.
    We currently have this $8.8 billion estimated costs for 
cleaning up surplus of facilities for which Environmental 
Management does not now have the responsibility. Those 
buildings are still within defense programs or energy research 
that are surplus facilities. So there is--the estimate of those 
will require $40 billion. And then there are some active 
facilities that are still within--that are being utilized 
within the Department that is about $20 billion. And then we 
have transferred the responsibility for newly generated waste--
in other words, operational facilities at the labs--and that is 
about $8 billion in those costs through the period out to 2070.
    The main thing, when we presented the Paths to Closure, we 
did not articulate that now we have significantly reduced the 
dollars. That wasn't the point. The point of this was that it 
reflected the strategies of each of the sites and then how that 
related then to an overall national plan. That is the key that 
we see, is how do we get to the point of looking project by 
project, the sequencing of those projects and the critical 
path? And then it gives us a path to start working and having 
discussions.

                          rocky flats closure

    Mr. McDade. Thank you for a very complete answer.
    And may I say that, as you know, you are right in tune with 
the committee when you talk about that. We, by law, required 
competitive bidding to introduce competition into the system 
and urged that sites be brought to closure as promptly as 
possible.
    This is your statement, which was so well done; and I want 
to quote from it: In fiscal year 1995, not very long ago, the 
former contractor at Rocky Flats said that cleanup and 
stabilization would not be concluded until 2030 and would cost 
$18 billion. We got a new contractor, as you know.
    Mr. Owendoff. Yes, sir.
    Mr. McDade. And the current estimate is 2010, a saving of 
20 years, and think of the mortgage costs involved in that, at 
an estimated cost of $7.3 billion, $11 billion onthe capital 
costs, on the operating costs to get rid of the thing.
    So we are going to support that kind of conduct, and we 
want to hear from you about specific candidates you think we 
can look at for closure.
    This committee wants to try to get this done and assist all 
of you to get it done as promptly as we can. It is in the best 
interest of the country and the taxpayers to proceed with due 
diligence, but to get projects brought to closure, and nothing 
illustrates it more than that particular contract that you and 
the Department signed and we fund.
    The bad news of that story is that we understand you are 
about $25 million short in this year's budget; and we will be 
taking a hard look at that to see what, if anything, can be 
done.
    You released a report called ``Accelerating Cleanup'', and 
you referred to the Path to Closure. One of the major 
conclusions was the identification of a potential future 
shortfall between cleanup and cost estimates and projected 
available funds, and there is a pretty large delta there. What 
steps, if any, do you recommend that we take to try to cure 
that problem?
    Mr. Owendoff. I want to probably start this by saying, Mr. 
Chairman, that, through the leadership of this subcommittee 
last year in establishing a closure account, I believe that 
what that does is it sets a mindset that at those facilities 
where there is no longer a DOE mission, it establishes a 
mindset that the business at this site is to get to cleanup and 
get to closure. It is no longer to continue and to maintain, 
you know, work as usual.
    So I want to say that it is through the subcommittee's 
leadership that I believe sent a very important message.
    We--last year, you recommended Rocky Flats be put in that 
and Fernald. In our 1999 budget request, we have included 
Weldon Springs, which is really a lot farther along even than 
Fernald is, as well as the Mound facility in Ohio.
    As far as what is in our strategy and how that relates to 
budgets, I want to say that the strategy is not a budget 
document, but it shows us what are the opportunities when we 
look at the compliance requirements--how do we structure 
projects? What is the critical path? How can we do a better job 
of sequencing and getting those prices down? I think it 
provides a vehicle for us in working with the regulators and 
the stakeholders to decide that we had the agreements that were 
put into place 10 years ago that had milestones going out many, 
many years.
    We see--and I will give an example at Rocky Flats, I think, 
which is a good example in working with the regulators where we 
see that they said, all right, we realize that a lot of our 
compliance requirements were placed on soil and water cleanup, 
but the biggest risk and the highest mortgage costs are the 
storage of plutonium.
    So we will agree with you. Let's look at kind of a 
reordering of priorities and let's put the emphasis on the 
plutonium disposition and removal, getting down those mortgage 
costs, and then we will then push the cleanup work. Not that we 
don't want it, not that we are not expecting you to step up and 
we are not expecting you to walk away, but let's get these high 
mortgage costs down and then get on with the cleanup.
    Through those discussions, you take a hard look at what is 
happening in those areas that you are deciding to shift and is 
there a problem? I believe that certainly today we look and see 
those outyear and see some of those shortfalls. We are 
concerned about that.
    I want to take just one other minute.
    We believe that there is also a lot that will help us with 
technology development, but then intersite transfers just like 
what we are doing at Rocky Flats. But I think the States are 
concerned that they do not see that we have--we are sustaining 
our funding levels and, thus, they are concerned about working 
with us on intersite transfers because they believe that would 
be our way of saying, okay, you are going to fit within the 
budget instead of meeting your commitments. And I believe that 
there is the ability in working with you and in working within 
the administration of saying, if we can convince you or present 
to you that we are trying to be efficient, get our support 
costs down, competitive contracting, that then, with that--and 
then we can demonstrate to you that there are opportunities for 
life-cycle cost reductions, the States will then say--and then 
we convince you that sustained funding levels are reasonable, 
the States will then come in and say we are willing to work 
with you.
    I think what is going to be difficult is today trying to 
get the States--we are now kind of a chicken-or-the-egg deal--
so it is going to get difficult for the States to work with us 
to get efficient and look at intersite transfers if they just 
see that we are falling off on our budget. I think 1999 
demonstrates how each year, as we work the budgets, we look at 
the compliance agreements, we get to that stabilized funding 
level.
    Mr. McDade. I think that the basic thing, as you mentioned, 
is building confidence in each other; and I think the key to 
that is the word ``closure''. That is the reason for the 
committee setting up the account, and that is the reason we are 
going to keep pushing it as hard as we can.
    I yield to my friend from California, Mr. Fazio.

                  foreign spent nuclear fuel shipments

    Mr. Fazio. Thank you, Mr. Chairman.
    Welcome all of you.
    I thought, Mr. Owendoff, I would ask you a question related 
to constituent concerns that I hear out in northern California 
about the transshipment of waste from research reactors 
overseas and the ultimate disposition in Idaho of them. Would 
you give me a background? Maybe the committee would benefit 
from hearing the rationale for the way this program was 
originally constructed and how it is operating.
    Mr. Owendoff. From a nonproliferation standpoint, we 
believe that it is important to return to the United States 
this foreign-research fuel. It is fuel that was originally 
enriched in the United States that went to countries both in 
Europe and in Asia and in South America. That it is important 
from a nonproliferation standpoint to return that material.
    So the question becomes: Where does it return to? Through 
what avenues? And this gets back to the whole issue of equity, 
of who should take what risks.
    So it is through our public interaction that we accommodate 
that. So what we look at is principally coming from the West 
Coast or from the East Coast, how do we get things principally 
to Idaho or to Savannah River where we have interim storage 
until we can have the long-term storage?
    So it is through the Concord area that we believe that 
provides the most appropriate shipping route. We are taking 
great strides in working with the community, working with the 
shippers, to ensure that certainly everything is safe and that 
people are knowledgeable about what we are doing. So we 
believe--we have more work to do, and we are committed to do 
that.
    Mr. Fazio. Just to clarify, this is not material that has 
been developed in any other country? This was developed in the 
United States and shipped overseas----
    Mr. Owendoff. That is correct.
    Mr. Fazio [continuing]. To the research reactors? This has 
not been commercial reactor material or certainly weapons grade 
material; is that correct? It could be, but it wasn't 
originally?
    Mr. Owendoff. It wasn't shipped as that. It was shipped for 
research activities in foreign countries. At the time when we 
were----
    Mr. Fazio. Was this in the '50s?
    Mr. Owendoff. Yes, beginning in 1958.
    Mr. Fazio. The material we fear could be misused for other 
purposes and that is why we have attempted to comply with 
agreements we made, we thought for our own benefit upfront, to 
dispose of it properly here.
    Mr. Owendoff. That is correct.

                     disposing of nuclear materials

    Mr. Fazio. Is there concern that we may expand this concept 
to other kinds of nuclear materials that might also be 
rationalized to be disposed of here as the safest and best 
place to do it?
    Mr. Owendoff. I don't know if Mr. Canter might be able to 
help me. I just know that, within our area, within the 
Environmental Management piece, Mr. Fazio, we do not have other 
things in the pipeline under consideration.
    Mr. Fazio. Mr. Canter, since I am just ranging around, 
maybe you could comment. If you use this rationale, and I know 
we have a specific commitment in this case, you could expand 
this greatly, couldn't you?
    Mr. Canter. Well, this commitment is because this fuel was 
made with highly enriched uranium, not low enriched uranium. In 
other words, it is greater than 20 percent uranium 235; and 
that is the material that you could make weapons out of if 
somebody were to separate it. There are no plans and I don't 
think anybody in their right mind would even talk about 
bringing commercial spent fuel from another nation. Until Lake 
figures out what he has got.
    Mr. Fazio. But hope springs eternal.
    Mr. Canter. There is no other activity that I am aware of 
to bring anything else in. Strictly this highly enriched 
uranium fuel and its unique features that allow the material to 
be used if somebody chemically separated it out to be used for 
making clandestine weapons.
    Mr. Fazio. Can you give us some concept as to how much of 
this material we are talking about? Where it is in the rest of 
the world and how much is coming to the East Coast and how much 
to the West Coast?
    Mr. Owendoff. I can provide that for the record. It is not 
an easy answer. It is several countries with certain casks, 
certain containers and amounts; and so if it is agreeable I 
will provide that.
    [The information follows:]

[Pages 86 - 88--The official Committee record contains additional material here.]


                  foreign spent nuclear fuel shipments

    Mr. Fazio. Is it all in the same casks? I mean, is it all 
being transported in the same manner or are we dealing with a 
variety of different approaches here?
    Mr. Owendoff. The fuel itself is in different 
configurations, but the shipping containers, to my knowledge, 
they are all designed and built to meet the same regulatory 
requirements. They have met the NRC standards as far as 
shipping as well as additional testing. What that means, in the 
way of testing of those containers, you know, for example, 
dropping them out of aircraft and things like that so that they 
meet certain tests.
    Mr. Fazio. Anything we might be likely to do, I guess.
    Mr. Owendoff. You try to get the most detrimental impact.

                        state and local concerns

    Mr. Fazio. Could you give me some sense of what you may be 
doing to mollify the concerns of State and local authorities 
that I know have objected to this?
    Mr. Owendoff. I think the biggest thing is information, 
talking with them. We have multiple meetings that we have had 
with the folks in northern California area to let them--to have 
a discussion with them. Not one that we just present 
information and then walk out the door but have a discussion 
with them on what our plans are, what type of fuel it is, what 
type of shipping container, what our experiences have been in 
the past, the routes that we plan to take, how we will work 
with the carriers and the railroads to ensure that the tracks 
are in good condition, that we don't ship during a snowstorm, 
you know, those kinds of things in working through with the 
communities. We believe that that is probably the major 
concern, is just uncertainty and not knowing what we are 
talking about.
    Mr. Fazio. Are you going to, therefore, let all the 
effected communities know when you are shipping the material or 
is this, for security purposes, better left unknown?
    Mr. Owendoff. Let me submit that. I don't want to give you 
a wrong impression.
    [The information follows:]

         Community Awareness of Shipments of Nuclear Materials

    The governments of the States through which the shipments 
of foreign research reactor spent nuclear fuel are transported 
are well aware of these shipments. The Department has worked 
closely and will continue to work closely at both the State and 
local levels to provide training and information to emergency 
responders, radiological health professionals, and law 
enforcement personnel in preparation for these shipments. The 
Department is also working to ensure that stakeholders are 
aware of the program. For example, for the upcoming west coast 
shipment, the Department has implemented an extensive awareness 
program, and is in the process of conducting awareness 
activities along the potential transportation routes. To date 
over 3,000 stakeholders have participated in this activity. The 
Department has also supported independent research to evaluate 
stakeholder awareness and concerns in California and South 
Carolina.
    In accordance with Nuclear Regulatory Commission 
requirements, specific operational details for spent fuel 
shipments (such as the date) are not released to the public 
prior to the shipments. Each State has a designated point of 
contact who is notified at least 7 days in advance of a 
shipment. In practice, state officials know about the shipment 
well in advance through coordination activities undertaken as 
part of the transportation planning process. The State's point 
of contract is responsible for notifying the appropriate 
personnel and organizations within their State who need to know 
about an upcoming shipment. Typically this includes law 
enforcement, emergency responders, and radiological 
authorities. While the designated routes for the shipments are 
public information, the schedule for the shipments is protected 
information.

                        state and local concerns

    Mr. Owendoff. I will tell you, though, as much as we can, 
we are making information available. I think certainly one has 
to take a certain amount of precautions in today's world, 
because we don't want things to happen.
    Mr. Fazio. Right. I get the impression that we have had a 
kind of bipartisan outbreak of opposition in a number of States 
directly effected. Is that your impression?
    Mr. Owendoff. I don't know if that is the characterization. 
I think that there has been concern, you know, along the 
routes.
    Mr. Fazio. Governors, mayors, congressmen?
    Mr. Owendoff. There has been general concern. That is 
right.
    Mr. Fazio. Those are sometimes pretty specific in their 
general concern, but I just want to tell you that I personally 
support what the Department is doing. Because I don't know that 
you have, frankly, a lot of alternatives; and I think in the 
larger picture this is important for purposes of moving from 
places where we would have far less control over this material 
to other places where we hopefully can dispose of it properly, 
something that could become very dangerous.
    But I have to take note of people who might be seen on the 
political spectrum to my right and left, who have tried to make 
a political issue out of this; and I think they have had some 
success. I think it is largely because people don't have any 
context in which to make judgments about this. It is simply 
something is coming through my neighborhood, why? And why would 
I want it?
    Could you put it into context for the committee how 
dangerous this may be compared to some other kinds of things 
that are traveling on the rails or the highways or what have 
you?
    Mr. Owendoff. If I can. Again, I am not trying to beg off, 
but this is a very sensitive issue, and I don't want to have it 
mischaracterized, and I don't want to have----
    Mr. Fazio. Someone may read the record.
    Mr. Owendoff. I expect that. I don't want to, as I say, to 
mischaracterize what that is, which is what often happens in 
this type of situation.
    Mr. Fazio. I don't want to mischaracterize it either, but I 
think we have failed to characterize to a degree, and that 
creates problems that really are maybe even greater than they 
ought to be.
    Mr. Owendoff. Correct.
    [The information follows:]

                             Transportation

    The transportation of spent nuclear fuel has been conducted 
safely for decades and presents no difficult technical 
challenges. The safety record for spent fuel shipments in the 
U.S. and in other industrialized nations is enviable. Of the 
thousands of shipments completed world-wide over the last 30 
years, none has resulted in an identifiable injury through 
release of radioactive material. The U.S. Department of 
Transportation and the Nuclear Regulatory Commission have 
developed regulations that control virtually every aspect of 
spent nuclear fuel and high-level radioactive waste 
transportation, including the transport packages, physical 
security, and routing.
    These spent nuclear fuel shipments represent a very small 
fraction of the approximately 300 million shipments of 
materials per year that are categorized as hazardous. In 
addition, all shipments will be made in robust containers 
certified by the Nuclear Regulatory Commission that are 
designed to contain their contents under both normal and severe 
accident conditions.
    The current regulations used in the U.S. provide a 
regulatory framework adequate for the Department to implement a 
safe spent fuel shipping program. These regulations are 
consistent with those used internationally and have world-wide 
consensus. The U.S. has shipped safely over 2500 shipments in 
the last 25 years, with an exemplary safety record. This record 
supports the fact that the U.S. Department of Transportation 
and the Nuclear Regulatory Commission have developed 
regulations that provide reasonable assurance for protection of 
the safety and health of the public, and the environment, and 
that strict compliance with these regulations provides the 
Nation with a safe and effective transportation system.

                     disposing of excess plutonium

    Mr. Fazio. Mr. Canter, we had opposition last year on the 
floor from the standpoint of opponents of proliferation of 
potentially weapons grade material to proposals for the MOX 
fuel fabrication facility and the pit disassembly and 
conversion facility. I wonder if you could, from the standpoint 
of the Department, defend your approach versus some others that 
have been offered by our colleagues who are as concerned as we, 
or some would say more so about this concern. I think most of 
us want to do the right thing on nonproliferation, and yet we 
haven't got a consensus as to what would be the right way to 
handle this excess plutonium.

                         proliferation concerns

    Mr. Canter. The principal concern that has been expressed, 
not just on the Hill but in certain nongovernment organization 
groups, is that using mixed oxide fuel will violate 20 years 
worth of plutonium policy, head us in the wrong direction. As a 
result some of the research we have done on this 20 years worth 
of policy, highlight some interesting facts.
    The policy originated with President Gerald Ford. In fact, 
the original policy document was October 28, 1976, and the 
policy stated that we should defer indefinitely commercial 
reprocessing of spent nuclear fuel and the separation of 
plutonium from that spent fuel. The policy is silent on whether 
plutonium that is already separated couldn't be consumed in 
reactors.
    President Carter, in April 1977, took some steps to 
implement that policy further. President Reagan came along and 
rescinded the policy, interestingly enough, but by then the 
costs of reprocessing had gone so high that there were no 
utilities in the United States interested in it. And that 
happened just about the same time as the Nuclear Waste Policy 
Act was coming down the pike with a different answer on what to 
do with spent fuel.
    During the Bush administration, there were no changes. In 
the Clinton administration, the policy statement was put out in 
late 1993 that says the United States does not encourage the 
civil use of plutonium and, therefore, does not itself engage 
in reprocessing for either nuclear weapons or for nuclear power 
purposes.
    So the villain here is the separating of plutonium from 
spent fuel so that it is readily usable in weapons. We have 
plutonium that is already separated. It was separated years 
ago. We are not talking about reprocessing spent fuel. We are 
talking about consuming, in fact, putting back into spent fuel 
the very plutonium that was separated. So we believe that we 
are very consistent with this policy, and it is the right thing 
to do.
    The other concern and the reason why we have the hybrid 
strategy is there are uncertainties on all of these things, and 
we want a backup. Each one is a backup for the other.
    But the Russians have expressed a very strong opinion. The 
Russians are concerned that if we were to immobilize plutonium 
only, number one, you don't destroy a single atom of it; and, 
number two, it is still weapons grade, that weare just changing 
the form for storage and sometime in the dead of night we are going to 
go try to retrieve this stuff and rebuild the arsenal. They express a 
concern about the irreversibility of the disarmament process.
    So we feel that at least some of the plutonium, possibly 
the better quality, should go the route of mixed oxide fuel, be 
used in reactors where we destroy about 30 percent of it and we 
convert the isotopic distribution of the remainder. It can 
still be used as a weapon if you were to reprocess that spent 
fuel, but it is harder, it is no longer weapons grade.
    So we think we are very consistent with the policy. I think 
there are some people who don't believe that, but that is our 
position.

    Debate in the former soviet union (fsu) on plutonium disposition

    Mr. Fazio. Would you typify some of the debate that is 
taking place in the former Soviet Union on this issue? Because, 
obviously, there is a real need that we track each other in 
this regard for mutual security, if not security in the rest of 
the world.
    Mr. Canter. Several things have happened in the last year 
in the former Soviet Union. For one thing, this issue of what 
to do with the plutonium has come to President Yeltsin's 
attention. That dates back to a joint statement between 
President Yeltsin and President Clinton in January of 1994 
where they asked their, quote, experts to look at the problem. 
And we did that, and we issued a report in 1996.
    The Russians were falling behind us. We were proceeding 
with making plans, and they didn't seem to be moving ahead.
    Last year in July, in fact, July 23rd, President Yeltsin 
signed a decree, and with this decree he established an 
interagency standing committee. It is not an ad hoc thing. It 
is a permanent standing committee made up of agency ministers 
or deputy ministers, very high-level, chaired by Velikhov. And 
if you have seen his name around, he happens to be the 
President of the Kurchatov Institute, but he is also the only 
nonministerial member of the Russian Defense Council. That is 
about equivalent to our NSC.
    They have taken on, on an interagency basis, this issue; 
and they have done certain things. They have come up with the 
initial declaration of what is excess in Russia that the 
President announced. They started working on an architecture 
for what the agreements with the United States should be. They 
are putting together a recommendation to the President.
    We had our record of decision in January 1997. They haven't 
had any such thing as that. So they are moving ahead to do that 
and get approval of the President; and, in many respects, they 
are starting to leapfrog here and move forward on it.
    We arranged a meeting--actually, Harvard University 
arranged it for us; and it worked out very nicely because it 
wasn't an official government meeting or we would have spent 6 
months preparing briefing papers. It was in November up in 
Cambridge. Some of the members of that committee and some of 
the members from the State Department, the NSC, DOD, Department 
of Energy, attended; and we came up with a mutual agreement on 
an architecture for getting agreements with the Russians for 
reciprocal action.
    The first step in that is a government-to-government 
agreement on continuing technical cooperation up to and 
including pilot-scale facilities.
    The week before last, I was over there with a team; and in 
three-and-a-half days we essentially negotiated that agreement. 
They were very cooperative. They were very professional, and 
they were interested in it. We have a few things that are 
bracketed in the agreement right now that we are exchanging 
faxes on, but we think that will be ready for signature within 
a couple of months.
    That is the first step. There will be subsequent 
agreements, and some of them have already started working. So 
what we are seeing is that, in the last year, I sense a change 
in the interest at the highest levels in the Russian Government 
that this is a serious problem, and I can understand that. They 
have a fear, particularly of the nations along their southern 
tier, acquiring some of this material and coming up with a 
weapon; and that is probably a well-placed fear.
    So their interest has increased. They are putting some 
effort into it. The big question is going to be, where does all 
the money come from? And that is the thing yet to be solved.
    Mr. Fazio. Harder there even than here?
    Mr. Canter. Yes, sir.
    Mr. McDade. On that happy note I want to inform the people 
in the audience we have a vote on in the House, and we have 4 
minutes to get there. We will recess for 15 minutes. Thank you.
    [Recess.]

                       ``paths to closure'' draft

    Mr. Knollenberg [presiding]. I was about to say, the 
meeting will come to order. But, apparently, it has come to 
order.
    I will pick up then where Mr. Fazio left off, and I want 
to--this will be, I think, probably directed more at Mr. 
Owendoff, but I have a question or two for some others.
    It concerns this ``Path to Closure'' draft. On Tuesday we 
had the opportunity to ask Secretary Pena about that whole 
process, and I am sure he has shared some of that process with 
you. I understood by some of what I heard you say, and I was 
encouraged by some other things. One of the things that 
disturbed me--and maybe this quote was made in reference to 
something specific--but it said that cost is not what this is 
about. I am talking about this whole ``Path to Closure'' draft.
    You mentioned, for example, that some $57 billion of that--
I thought it was $189 billion. That is what we were told the 
other day, and I think your numbers come close to that so I am 
not arguing about that--$57 billion before 2006 and $90 billion 
after, and then there is still a $40 billion defense matter 
that is out there. There is a tiny number, $8 billion. I didn't 
get what that was.
    Mr. Owendoff. Newly generated waste. In other words, 
facilities continue to operate, sir.
    Mr. Knollenberg. This ``Path to Closure'' draft is a 
follow-up from the 10-year plan which provided the vision for 
the whole EM program. I wanted to refer to--I would like to 
remind everybody on this committee that the vision entailed in 
the environmental management program of 1996 is something I 
would just simply like to read to you right now. I have copies 
of that if anybody wants it.
    But, essentially and specifically, it says, within a 
decade--and, remember, this is 1996--the Environmental 
Management Program will complete cleanup at most sites.
    I am encouraged by Fernald. I am encouraged by what is 
taking place at Mound. It looks like Mound will be done in 
2005. I think that is in your written testimony. Fernald in 
2006.
    ``At a small number of sites, treatment will continue for 
the remaining waste streams. This unifying vision will drive 
budget decisions, sequencing of projects, and actual actions 
taken to meet program objectives. The vision will be 
implemented in collaboration with regulators and 
stakeholders.'' And the principles: reduce mortgage and support 
costs to free up funds for further risk reduction.
    Although the DOE took the 10-year concept out of the title 
of what is now called the ``Path to Closure'' draft, I want to 
make sure that you are still committed to cleaning up and 
closing the EM sites as quickly and as efficiently as possible, 
and that you are committed to closing as many as you can and is 
possible by the year 2006.
    I am concerned that it is March 12, 1998, and we still 
don't have even a final report or closure plan. I have been 
told several times over the last couple of years that a final 
version was only a month or so away, but we are still waiting 
for it.
    My staff was told on the 27th of February at a briefing 
where DOE unveiled the ``Path to Closure'' draft, that we can 
expect a final version by June of 1998. That is 2 or 3, 4 
months away. I guess, apparently, the DOE is still looking for 
additional public comments.
    My concern is, can we confirm June of 1998 is the datethat 
we will indeed have a final version available to us on the EM closure 
plan? That is June of this year. Could you respond to that?
    Mr. Owendoff. Sir, our plan is to have it in the June time 
frame. But let me try to give you certainly some of the 
complexities and the realities that we have facing us. But, if 
I can, I would like to just take a step back on an earlier 
thought.
    The reason that we took 2006 out of the title wasn't that 
we are falling off of 2006, but there was a perception that we 
are going to quit the Environmental Management cleanup business 
at 2006 and walk away from the other sites--in other words, the 
larger sites that are still remaining.
    We have, by site, listed the closing dates and our 
commitment to meet those dates on closing those sites and a 
similar lineup to what we had in the previous draft. Please 
don't think that we are falling off of the 2006.

                             closure dates

    Mr. Knollenberg. Let me tell you where I am going. It may 
not be the same road that you are going to take me.
    I want to say this, that the ``Path to Closure'' draft 
assumes a funding baseline of $6 billion. Now that is more 
money. This baseline, frankly, will result, it says, in the 
sunset of the program by the year 2070. I am talking about the 
whole thing.
    But what I am concerned about is this: DOE doesn't even 
request enough money, enough funding to meet the draft 
baseline. In everything that we have seen via the contractors 
and otherwise, they are talking 2010, and that is a ``maybe.'' 
That is not good enough. In my judgment, it is not. It is a 
lackluster draft plan, and under the administration's funding 
request it won't be closed by the year 2010.
    I don't think that is what we envisioned. I don't think 
that is right for the taxpayers. I think there is something 
that has to be looked at, something finalized so that we can 
come up with concrete numbers relatively. So I see some flex, 
some change, perhaps, in attitude.
    You mentioned, I think the word was mindset. Well, I like 
that. If there is a mindset about this that comes into play, we 
can begin focusing on cleaning up those sites.

                          rocky flats closure

    But, Mr. Owendoff, I know you have been the Acting 
Assistant Secretary of Environmental Management for a very 
short time; and I don't expect all of this to be something that 
you are completely familiar with. But I was assured rather, and 
I want to remind you, assured by your predecessor, Mr. Alm, 
when he was Assistant Secretary of EM, and I have also been 
assured by Secretary Pena and by the contractors at Rocky Flats 
that we can finish cleanup at Rocky Flats by 2006 if the 
accelerated level of funding is appropriated. And that is not 
what we are getting.
    I think it is time that we close one of the major sites. 
Rocky Flats is a major site, Fernald and, of course, some of 
the others. Certainly that is worthwhile, what we are doing 
there, and I think that is a target that you can live up to. 
But I think we have to make sure that that happens.
    And I just want to remind you, and it doesn't call for a 
comment, but remind you of what we have gotten before, what we 
have had recommended to us, what we had pledged to us by the 
various individuals, and we want to make sure that that is 
consistent.
    When you are talking about reducing mortgage and support 
costs, this is done to free up funds to bring about more 
closure, more cleanup. I think we have to move in that 
direction.
    So I recognize you want to respond, but I am not asking you 
to. I just want to make sure you understand where we are on 
this, and I think the committee feels very strongly about 
moving quickly with closure on these major locations.

                     viability assessment schedule

    I want to turn now to Mr. Barrett. You had mentioned that 
nothing stands in the way of that becoming a repository for our 
spent fuel; and I want to see--I think most of the people on 
this committee want to see that happen. They want to see Yucca 
Mountain become that permanent repository.
    It appears to me--and this doesn't help you in your work--
that the administration is blocking--is certainly providing 
some obstruction to bringing that about so that we can get on 
with this business of cleanup.
    It is my understanding that the administration would be 
willing to support the interim storage facility once the 
permanent repository at Yucca is approved through a DOE 
viability assessment. I think you referenced that if not in 
your speech, in your commentary here.
    I further understand the viability assessment will be 
completed by December of this year, December of 1998. Can you 
confirm that it will be done by December of 1998?
    Mr. Barrett. We will have the scientific technical work 
completed by that time. It will be given to the Secretary. The 
Secretary has said that in December 1998, he expects it to be 
completed; and I have full confidence that will be the case.

                       yucca mountain suitability

    Mr. Knollenberg. I don't know why DOE and the 
administration are slowing us down on this thing in moving the 
spent fuel away from our communities. It seems to me that, by 
moving that waste to one safe, central location, the DOE will 
be able to comply--if they can comply with all of those legal 
obligations, we should be able to bring this about, and so we 
look forward to that taking place. My judgment is that Yucca is 
the perfect place in this world to put all of that stuff as we 
call it, the waste.
    But, for the record, I want to discuss and, hopefully, 
refute any doubts of Members of Congress that they may have 
about the viability of this repository. So let me direct some 
questions now.

                    yucca mountain technical issues

    Number one, you have been conducting some heat simulation 
tests inside of the repository in order to place the integrity 
of the rock under high temperatures. Can you respond now and 
can you tell me, are there any showstoppers here that would put 
a halt to any of that process? What have you learned from these 
tests? Is it going to be practical?
    Mr. Barrett. We have learned a lot from these tests. They 
are confirming our laboratory experiments, and the rock and the 
water is behaving in these experiments as our scientific models 
are basically predicting.
    In refining those models, we have seen no physical 
situation in the mountain that would make the mountain 
unsuitable to be a geologic repository. On the other hand, we 
have not gathered sufficient information to convince the 
regulatory processes that it would be safe to be a geological 
repository.
    Mr. Knollenberg. What about volcanic activity? Would that 
prevent us from storing the spent fuel?
    Mr. Barrett. We have done tremendous state-of-the-art work 
on volcanism. We have submitted our analyses to all the 
parties, to the Nuclear Regulatory Commission.
    It is our conclusion regarding volcanism that there is an 
extremely low probability, on the order of less than one in 
100million chances per year, of a volcanic intrusion into the 
repository; and that would be perfectly satisfactory, in our opinion. 
The Nuclear Regulatory Commission has done a very thorough scientific 
review of that, and they have concluded that they do not see this as a 
major issue to prevent a repository.
    Mr. Knollenberg. What about earthquakes?
    Mr. Barrett. We have also done a lot of work on seismic 
activity. We do not see any reason that the seismicity or 
earthquake issues would be a major factor as far as preventing 
a repository from being built there.
    Mr. Knollenberg. Lately, chlorine-36 has come into play. I 
understand that the thought is that, from scientists, that it 
may be from the atmospheric tests that were done back in the 
1940s and 1950s. Is there any reason why we should be concerned 
about that? In other words, again, is there a showstopper? Is 
there something that would bring this process to a halt, that 
would prevent us from storing nuclear fuel there as a result of 
chlorine-36?
    Mr. Barrett. The chlorine-36 tracers that have been used as 
part of the experiments underground in the tunnel have 
indicated that there has been some fairly rapid transport of 
liquid from the surface down to the repository horizon. This is 
part of our ongoing hydrological study as to how much water 
there might be in the future and how that water might interact 
with any waste package.
    We are looking at this very carefully. We don't see 
anything from the hydrologic studies that would preclude Yucca 
Mountain from being a repository. On the other hand, we don't 
have enough scientific information to demonstrate before the 
Nuclear Regulatory Commission that it would be satisfactory to 
be a repository, either.
    Mr. Knollenberg. What about water levels that are within 
the mountain itself where the spent fuel is stored?
    Mr. Barrett. We have established, as part of our hydrologic 
studies--that the actual saturated zone water is almost a 
thousand feet below where the proposed repository horizon would 
be. We believe that it is stable, and that is not an issue. But 
as far as the actual water transport through the repository 
horizon, that is a major area of our scientific technical work.
    Mr. Knollenberg. Rains or floods have any problem for you?
    Mr. Barrett. We don't see floods. Part of the program is 
the climatological modeling looking many thousands of years 
into the future. We believe that we are in a relatively dry 
period in this interglacial period. When you start to look out 
thousands of years in the future, we expect it would be wetter 
at Yucca Mountain; and these analyses are being accounted for 
in our modeling for thousands of years into the future.
    Mr. Knollenberg. Eventually, it will all be stored, the 
spent fuel, in casks. Do you have any problem with the 
reliability of the casks?
    Mr. Barrett. The spent fuel would be in what is known as a 
waste package, a metallic, very thick package placed 
underground. We believe the capabilities of modern technology 
are such that we can build those canisters without any major 
problem.

                      transportation of spent fuel

    Mr. Knollenberg. Another controversy that abounds--and I 
think it is spawned and fueled by speculation--but what about 
the transportation issue? For example, how long has the Federal 
Government been transporting spent fuel around the country?
    Mr. Barrett. Transportation of spent fuel has been going on 
in this country and worldwide for 40 years with an exemplary 
safety record.
    Mr. Knollenberg. How many times has there been an accident 
with a nuclear waste vehicle?
    Mr. Barrett. There have been several accidents involving 
nuclear materials when they were being transported. For 
example, a spent fuel truck in, I believe, the 1960s had an 
accident on a road in Tennessee; and the driver was killed. 
However, there were no nuclear aspects to that accident.
    Mr. Knollenberg. Outside of that driver, there has been no 
death or no other----
    Mr. Barrett. There have been routine accidents, but there 
has been no accident that has been of any nuclear consequence 
whatsoever over 40 years.
    Mr. Knollenberg. No radioactive exposure. Thank you.
    We have been talking about volcanos and earthquakes and 
floods and chlorine-36 and heat tests and automobile accidents 
or truck accidents, if you will. Is there any other material 
phenomenon that I am not thinking of which could threaten the 
integrity of the spent nuclear fuel repository?
    Mr. Barrett. Well, the main----
    Mr. Knollenberg. Like the asteroid that is supposed to be 
coming in.
    Mr. Barrett. There are scenarios that we consider low-
probability events such as the asteroid takes out the world. We 
haven't studied those type of things. But the main issue we are 
looking at is the water movement within the mountain, and it is 
a significant issue, and that is where we are primarily 
studying today.
    Mr. Knollenberg. Is there any reason why we won't reach 
viability assessment by the end of the year? Anything at all 
that you can think of in addition?
    Mr. Barrett. I have high confidence that we will complete 
the viability assessment, and it will be forwarded to the 
President and the Congress as provided for in the 
Appropriations Act.

                  decision process for yucca mountain

    Mr. Knollenberg. And you are prepared to name that 
facility, Yucca Mountain, as the permanent repository after 
viability and then thus move nuclear wastes to the mountain?
    Mr. Barrett. In accordance with the statutory laws that we 
must follow, the viability assessment will provide a lot of 
important information that will be used in the next major 
decision, which will be the suitability of Yucca Mountain. 
Following that will be the recommendation from the Secretary to 
the President after the completion of Environmental Impact 
Statements. That is scheduled for 2001. That is the major 
decision point about the suitability of the mountain.
    It will not be the viability assessment that will be 
conclusive that Yucca Mountain will truly be a repository. The 
more important decision will be the 2001 site suitability 
decision, and then we will submit a license application to the 
Nuclear Regulatory Commission.
    We must then go through an adjudicatory licensing process 
at which we must demonstrate that we meet all the safety 
requirements. If we have been able to demonstrate in that 
adjudicatory process that we meet the requirements we should 
then have a repository. But that is still a ways away, sir.
    Mr. Knollenberg. Are you optimistic?
    Mr. Barrett. Am I optimistic? I am optimistic 
withreasonable regulatory standards we can meet that.
    Mr. Knollenberg. Can we help you with those reasonable 
regulatory standards in any way?
    Mr. Barrett. At this time, I don't see anything that you 
could do on that matter.
    Mr. Knollenberg. If you do, let us know.
    Mr. Barrett. Yes, sir.
    Mr. Knollenberg. Now we recognize Mr. Visclosky, I believe.

            community outreach and stakeholder participation

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Owendoff, I appreciated earlier in your colloquy with 
Mr. Fazio about the transportation of spent materials and your 
relationship with communities and your outreach and publicity 
programs. Could you just discuss those for a minute or two?
    I would also request if you have some specific procedures 
or outlines of how you do outreach and communication with 
officials, you could supply that to our office. I would 
appreciate it very much.
    The reason I ask is that another agency of government is 
going to be shipping 23,000 pounds of napalm to a plant in my 
district. That is not nuclear material. It is hazardous 
material. But it has been a horrific experience because this 
other agency of government has simply not had any 
communication, any outreach and made any effort to have any 
empathy with anybody in my district.
    I would like any help you could provide me as to the 
programs and policies you implement to inform officials and to 
engage them in a dialogue, because I don't expect anyone to 
like a program such as the one you run or the one that is 
coming to my district. But I think that type of program can be 
very helpful to allay people's fears that are only, I think, 
exacerbated by people, again, stonewalling. If you could for a 
minute or two, I would appreciate it very much.
    Mr. Owendoff. As I mentioned earlier, I think it is very 
important to inform the public on what we are talking about: 
What is the material? What is our approach to that?
    We also believe in holding public meetings so people have a 
chance for us to have a discussion. As I mentioned, not just a 
presentation and then we walk out the door, but have a 
meaningful discussion so we can answer the questions. Have 
those public meetings in schools and public buildings so people 
have access to that.
    We also believe that it is very important to discuss that 
with the local elected officials so that they understand--as 
being representatives of the people locally, that they also 
understand, first, why are we doing this, why we believe it is 
important in the national interest, the alternatives. It is 
very important to discuss what other alternatives have we 
looked at. Because, naturally, a lot of concern is, why have we 
been chosen to do this? So we go through that.
    We also look at transportation--we get with the Department 
of Transportation if it involves them. If it involves rail, it 
is Federal Rail Administration--Railroad Administration--and go 
through what we believe are the type of shipments we are 
making.
    We go through certainly what are the standard requirements 
that they have, and then we look at how often are we going to 
be shipping things and should there be--is it prudent to have 
some additional precautions, you know, considering again what 
the material is with the approach and what we are doing.
    So it is really hard work to go in, for people to 
understand. It is not one where we certainly know that 
everybody likes it, but we try to be genuine in discussing with 
them what our approach is.
    [The information follows:]

    Public Outreach in Regards to the Shipment of Nuclear Materials

    The Department is engaged in an extensive outreach and 
communication effort with stakeholders, and Congressional, 
State, Tribal, and local officials to inform, discuss, and 
prepare for these research reactor spent nuclear fuel shipments 
to the Savannah River Site (SRS) and the Idaho National 
Engineering and Environmental Laboratory (INEEL). This dialogue 
formally began in 1993 as part of the National Environmental 
Policy Act process. As part of the program's Environmental 
Impact Statement (EIS) preparation, 9 scoping meetings and 19 
Draft EIS meetings and hearings were conducted to engage 
stakeholders. The Department has continued to participate in 
local meetings and hearings throughout the entire 
transportation planning process. Since the acceptance program 
began in May 1996, senior staff from headquarters and the field 
have been meeting with State, local and tribal officials to 
discuss the program and jurisdictional issues and concerns. The 
Department has been working with members of Congress, their 
staffs and other Federal agencies to address concerns and 
issues. For example, the Department is working cooperatively 
with the Federal Railroad Administration to address concerns 
raised by officials in California regarding rail transport 
through the Feather River Canyon area.
    Concurrently, the Department has been meeting with State, 
local and tribal emergency responders, law enforcement, and 
medical professionals to assess the level of preparedness, and 
provide incremental training and equipment to ensure that 
jurisdictions along the transportation route are prepared. For 
example, for the upcoming west coast shipment to the INEEL, 
nearly 2,400 personnel have been trained in preparation for the 
shipment later this year. The Department uses regional forums, 
such as the Western Governor's Association and the Southern 
States Energy Board as well as simulated exercises with local 
officials and professionals to engage in detailed 
transportation planning activities, including contingency 
planning and shipment security.
    Procedures for public outreach for INEEL are described in 
detail in the Foreign Research Reactor West Coast Shipment 
Institutional Plan, while the Savannah River Site procedures 
are contained in the Foreign Research Reactor Spent Nuclear 
Fuel Transportation and Communication Plans.

                        definition of ``sites''

    Mr. Visclosky. If you have some materials, if you would 
share those with our office, I would appreciate it very much.
    Also, in your testimony you mentioned ``sites'' a number of 
times as far as some of your accomplishments. My understanding 
of looking at these is that there were approximately--or are--
113 contaminated sites, 60 of which have been cleaned up. You 
have 53 remaining, and my understanding is that you want 43 of 
those completed by the year 2006.
    The question I have is that you also mentioned that this 
past fiscal year, 1997, you had completed 411 individual waste 
site cleanups. What is the difference between those types of 
sites and the 113?
    Mr. Owendoff. I might mention--I want to just take a step 
back, if I may, for a half a minute.
    What we have attempted to do in the ``Path to Closure'' 2 
years ago was to say we need to have a vision, that kind of 
like the man-on-the-moon vision, that says, what can we do in 
the next 10 years? What can we accomplish? And how can we 
really stretch ourselves and not just be business as usual but 
stretch ourselves into looking at how you get there?
    Certainly with the moon program, we did not know at the 
time in the 1960s how we were going to get there. But you begin 
to lay out some framework that says, how can we accomplish 
that? And you look at each one of the sites that we have and 
say, what are your current costs? What are the things that are 
driving your mortgage rates? And then how can you go--what is 
the critical path? How can you projectize the work that needs 
to be done, look at the sequence? How can I bring in technology 
development to make improvements, integration across the 
complex?
    So, with that, it is really stretching ourselves. We do not 
have all the answers there, but it allows for there to be, 
again, some meaningful dialogue. Kind of the previous 
discussion that we just had, some meaningful dialogue with 
folks on, what are you planning to do? What are the steps? How 
are you sequencing? And maybe we can do this or that better.
    As far as a particular--the 113, I will refer to those as 
geographic sites like Rocky Flats or Savannah River. Within 
each one of those, there are individual what we call release 
sites. There will be areas where contamination has taken place. 
The concern is if we don't have some intermediate performance 
measures that demonstrates how you are progressing say at 
Savannah River to get the cleanup completed, then everybody is 
just waiting until the whole site is done.
    So what we have done, and you will notice in the 1999 
budget submission for the first time that we have done it this 
year, is to look at--we make some commitments to the Congress 
on how many buildings will we have decontaminated. How many 
individual contaminated release sites will we have done? How 
much volume of low-level waste will we have treated and 
disposed of? And that is, again on release sites, we have some 
4,000 release sites across--some geographic sites may have 100 
release sites, say, at Hanford or a couple of hundred. So it is 
the smaller individual areas on a particular geographic site.
    Mr. Visclosky. So you have some standard with which to 
measure your progress or lack thereof of each of these things?
    Mr. Owendoff. That is correct. And with next year's budget 
we will give you the total universe, tell you how many we have 
done to date and what our plan is then each year to work those 
off. We were not able to get that in the 1999 budget on the 
total universe, but we will have that in next year's budget.

                         technology development

    Mr. Visclosky. You also mentioned the introduction of new 
technologies, and you developed 50 new technologies, 40 of you 
which introduced. Could you also describe that? Because I am an 
accounting major, and I don't understand the nuances of nuclear 
technology, but that seems like a lot of new technology. Are 
they variations on a theme?
    Mr. Owendoff. I will just give the picture of what we are 
attempting to do and why counting technologies is a very 
difficult thing and thus we are not trying to take, you know, 
large number credit.
    I think what we have provided in the budget as you walk 
through there is we have demonstrated how we are actually using 
technologies at individual sites for cleanups. And what happens 
on some of the complex remediation work, you will have one 
technology that you need to do an analysis of what is the 
condition, what is the soil sample like and how do you 
accomplish that? Do you have to dig up the soil through bore 
holes or can you do punch down with a probe at the end?
    So as you go through a particular cleanup of a release 
site, you are going to have several technologies that are 
involved in that. And we may have technologies that were used 
in one case decontaminating a building and we have not tried 
that particular technology on soil cleanup. So that is how--
again, not trying to triple count.
    Probably what is more meaningful is that we have provided a 
by-site look at innovative technologies that we are actually 
using at those sites; and we are trying to, again, in our 
efforts to reduce mortgage costs, to be more cost-effective, 
putting out competitive contracts, that we are getting in the 
best and the brightest to look at the cleanup problems we have.
    Mr. Visclosky. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. McDade [presiding]. The gentleman from New Jersey is 
recognized.

                          viability assessment

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    A question for the gentlemen. Good morning. It is still 
morning, although you wouldn't know it.
    Mr. Barrett, I just have a question relative to the Office 
of Civilian Radioactive Waste Management in your statement. 
Could you explain to me what this sentence means? The fiscal 
year 1999 budget request will allow us to capitalize on the 
Yucca Mountain viability assessment as we progress towards a 
national decision on the geologic disposal option. What does 
that mean?
    Mr. Barrett. Yes, sir. The viability assessment will be a 
compilation of all the science and engineering that we have 
basically done to date, where we will pull it all together in 
an integrated fashion at the end of this year. That will give 
us a base of where we are, what additional work needs to be 
done to complete the remaining work for a presidential decision 
on the suitability of the site, and the information necessary 
for a license application to the Nuclear Regulatory Commission.
    So we will lay out that work that remains in front of us. 
So our 1999 work, which is after the viability assessment is 
completed, will be based upon that.

                       progress at yucca mountain

    Mr. Frelinghuysen. The operative verbs throughout your 
statement are to continue, to further refine, to strengthen, to 
prepare an issue, to support, to work with.
    The public has a right to know at some point in time 
whether we are going to fish or cut bait on Yucca Mountain. The 
Department was good enough to host me when I went down there 5 
miles into the mountain where I thought it was fascinating. 
But, in reality, a lot of money has been spent on this project.
    I am excited by it. I support the idea of a national 
repository. But when it is all said and done, all of this money 
has been spent, an incredible amount of reports have been sent 
to the Nuclear Regulatory Commission and half a dozen and other 
agencies that may have some responsibility for oversight. Is 
anything ever going to happen with this project?
    Mr. Barrett. All I can say, from the Department of Energy's 
perspective, we are doing the world-class science that supports 
the project. But it is not the Department of Energy's decision 
to do a repository or not. The Secretary makes a recommendation 
to the President. The President must make a decision. The 
governor then has the right of disapproval in accordance with 
the Act. If that happens----
    Mr. Frelinghuysen. This is a colossal undertaking. This 
must be one of the largest gargantuan public works projects in 
the history of our Nation. I am fascinated by the people that 
work in that environment. I salute them. They are amazing. They 
are the same type of people that do work building tunnels under 
the Hudson River. They are remarkable by any definition.
    But when it is all said and done, is this thing ever going 
to be used? And I think our job here is to certainly promote 
the idea. And you are doing the science to back it up. But I 
would like to know whether you think this thing is ever going 
to be a reality.
    Mr. Barrett. I hope that it will be a reality. I mean, one 
of the key things that we do not have at this time are national 
standards. How safe is safe enough and for how many thousands 
of years into the future? That is undergoing the processes 
under the Energy Policy Act of 1992.

                           spent fuel storage

    Mr. Frelinghuysen. How safe is it now? How many sites are 
there on a national basis where these wastes are located?
    Mr. Barrett. These materials are located at the commercial 
nuclear power plant sites as well as the DOE sites, 
approximately 80 sites across the Nation.
    Mr. Frelinghuysen. Eighty sites. Well, in my arguments for 
this repository I often say is it better to have one site where 
these things could be located. And I had understand there are 
transportation issues, there are environmental issues, seismic 
issues. I mean, I think that the people in the Department of 
Energy ought to be far more proactive.
    I understand the political considerations here. But I think 
this is a national disaster in the making, allowing 80 sites, 
even though they may be well protected--and God only knows if 
they are, in all instances--to continue to allow these wastes 
to be kept there with really no push from the administration. 
Everybody seems to be waiting upon the President and the 
Secretary to sort of change their mind.
    But, in terms of your efforts and the amount of money that 
we have expended here, you are 100 percent behind this option?

                     support for geologic disposal

    Mr. Barrett. We are. Secretary Pena has supported me. The 
President has supported the Secretary and we are proceeding 
ahead as quickly as due diligence and science allows us on 
evaluating the Yucca Mountain site. I believe that is a solid 
commitment from the administration.
    Mr. Frelinghuysen. Well, I don't get the feeling that the 
administration is behind this as a possible site. I mean, that 
is the gut feeling I get.
    I am all for the science. I am for checking everything out. 
But most of us get the gut feeling--I will speak for myself--
that this thing is never going to happen. And that would be an 
absolute tragedy.
    At some point in time, and this is a good time to do it 
since the President is in his last term. This is a time 
somewhat to be more courageous. Let's do something.
    Certainly a lot of people have paid money into this fund, 
the purposes of which are to see this thing to fruition. So it 
is an annual plea. It is not so much of a question. Maybe it is 
rhetorical, but I think the bottom line is that we need to do 
something. Thank you for your efforts and for being somewhat 
the apologist for the situation that is not totally within your 
control.
    Thank you.

                               litigation

    Mr. McDade. Mr. Barrett, a very important issue which we 
haven't addressed and we have to and we have to get, as usual, 
your candid answers is the question of the lawsuit that is 
pending against the Department for contempt of court for 
failure to comply with the 1998 guideline to receive wastes. 
You have got a tiger by the tail in the sense of the 50 States 
and the unified utility industry, don't you?
    Mr. Barrett. It is an extremely complex matter.
    Mr. McDade. Describe it, would you please? I don't mean to 
try to simplify it.
    Mr. Barrett. It is an extremely complex issue of economics 
and legalities going on in multiple arenas that are all 
intertied. To try to summarize the situation, the Circuit Court 
of Appeals in November produced a ruling, based on the previous 
litigation of the utilities in many of the States, and in that 
they concluded that we should try to proceed to see if the 
delays clause within the existing contract between the 
Department and the utilities would be an adequate remedy to 
resolve the delays. We are in the process and ready to do that.
    In addition, the Federal Government, the Department of 
Justice, asked for a rehearing from that court as to the 
appropriateness of that ruling and the appropriateness of that 
court to make that ruling; and that is under consideration by 
the court.
    Forty-one utilities and 49 State organizations also went 
back to the same court and have requested that the court order 
DOE to comply with what they originally were asking for, such 
as escrow the money. Also, if any money was to be paid, it was 
not to be ratepayer funds; and that, again, rests before the 
Court of Appeals for the D.C. Circuit.
    In addition, two utilities have gone to the Federal Court 
of Claims, claiming a partial breach of contract and are 
requesting $60 million and $90 million in damages in the Court 
of Claims.
    Mr. Fazio. Excuse me. Would you tell me who these two are 
for the record?
    Mr. Barrett. Yes. Yankee Atomic. That is the Massachusetts 
plant and also the Connecticut Yankee plant. Both of those are 
shutdown reactors, and the fuel remains on those sites due on 
our inability to move the fuel.
    The Secretary has met with the utilities and with the 
States, and we have discussions going on to see if there can be 
an equitable resolution of this matter within the existing 
statutes that we can do. So----

                      interactions with utilities

    Mr. McDade. Are those discussions encompassing everybody 
that is in this fight, the Court of Claims, the States, the 
utilities?
    Mr. Barrett. We have offered and the Secretary has 
personally met with the utility CEOs and the State regulators 
and also environmental groups. I am in contact with virtually 
all of those groups at one time or another. There are certain 
issues that we are discussing in confidence, and then there are 
many other issues that go on that control the timing.
    Mr. McDade. You could say that everybody is under the tent, 
can't you?
    Mr. Barrett. Everybody is engaged, sir.
    Mr. McDade. You don't have anybody dissenting and staying 
outside of the negotiations?
    Mr. Barrett. There are some utility contract holders that 
for reasons that are theirs, haven't engaged with us in any 
dialogue. That is their choice.
    Mr. McDade. That is what I wanted to ask you. What is the 
number that have taken that position?
    Mr. Barrett. I could provide--we have sent official letters 
in this process over the last year. Most contract holders have 
responded in one way or another. Some have chosen not to. I 
could supply for the record the half dozen or so----
    Mr. McDade. Elaborate it on the record, if you like, and 
give us detailed description of who the people who are not in 
the negotiations are. And if you care to express your personal 
opinion as to why, we would like to know that, too.
    Mr. Barrett. Yes, sir.
    [The information follows:]

                   Discussions With Contract Holders

    The Department has attempted to engage all of the utility 
Standard Contract holders through several mechanisms (e.g., 
written requests, face-to-face). To date, only one utility 
contract holder, South Carolina Electric and Gas, has not 
engaged the Department in any way. South Carolina Electric and 
Gas owns the Summer Nuclear Station in Jenkinsville, South 
Carolina. The Summer Nuclear Station is a single unit 885 MWe 
Pressurized Water Reactor that began operation in 1982. The 
Department is unaware of reasons why this utility has not 
engaged the Department.

                           utility litigation

    Mr. McDade. What is the Department going to do if you have 
to compensate all of these people?
    Mr. Barrett. That is a complex legal matter, also.
    Mr. Fazio. We will stipulate to that.
    Mr. McDade. They have you in charge of complexities down 
there.
    Mr. Barrett. The Federal Court of Appeals for the D.C. 
Circuit in their November ruling stated that the existing 
contract was a potentially adequate remedy. Now, under that, I 
will briefly describe what that process would be.
    Under the avoidable delays clause--and the Court said we 
could not use the unavoidable delays clause. The way the 
avoidable delays clause is set up is that either party that 
causes the delay must address that delay. In this case, it is 
the Federal Government in the totality that is causing the 
delay, so I will not discuss the utilities being late, because 
they are not.
    The person who is delayed, which are the utilities in this 
case, would provide information to the Department of Energy 
that these are the costs caused by the delay. And the contract 
states, and I will quote: that charges and schedules specified 
by this contract will be equitably adjusted to reflect any 
additional estimated costs incurred.
    Now, no utility to date has submitted a claim to us forwhat 
the delays are. Most of those have chosen to go back into the court. 
Now, if they were to submit a claim to us, we would, following due 
legal process, process that. If we were to determine, and there is an 
appeals process specified also in the contract----
    Mr. McDade. Outside the court system?
    Mr. Barrett. There is a contracting officer.
    Mr. McDade. Mediation type?
    Mr. Barrett. Not mediation, sir. What is in the contract is 
our contracting officer makes the decision. If the utilities do 
not believe that is a proper decision, they may take it to the 
Department of Energy Board of Contract Appeals, which is an 
independent board of appeals within the Department of Energy 
that reports to the Secretary.
    The Board of Contract Appeals could rule on it; and if they 
rule--let's assume that they rule for the utility, then we 
would have to deal with it. If they ruled against the utility, 
the utility would then have the right to go into the court 
system. So it is a fairly complex matter, but those are the 
rights under the contract.

                        nuclear waste fund fees

    Mr. McDade. I didn't mean to divert you.
    Mr. Barrett. Now the charges referred to in the contract is 
each nuclear utility pays one mil, that is one-tenth of a 
percent to the Federal Government, for every kilowatt hour of 
electricity generated by nuclear power. This is approximately 
$630 million a year based on nuclear electricity generation in 
the United States now.
    What we would do is, whatever the costs of the delay were, 
we would tell that utility, you may reduce your payments--your 
charges have been adjusted. So they would pay less into the 
Federal Treasury to cover what the fair cost of the delay would 
be.
    What becomes an inequity in this and why utilities do not 
like this, is what would happen. We must also look at the 
adequacy of the waste fund to support this program. The basic 
premise in the 1982 Act was the generator of this waste shall 
pay for its ultimate disposition. That is why the utilities 
paid all of this money. So if we had a lot of these damage 
claims that were appropriate claims and we reduced charges for 
operating reactors, it could eventually come to a situation 
where there may not be enough money in the fund to perform this 
job.
    Then, under the statute, the Secretary would have to raise 
the fee and that would lay before the Congress; and what you 
are doing is reallocating the utility's own money. I do not 
believe that is what the intent of the Court was, but that is 
what the reading of the contract and what the Court told us to 
do.
    So this is an issue that the utilities have gone back to 
the Court over. They are asking the Court of Appeals to rule 
that this is not an equitable solution under the court order. 
This will be a matter for the people who wear the black robes 
to decide, and they will do that.
    Mr. McDade. Sometime.
    Mr. Barrett. Yes, sir.
    Mr. McDade. If it goes back--you said if you reach an 
agreement, it lays in front of Congress. Does that mean that 
there is a provision within the procedures to place the final 
decision for an up-or-down vote before the House and the 
Senate, or is it just an information thing?
    Mr. Barrett. In the Nuclear Waste Policy Act of 1982, if 
the Secretary believes that 1 mil per kilowatt hour must be 
raised and to date we have said there is adequate money in the 
waste fund in our analyses to date, the Secretary would propose 
an increase and that would lay before the Congress.
    I will have to check in the Act exactly what the wording 
would be, because I don't recall at this very moment, but there 
is a provision in the Act relating to this. I don't know if it 
takes a vote or if it just happens after a certain time period. 
I will provide that for the record.
    [The information follows:]

             Congressional Action on Nuclear Waste Fund Fee

    The fee of 1.0 mil per kilowatt-hour for disposal of spent 
nuclear fuel and high-level radioactive waste was established 
by section 302(a)(2) of the Nuclear Waste Policy Act of 1982 
(NWPA). It provides Congress with a specific role and time 
period to act with respect to adjustments to the fee proposed 
by the Secretary of Energy.
    Section 302(a) of the NWPA further specifies that ``. . . 
[i]n the event the Secretary determines that either 
insufficient or excess revenues are being collected, in order 
to recover the costs as defined in subsection (d), the 
Secretary shall propose an adjustment to the fee to insure full 
cost recovery. The Secretary shall immediately transmit this 
proposal for such an adjustment to Congress. The adjusted fee 
proposed by the Secretary shall be effective after a period of 
90 days of continuous session have elapsed following the 
receipt of such transmittal unless during such 90-day period 
either House of Congress adopts a resolution disapproving the 
Secretary's proposed adjustment in accordance with the 
procedures set forth for congressional review of an energy 
action under section 551 of the Energy Policy and Conservation 
Act.''

                           payment of claims

    Mr. McDade. Give us an estimate for the record, too, as to 
the amount if they did have to do it, how much it would be. You 
talked about $600 million currently, did you?
    Mr. Barrett. The utilities presently are paying into the 
nuclear waste fund around $600-plus million a year. The balance 
in that is about $6 billion today as we speak. The amount of 
damages is a highly variable number that they may claim. Some 
statements are it is up to at high as $100 billion. Others 
might look at it, if it is the true cost of the additional 
storage, as more in the tens of millions of dollars. But it is 
a large variance that, until the process is finished, I would 
hesitate to speculate on what those might be.
    [The information follows:]

                      Estimate of Costs of Damages

    It is not possible to estimate the cost of compensating 
utilities for the Department's delay and the resolution of 
claims will likely turn on highly fact-specific and 
individualized decisions about the costs incurred by each 
contract holder as a result of the delay. To date, only two 
utilities have filed suits for monetary damages in the Federal 
Court of Claims, Yankee Atomic Electric Company and Connecticut 
Yankee Atomic Power Company. Yankee Atomic has claimed more 
than $70 million in damages and Connecticut Yankee more than 
$90 million. These two claims are still in a very preliminary 
stage of litigation and outcomes cannot be predicted at this 
time.

                           payment of claims

    Mr. McDade. Mr. Barrett, thank you very much.
    Mr. Fazio. Mr. Chairman, could I follow up on that?
    Mr. McDade. Of course.
    Mr. Fazio. I wonder, at any point do you perceive the 
General Treasury of the United States vulnerable to any costs?
    Mr. Barrett. It is hard to speculate as to potential 
outcomes.
    There are two of these cases before the Court of Federal 
Claims. If there was a ruling against the Department of Energy 
in the Court of Federal Claims, there would then be some 
discussion about should those payments--if the Court concluded 
there were payments to be made, should those come from the 
judgment fund or should those come from the Nuclear Waste Fund?
    That issue will be one that lawyers will debate for some 
time. So I believe there is some potential vulnerability or 
jeopardy to the judgment fund which generally is taxpayer 
funds.
    Mr. Fazio. Replenished by the taxpayers' funds.
    Mr. Barrett. Yes.
    Mr. Fazio. Mr. Rogers should be informed that we may be 
transferring some of our burdens to him.
    Do you think it would be possible to argue that 
stockholders would have grounds to sue boards of directors, or 
company management, if they didn't claim that they had been 
injured? After all, they have spent a good deal of money in 
this regard over time.
    Mr. Barrett. In the regulated utility world, the public 
utility commissions and stockholders, it is very possible 
anything could be claimed by any group.
    Mr. Fazio. And the only constant here is lawyers.
    Mr. Barrett. Yes, sir.
    Mr. McDade. And, if I may add, complexity.
    Mr. Fazio. Yes, sir, so stipulated.
    Mr. McDade. The gentleman from Michigan is recognized.

                   final version of paths to closure

    Mr. Knollenberg. Thank you, Mr. Chairman.
    I have one question, then I will let you get away. I didn't 
want you to respond, but I do on the basis of additional 
information here in the last few moments. I mentioned to you 
that back in February my staff was told that this EM closure 
plan, the final version, would be available by June of this 
year; and the gentleman's name that made that, who is 
apparently someone junior to you, was Eugene Schmidt. That was 
on the 27th of February, and he stated that a final version 
will be ready by June of 1998.
    Do you want to certify, confirm that that will be 
available? I am putting you on the spot, but I would like to 
know if that is going to be here.
    Mr. Owendoff. Sir, our intent is for the plan to be here in 
June. But I need to also say that with the plan being out for 
comment, and what--out for public comment as well as----
    Mr. Knollenberg. What you are telling me is that it may not 
be ready. He said it would be.
    Mr. Owendoff. That is correct. I don't believe Mr. Schmidt 
was certifying that it would be there. It was the plan for it 
to be available in June.
    Mr. Knollenberg. My staff was there. They heard what he 
said, and he said it would be available. Now you are saying 
that it won't be?
    Mr. Owendoff. No, sir, I am not saying that it won't be. I 
am saying that is our plan, to have it available in June.
    Mr. Knollenberg. Well, I really am looking forward to 
seeing it in June, because I think we should expect something 
by June. This is something that has been out there for a long 
time, and dates shouldn't be tossed out if they are not going 
to be lived up to, whether it is Mr. Schmidt or certainly 
anybody from the Department.
    Mr. Owendoff. I agree. If I may, on that, though, you 
mentioned earlier that the plan was based on a $6 billion fund 
level. It is based on a $5.75 billion level.
    Mr. Knollenberg. That is what bothers me. The $6 billion is 
what it would take to get closure through by 2006--maybe--
maybe. $5.7 billion, frankly, isn't going to do it.
    Here is the sheet, if you want to look at it, put together 
by contractors that says it ain't going to get done by 2006. 
That is what is troubling. You are asking for less money to do 
a job that won't be done by 2006 and won't be done by 2010. 
That is what is troubling to me.
    Mr. Owendoff. I would like to characterize that chart. That 
is the chart that has come in from the contractor. I think that 
you rely on us as Federal officials to then also look to say 
what is the basis of those costs and have they been reviewed? 
And I think that this committee--and we applaud what this 
committee did last year in saying we believe it is important to 
have independent reviews and independent validations of costs, 
and that is what we plan to do.
    What we don't want to do is to come before the committee 
and to indicate that we have pass-through costs that come in 
from contractors, because I think in the past you all have been 
very concerned about that, and we are, too.
    Again, as Federal officials, what we believe is we have 
adequate funding requests in the 1999 budget for Rocky Flats 
not only to meet their compliance agreements but also to keep 
them on their critical path. What they presented to you the 
other day was, if they had some amount of additional monies, 
then they could do some decontamination and decommissioning 
work that is not on the critical path but would give them some 
additional confidence.

                              kyoto treaty

    Mr. Knollenberg. Here is what I am going to suggest that we 
do. Probably the truth is somewhere in the middle.
    I don't suggest to you that you are completely wrong. I 
don't suggest to them that they are completely right. But I 
think we ought to get together on this because there are some 
differences here. We could move those goal lines a little 
closer. So I appreciate what you are saying.
    Let me then quickly, if I can, Mr. Chairman, one final 
question I want to direct at Mr. Canter, who has been left 
alone for a while here, relative to the Kyoto Treaty. I was one 
of the folks that went to Japan with the congressional 
delegation; and one of the things that we found, to our 
disappointment, was the fact that the U.S. is going to be 
carrying the major burden of this, having to reduce our 
greenhouse gas emissions 7 percent below 1990 levels and 
exempting a host of other countries, almost 80 percent of the 
rest of the world, India and China being two, namely.
    Japan was a strong proponent of this, and Japan has 44 
existing commercial nuclear reactors. They are going to build 
20 more. I have just been told that we are down to 105. We had 
110 I think it was last year. We are going the other direction. 
Japan will meet her targets simply with utilization of 
increasing nuclear power plants.
    In the U.S., there appears to be no similar plan. In fact, 
there is a reverse strategy. There is nothing really being done 
to build any additional nuclear power plants. In a deregulated 
electricity market, we may see more older plants shut down.

                                mox fuel

    On the MOX fuel issue--and that is what I am getting to 
here, and I know that you are an authority in that regard, if 
we can call you that--last year I sent a letter to the 
Secretary of Energy urging that we continue the dual-track 
approach in order to eliminate the excess U.S. weapons 
plutonium stockpile.
    Actually, that would do two things. It would not only 
include the development of the MOX fuel, but it would also 
provide an approach to immobilize or the vitrificationprocess 
would be brought into play. Secretary Pena has mentioned in his written 
response to the dual-track approach that it will provide us with the 
flexibility that we need to leverage work with Russia and our other 
allies in the task of reducing Russia's plutonium stockpiles.
    Can you give me quickly an update on where we are with 
respect to that process? And you might want to include in your 
answer, has a contractor been named? Has anything happened?
    I understand there has been a delay of some kind. There is 
no request for proposals for the fuel fabrication and 
irradiation service. So I would like to know, if you can, what 
is the current status of that program and do you see it coming 
about in the near term?
    Mr. Canter. With regards to seeing it come about in the 
near term, the answer is yes.
    Let me give you the status. July 17th of last year, we 
published for industry comment a procurement strategy. We got a 
lot of comments. In fact, we held some meetings with 
representatives of industry and others, and some of the things 
we had they are uncomfortable with.
    We then, in November of last year, published a draft 
request for proposal, RFP, and then we held meetings. December 
11th we had a meeting out in Chicago. And industry commented on 
that, and we were converging on something. We have now revised 
this request for proposal. It is ready to go out, and we will 
solicit proposals.
    We have one thing we have to do because it was all based on 
NRC licensing of this MOX fuel fabrication plant. And under the 
Atomic Energy Act, anything done under contract with the 
Department of Energy is exempt from licensing. So, as a result, 
legislation would be required to give the NRC the authority to 
license this MOX fuel fabrication plant.
    So what we have been doing for the last week or so is 
putting together a contingency plan that, in the event that 
legislation does not appear this year and we enter fiscal 1999 
where we have requested money for that contractor to do a lot 
of work, how will we proceed? How will we work it out with the 
NRC? And we are having dialogue with the NRC staff on laying 
this plan out. We think that will all be resolved in the next 
week or two, and that request for proposal will go out by the 
end of the month, and we will solicit proposals from industry.
    We have to do that. We don't own any of the reactors, and 
there is no MOX fuel fabrication plant in the United States. So 
we have to create this, and it will be a private venture, a 
consortium. We will request that the proposals be submitted by 
June, and our intention is to award the contract by the end of 
September so as we approach fiscal 1999 we have a contractor in 
place to start work.
    Mr. Knollenberg. That is encouraging.
    Lindsey Graham, a colleague of ours, as you are well aware 
of, I am sure, just this week released a report which declared 
these same concerns. And you know the threat of weapons grade 
plutonium falling into the hands of the wrong folks is out 
there, and it is an ever-increasing threat. So I appreciate 
that update.
    Hopefully, that is a status quo that will not remain, it 
will continue to go down the line, and we look forward to that 
coming into being a reality.
    I thank you very much, Mr. Canter.
    Thank you, Mr. Chairman.
    Mr. McDade. The gentleman from New Jersey?
    Mr. Frelinghuysen. No.
    Mr. McDade. Gentlemen, we thank you very much for your very 
informative and helpful testimony.
    The committee stands in recess until Tuesday, March 17th, 
10:00 a.m. Thank you very much.
    [The questions and answers and information submitted for 
the record follow:]

[Pages 113 - 350--The official Committee record contains additional material here.]


                                           Tuesday, March 17, 1998.

                    ATOMIC ENERGY DEFENSE ACTIVITIES

                               WITNESSES

DR. VICTOR H. REIS, ASSISTANT SECRETARY FOR DEFENSE PROGRAMS
ROSE E. GOTTEMOELLER, DIRECTOR, OFFICE OF NONPROLIFERATION AND NATIONAL 
    SECURITY

                            Opening Remarks

    Mr. McDade. The committee will come to order. We are 
pleased this morning to have two distinguished witnesses in 
front of the committee on one of the most important programs in 
the world. They are vested with an enormous responsibility. We 
are glad to have them here.
    We need to remind everybody that pursuant to the vote of 
the committee on March 10th, 1998, today's hearing will be held 
in executive session. Dr. Reis, as you know, I need to have you 
verify that everyone in the room has the appropriate security 
clearance.
    Dr. Reis. I can so verify.
    Mr. McDade. Thank you, Doctor.
    Members of the subcommittee, we just want to keep in mind 
that nothing is to be discussed outside this room; that the 
matters that are under consideration have a high degree of 
classification, and we should keep it that way.
    One last reminder, to anybody in the room, please make sure 
that all cellular phones and two-way pagers and any 
unauthorized recording devices are turned off during the 
hearing.
    With that, we welcome you, Vic. We welcome you, Ms. 
Gottemoeller.
    Vic, you have the floor. You are extremely welcome in front 
of the committee. We invite you to proceed as you wish, either 
filing your statement or reading it and extemporizing it. We 
encourage, of course, extemporized comments.
    Dr. Reis. I recognize that. I will start out with a few 
extemporized comments. I want to mention, this is my fifth 
annual appearance before this committee. My first appearance 5 
years ago, Mr. Bevill was the chairman, Mr. Myers was the 
ranking minority member, and then the following year they 
switched positions. Mr. Myers was the chairman, Mr. Bevill was 
the ranking minority member. The third year, Mr. Bevill retired 
and then Mr. Fazio became the ranking minority member. Then Mr. 
Myers retired. You became the chairman. Now I understand that 
both you and Mr. Fazio will be retiring at the end of the year, 
and I wondered if it was something I said.
    Mr. McDade. Vic, this is just a very fatal seat to sit in 
up here. There are other places that have more longevity.
    Proceed, my friend. Vic, let me ask you a question, just 
sort of a personal question. How many years have you been in 
public service to the country?
    Dr. Reis. Altogether, it will be about 15. Those years 
which I didn't work directly in the government, I have been 
involved in private industry or academic positions, and even 
those I was usually a special government employee working as a 
consultant.
    Mr. McDade. You have been affiliated with public service 
for a long time and we want to express our gratitude to you.
    Ms. Gottemoeller, how long have you been in public service?
    Ms. Gottemoeller. I have worked in the Clinton 
Administration since really the transition in 1992. I headed 
the ACDA transition in 1992 and went straight into the White 
House at that time. I was in London for 3 years as Deputy 
Director of the International Institute for Strategic Studies, 
and have only now returned in October.
    Mr. McDade. Welcome home.
    Ms. Gottemoeller. Thank you very much. It is a great 
pleasure to be here. I must say that I worked for the Rand 
Corporation for many years, for about 11 years, and during that 
time did a great deal of work for the Air Force and for the 
Office of the Secretary of Defense overall. So I was in that 
gray area between government service and academia.
    Mr. McDade. I don't know that we would do without Rand. 
They do some magnificent work for the country.
    Ms. Gottemoeller. Thank you.
    Mr. McDade. Vic, please proceed with your opening 
statement.

                    Oral Statement of Victor H. Reis

    Dr. Reis. Thank you, Mr. Chairman, for the opportunity to 
testify before you today on the Defense Program's fiscal year 
1999 budget request of $4.5 billion of which $4.3 billion is 
directly devoted to Stockpile Stewardship.
    With your permission, I will summarize my testimony by 
reading the summary of my testimony. Mr. Chairman, the purpose 
of Stockpile Stewardship is to maintain the safety and 
reliability of the U.S. nuclear weapon deterrent under a 
Comprehensive Test Ban Treaty. While the program is hardly 
without risk, I believe we have a high probability of success. 
Why do I feel as I do?
    First, let me reiterate that we start from a solid base. 
The current stockpile is well tested and well understood. The 
designers and engineers who built them are available and are 
active. Indeed, they are the ones who are creating the 
Stockpile Stewardship Program. They are the ones who are 
working on the stockpile now and are helping to train their 
successors.
    Second, we have laid out a plan for the Stockpile 
Stewardship Program weapon by weapon, part by part, that 
projects the tasks required to maintain the stockpile over the 
next 10 years and beyond.
    We have concurrence on this program from the Department of 
Defense, the Joint Chiefs, and the administration has committed 
to fund this program and all its parts.
    Third, the President requires us to annually certify to him 
directly the safety, reliability and performance of each weapon 
type. Just this last February 11th, he transmitted that 
certification to the Congress.
    Fourth, we have a backup. Under Safeguard C of the CTBT, 
the President requires us to maintain the Nevada Test Site in 
astate of readiness, and the subcritical and other experiments 
conducted there helps keep the people sharp and ready. The successful 
experiments bear evidence that the the Nevada Test Site remains a ``can 
do'' operation.
    Fifth, under Safeguard B of the CTBT, the President 
requires us to maintain the vitality of the nuclear weapons 
laboratories, Los Alamos, Lawrence Livermore and Sandia 
National Laboratories.
    Mr. Chairman, these labs are among the best in the world. 
In my opinion, they are the best in the world and they are 
better now than they were 4 years ago because of the enthusiasm 
and vigor with which they are attacking the Stockpile 
Stewardship effort.
    History tells us that great labs need great missions, and 
Stewardship, like the Manhattan and Apollo projects is just 
such a mission. Our DOE labs will get even better because they 
are attracting the kinds of people who are drawn to solve tough 
problems of national importance.
    Sixth, and this is most important, we are doing stewardship 
now, and doing it successfully. It has been 5 years since the 
last underground test. We have completed our second annual 
certification and are working on the third.
    [Deleted.]
    We have begun construction of new experimental tools. The 
National Ignition Facility (NIF), the Dual Axis Radiographic 
Hydrotest Facility (DARHT), ATLAS and our computation program 
has developed the world's fastest supercomputer by a factor of 
3. And we have solved some problems that in the past would have 
likely required nuclear testing by using stewardship tools. We 
have done literally hundreds of experiments on existing 
facilities. The Omega and Nova lasers, Pegasus Z-pulse power 
devices, PHERMEX and Flash X-Ray (FXR) hydrotest facilities, 
the Los Alamos Neutron Science Center (LANSCE) accelerator that 
increase our understanding of nuclear weapons.

                        Subcritical Experiments

    The subcritical tests have brought new insights to old 
problems and are preparing the way for resumption of plutonium 
pit production, and throughout we are using the new 
computational tools to predict and analyze experiments and 
connect with the archival underground test data,
    We have safely dismantled over 9,000 nuclear weapons since 
the end of the Cold War and we have developed new production 
processes that are much more efficient and environmentally 
sensitive, and have produced numerous parts on time while 
continuing to downsize the complex. This is a system that 
works. And not just at the labs, but also at the plants: Oak 
Ridge Y-12, Pantex, Kansas City, Savannah River, and the Nevada 
test site.
    Mr. Chairman, when President Clinton visited the Los Alamos 
National Laboratory last month, he stated, I don't think we can 
get the treaty ratified unless we can convince the Senate that 
the Stockpile Stewardship Program works. I believe the 
Stockpile Stewardship Program, if supported appropriately, can 
meet its goal of a safe and reliable stockpile indefinitely 
without nuclear testing.
    The committee has shown the leadership in Congress in 
providing that support, and I enthusiastically look forward to 
working with you. I know of no national security issue that is 
more important.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Reis follows:]

[Pages 355 - 365--The official Committee record contains additional material here.]


                 Oral Statement of Rose E. Gottemoeller

    Mr. McDade. Thank you, Vic, for a fine statement.
    Ms. Gottemoeller, we would be delighted to hear your 
statement, and you can file it if you wish and proceed 
extemporaneously. We would be glad to hear your testimony.
    Ms. Gottemoeller. Thank you, Mr. Chairman, I will file my 
testimony and speak briefly at this time. Thank you. This is my 
first appearance before this committee and may I say what a 
pleasure it is to have the opportunity to meet with you all, 
and I hope I will be able to provide good answers to all of 
your questions and comments.

   Mission of DOE'S Office of Nonproliferation and National Security

    Attacking the problem of proliferation of weapons of mass 
destruction requires attention at many levels. It is a 
multifaceted problem, no part of which may be ignored. 
Particularly, my office, the Office of Nonproliferation and 
National Security at the Department of Energy, runs a 
comprehensive program to address all facets of the problem.
    First, preventing the spread of weapons of mass destruction 
materials, technology and expertise; second, detecting 
proliferation weapons of mass destruction worldwide; third, 
reversing the proliferation of nuclear weapons capabilities; 
and, fourth, responding to emergencies.
    We particularly draw upon 50 years of science and 
technology expertise resident throughout the DOE National 
Laboratory Complex to help us achieve these goals.
    I am proud to report today that we have been and will 
continue to work at a rapid pace to confront this critical 
national security issue.
    Today, I will discuss the progress of some of our key 
programs as well as our new initiatives. Our program of 
cooperation between DOE laboratories and nuclear facilities in 
Russia and the Newly Independent States to improve the 
protection, control and accounting of weapons usable nuclear 
materials is yielding dramatic results.

    Material Protection, Control and Accounting Activities in Russia

    Today, I am happy to say that we are working with Russian 
authorities to upgrade security at every known site where 
nuclear material is stored in the former Soviet Union. We 
expect to have completed upgrades at 27 FSU sites by the end of 
the year. Overall, we are looking at improved security for over 
a thousand tons of weapons-usable nuclear material.
    It is clear from the extensive support of our efforts by 
the Russian Government that there is a serious dedication to 
the improvement of nuclear material safety guards and 
securityin Russia. This new developing safeguards culture is important 
evidence of the success of DOE's cooperative program of MPC&A 
improvement. We are just now beginning major efforts at the uranium and 
plutonium producing cities, the Russian weapons laboratories and other 
sensitive facilities.
    Completion of these sites will require a sustained 
multiyear effort outlined in much more detail in our recently 
published MPC&A Strategic Plan. I have brought along a copy of 
that plan that I request be submitted for the record.
    Mr. McDade. Without objection.
    [The information follows:]

[Pages 368 - 390--The official Committee record contains additional material here.]


          reducing the potential for ``brain drain'' in russia

    Ms. Gottemoeller. Thank you, sir.
    Similar to the MPC&A program, the initiatives for 
proliferation prevention program seeks to draw scientists, 
engineers and technicians from the former Soviet Union's 
nuclear, chemical and biological weapons programs into long-
term commercial ventures, thereby working to reduce the 
potential for brain drain to proliferant states or 
organizations. This program serves to fulfill a larger goal of 
the U.S. Government; that is, to downsize the former Soviet 
nuclear cities.

         supporting nonproliferation and arms control treaties

    Our strong technological capabilities allow us to work 
today to fulfill future technological needs for implementing 
important nonproliferation and arms control treaties. My office 
plays a key role in supporting U.S. efforts to monitor and 
verify a Comprehensive Test Ban Treaty. We are developing 
technologies that will detect nuclear explosions underground, 
underwater or in the atmosphere. If such an explosion does 
occur, these technologies can detect, locate and identify its 
source.
    [Deleted.]
    Additionally, we are currently developing technical 
solutions to fulfill requirements of the warhead dismantlement 
transparency provisions of a potential START III agreement, 
predicated by President Clinton and Yeltsin at the Helsinki 
Summit. A special task force led by my office is evaluating how 
the Department of Energy and the U.S. Government should prepare 
for negotiations with Russia in this area.

          terrorism and protecting our critical infrastructure

    As we have seen by events over the past few months in 
particular, but also particularly since the end of the Cold 
War, the threat of domestic terrorism is growing. Our research 
and development program, in part, leverages the chemical and 
biological science capabilities of the National Laboratories to 
develop technologies to detect, characterize and facilitate 
decontamination of chemical and biological threat agents. This 
program complements efforts of the other Federal agencies and 
is developing technologies not currently available, but are 
desperately needed for short-term detection as well as longer 
term forensic requirements.
    We are also working in support of the U.S. Government's 
overall programs to combat terrorism, as well as protect the 
Nation's critical infrastructure. In addition to the program 
areas I have already highlighted, we re responsible for wide-
ranging activities to accomplish national security goals and 
nonproliferation goals of the United States Government. These 
activities include emergency management programs, in addition 
to safeguards and security programs for the domestic facilities 
of the United States in our nuclear weapons complex overall.
    With that, Mr. Chairman, I would like to conclude my 
remarks by saying, again, how pleased I am to appear before 
your committee and thank you for your attention.
    [The prepared statement of Ms. Gottemoeller follows:]

[Pages 392 - 402--The official Committee record contains additional material here.]


                       sites of mpc&a cooperation

    Mr. McDade. We thank you, Ms. Gottemoeller, for a fine 
statement, and we want you to know that this committee and the 
people who work in this area are solidly behind the efforts 
that are being made. We want to stay in touch with you to make 
sure you are getting the resources you need and we wish you 
well in your mission.
    Let me ask you to do something, may I. You have brought a 
very interesting chart with you that is very busy. I would be 
grateful if you would just spend, say, 2 minutes walking the 
committee through the interpretation of that chart you brought 
with you.
    Ms. Gottemoeller. Certainly, Mr. Chairman. I would be 
pleased to.
    May I rise and go over there?
    Mr. McDade. Absolutely.
    Ms. Gottemoeller. Would that affect your listening?
    Mr. McDade. We are very happy to have you do that.
    Ms. Gottemoeller. Actually, I have to say I am thrilled by 
this map because when I left government in 1994 to go to London 
and take up my post there, we were only present in eight sites 
in the former Soviet Union at that time, and they were limited 
to civilian and regulatory-related sites. We were not in any of 
the defense-related sites at that time.
    What you see on this map is an explosion.
    [The information follows:]

[Page 404--The official Committee record contains additional material here.]


                       cooperative work in russia

    Mr. McDade. What year is that, Doctor?
    Ms. Gottemoeller. 1994, when I departed government at that 
time. What you see here is the explosion of our cooperative 
activity on material protection control and accounting that has 
occurred just in the last 4 years. It is an extremely, I think, 
impressive program. We are, as I mentioned, in all of the 
nuclear cities now, such as Arzamas, Zlatoust, Chelyabinsk. 
Some of them such as Zlatoust-36 are actually the nuclear 
weapons production, serial production facilities. So there is 
quite an expansion of the program over the last couple of 
years, particularly into defense-related sites.
    I would also like to mention that in the past several 
months, we have begun working very closely with the Russian 
Navy for the first time in Murmansk and in Vladivostok in order 
to put under better control their fresh fuel for their nuclear 
reactors in the submarine fleet. So we have had a very 
extensive expansion of the program.
    If I could just, in case you can't read it, I will go 
quickly through the various categories of facilities, where we 
are present. The uranium and plutonium cities, the weapons 
complex itself as I mentioned; the maritime fuel arena. Then 
over on the civilian side, the large fuel facilities for the 
civilian reactors, the reactor type facilities where they do 
research and, by the way, I was just in Moscow 2 weeks ago and 
attended opening ceremonies for four of our sites in this 
category, such as the Dubna Joint Institute of Nuclear 
Research.
    For several regulatory projects, we are doing hard work to 
expand the overall regulatory capability of the Russian 
Government so that there is an independent regulatory 
organization called GAN that is strengthened and able to really 
stand up to the Ministry of Atomic Energy and other parts of 
the Russian Government that are involved in nuclear matters.
    We are doing training and education in Russia and then, 
finally, I should mention our work throughout the NIS. Our work 
is not limited to Russia. We are in Kazakhstan, Georgia, 
Ukraine, Belarus and in the Baltic States as well, although I 
must say that in fiscal year 1998, in this current fiscal year, 
we are completing our MPC&A work outside of Russia and so for 
the next few years, until 2002, when the program will finish, 
we will be concentrating on our work in Russia.
    Mr. McDade. Are there any areas in that vast map that you 
show there where there is noncooperation?
    Ms. Gottemoeller. I have found that there has been 
excellent cooperation. As I said, it was not so in 1994.
    Mr. McDade. Yes.
    Ms. Gottemoeller. And the cooperation has expanded quite 
well. I think part of the reason is that there has been a solid 
trust building that has gone on over the past few years, and 
that has been a great help.
    Mr. McDade. You say there is no site where they are not 
cooperating?
    Ms. Gottemoeller. I would say that, you know, on a day in, 
day out basis, of course, we run into problems from time to 
time. But in terms of the Russian side being willing to work 
with us, being willing to work through problems as they arise, 
I think the working relationship is very good.

                    fy 1999 defense programs budget

    Mr. McDade. That is good to hear and a fine report. Thank 
you very much.
    Doctor, let's come back a bit and start talking about the 
budget here.
    The Department gave us a hard and fast figure of about $40 
billion, not about--of $40 billion to do the program that you 
are in charge of. The program now is $45 billion, as we 
understand it. Is that a correct number $45 billion?
    Dr. Reis. Yes, our best estimate over the next 10 years 
would be $45 billion.
    Mr. McDade. Can you tell us what happened that grew it by 
$5 billion?
    Dr. Reis. We have learned a lot more over the past year, 
especially as we have improved our understanding of what 
stockpile stewardship was all about, what the challenges were 
in the area of computations, in the experimental programs in 
terms of what it takes to get things going, and to really 
develop a level of confidence.
    Mr. McDade. Is this out of the laboratories?
    Dr. Reis. This is both the laboratories and it is also the 
production plants as well. We have just learned more.
    Mr. McDade. So the learning curve went up. Would you be 
specific and give me, like, four areas? You mentioned computing 
requirements, et cetera.
    Dr. Reis. The computing program requires an increase of 
$140 million. We have learned more about what it takes in terms 
of modernizing the plants. Some of that has to do with 
computations. Some of that has to do with other things as well.
    We are learning an awful lot about the subcritical 
experiments. We are planning a much more vigorous approach of 
what those experiments are. And I can detail that for you with 
numbers.
    Mr. McDade. Submit that for the record, if you would.
    Dr. Reis. Sure.
    Mr. McDade. Send up to the committee, as you do it, an 
independent letter so we have it.
    Dr. Reis. Right.
    [The information follows:]

[Page 407--The official Committee record contains additional material here.]


                         plant/lab construction

    Mr. McDade. Let me ask you this question: Have you 
identified facilities that you have got to construct in 
connection with the new number?
    Dr. Reis. There are no new facilities. The program, when we 
were talking about for $40 billion, is the same. We have not 
come up with any new facilities that have to be built.
    Mr. McDade. Do you have a number for remodeling, for 
example, or modernization numbers?
    Dr. Reis. We have detailed descriptions. Of course, we are 
dealing with a very large complex of not just the three 
laboratories, of course, but the production plants and the 
Nevada Test Site.
    Mr. McDade. Submit that for the record, will you?
    Dr. Reis. Surely.
    [The information follows:]

                         Modernizing Facilities

    Over a third of our funding goes towards maintaining and 
modernizing the complex. This funding is used to respond to 
current and evolving environment, safety, and health, and 
safeguards and security requirements; and to maintain current 
capabilities to meet changing mission needs including 
downsizing where appropriate and the development and placement 
of new technologies, particularly in the production plants. 
Over the next ten years, almost all of our facilities will be 
remodeled or modernized in some manner.
    Most of this effort will be funded with operating dollars 
as part of our ongoing maintenance and technology development 
programs. However, some of this effort will be managed through 
broad-based infrastructure line items, such as the Stockpile 
Management Restructuring Initiative, and through specific 
infrastructure line items such as the roof replacement project 
at Lawrence Livermore, the boiler replacement at Kansas City 
and the sewage treatment facility upgrade at Pantex. There will 
also continue to be program specific projects needed to meet 
our mission requirements, such as the tritium supply projects 
at Savannah River, the National Ignition Facility at Lawrence 
Livermore and the planned project to support pit production at 
Los Alamos.

                  management of construction projects

    Mr. McDade. We need to get into this because as we 
understand it, there are funds requested for 26 projects in 
fiscal year 1999 and 13 of them are brand new. And the 
committee has been informed that 13 were started in prior years 
and of those 13, 7 of them, a little more than half, have had 
increases in costs, schedule slips, revisions of design, et 
cetera, et cetera.
    As you sit up here and get those numbers, it looks like 
there are some real problem areas coming up. Can you tell us 
what is going on and why there are all of these problems that 
are occurring?
    Dr. Reis. When you are dealing with a complex the size of 
the Nuclear Weapons Complex, you always have to be modernizing. 
So there will always be new projects that are being developed, 
and projects for improving those facilities. Many of these 
facilities date back to World War II and the time thereafter, 
so that they require modernization, and they are counted, if 
you will, as new projects. But there are concerns.
    Mr. McDade. So the total count of the 26 includes all of 
the modernization, all the renovation, et cetera, et cetera?
    Dr. Reis. Yes, that is correct and let me be frank.
    Mr. McDade. Please do, Doctor.

                   los alamos construction management

    Dr. Reis. We are very concerned about some of the overruns, 
as you are, particularly at Los Alamos. In any large complex, 
there will be some that overrun, and there will be some that 
actually do better than what you had, and you hope over time to 
match your estimates. You know the same thing is true when you 
get estimates at home.
    But, you know, we have noticed, as has the committee and 
other committees as well, that there is a larger proportion of 
those overruns occurring at the Los Alamos National Laboratory.
    Mr. McDade. What is your opinion or reason for that, 
Doctor?
    Dr. Reis. I think the program management has not been good. 
Our oversight of that program management has not been good. We 
have a new Laboratory Director, John Browne, and we have been 
working with him and the oversight group at Albuquerque, our 
oversight group at Headquarters to look at a very different 
approach to doing this. We are going to start bringing in 
outside experts. We are used to bringing in outside experts in 
terms of the science perspective so that any new project that 
we present, the National Ignition Facility, the DARHT, we vet 
those very, very carefully in terms of is the science going to 
work? We work very closely with our friends in the Defense 
Department to ensure that the requirement is there.
    We have not done a particularly good job at bringing in the 
outside experts on those specific projects at Los Alamos. So 
you get concerned that there is a systemic problem and at that 
point you simply have to dig in harder, bring in those people 
who have had project management expertise and, not necessarily 
from a nuclear weapons program.
    Mr. McDade. And your testimony to the committee is that you 
are doing that?
    Dr. Reis. Yes, sir.
    Mr. McDade. All of those projects are going to be looked 
at?
    Dr. Reis. Those projects are going to be looked at in that 
way, but more importantly, I think, is not just the individual 
projects, but the whole way we manage projects at Los Alamos is 
going to be given an independent scrub and then, of course, 
information will be available to you as well.
    Mr. McDade. Are you confident that the problem of cost 
growth and continued redesigns, et cetera, et cetera, will be 
in hand when you do this?
    Dr. Reis. I certainly feel a lot more confident that we can 
do this. I think part of the issue as well and one of the 
reasons I feel more confident, is that--and thisI think relates 
back to the question you asked before; how come this program has 
increased and has increased in size, is that we are now at a point 
where I think we can say that program is stable in terms of funding.
    One of the things we talked about--the Administration is 
talking about is the budget over the next 5 years, which we can 
budget relatively carefully at, is that it is a stable $4.5 
billion a year program. That gives you that stability. That is 
the point at which you know you have got to look at cost 
savings ways to do that. The requirements are stabilized as 
part of that program. So I don't see, if you will, requirements 
growth, which was certainly part of some of it.
    Mr. McDade. You are saying then at design you are at 
maturity kind of----
    Dr. Reis. I think we are getting close to----
    Mr. McDade. Project management, you are going to take care 
of that problem?
    Dr. Reis. We are going to have to take care of that and I 
think we have processes in place. We will go right after the 
management----
    Mr. McDade. Is there a time line on it? Is it going to be 
done in 3 months or 5 months?
    Dr. Reis. I think we are certainly going to get started 
right away on this. I am hoping that like within--you know, 
within 6 months or less, we will be able to get some solid 
changes in the way we are doing it. This is a team effort 
involving Los Alamos, the Albuquerque Operations office, the 
Los Alamos Area office, ourself and the contractors who are 
working on this. Again, we will be bringing in people who are 
expert at project management, not just necessarily nuclear 
weapons or the things that go with that to help us.
    Mr. McDade. We encourage you, as you have in the past, to 
stay in touch.
    Dr. Reis. Right.
    Mr. McDade. We want to know how this is working out because 
we are deeply concerned about it.
    Dr. Reis. Right.

                     delayed construction projects

    Mr. McDade. Will you provide for the record each 
construction project currently delayed due to design or 
baseline changes? Explain to us what the problem is and provide 
a schedule for resolving the concerns and identify potential 
costs and schedule impacts.
    [The information follows:]

[Pages 411 - 412--The official Committee record contains additional material here.]


                  pantex plant contract administration

    Mr. McDade. You have undoubtedly seen, as I have many 
times, the chart on the Pantex plant in terms of its contract 
administration, who it reports to, et cetera, et cetera.
    Dr. Reis. Yes.
    Mr. McDade. And it was examined, as you know, I guess in 
the authorization bill quite detailed. If we were to look at 
that chart today, what changes would be in it?
    Dr. Reis. Some of the spaghetti would be gone.
    Mr. McDade. How much?
    Dr. Reis. A few meatballs would be left.
    Mr. McDade. It is beginning to feed the Italian Army.
    Dr. Reis. Mr. Fazio, is that----
    Mr. Fazio. I am ignoring that.
    Dr. Reis. I did, in case just for--I did bring this to you.
    Mr. McDade. You are always prepared.
    Dr. Reis. Just in case it was going to be a long hearing.
    Mr. McDade. Why don't you just give us, submit to the 
committee, the new----

                            doe organization

    Dr. Reis. Yes. Let me say we have done within Defense 
Program, a reasonably good job of shucking, if you will, some 
of the extra lines. But as we have described, many of those 
things are beyond just Defense Programs because they relate to 
changes in ultimately the structure of how the Department of 
Energy operates. And the Department of Energy, as a group, has 
looked at that and is now working to improve those.
    I know the Laboratory Operations Board, which was set up, 
in response to the concern that the Galvin Commission had. It 
is interesting that Paul Richanbach, who was one of the authors 
of the 120 Day Study, is now working for the Department of 
Energy, and so there is a fair amount of energy involved in 
just those types of organizational changes.
    Mr. McDade. We want to look at it with you. We hope to see 
improvements and we know you do, too. We want to work to that 
end.
    Dr. Reis. Yes, sir.
    [The information follows:]

[Pages 414 - 415--The official Committee record contains additional material here.]


                         laboratory employment

    Mr. McDade. A lot of people ask the question that, indeed, 
the size of the stockpile is going down.
    Dr. Reis. Yes.
    Mr. McDade. And we are all happy to know that those 
breakthroughs have occurred. But the size of the laboratories 
is going up. How do you justify that?
    Dr. Reis. Well, first, the size of the laboratories is not 
going up dramatically. Certainly, the amount of people that 
have been involved in--compared to where they might have been 5 
or 10 years ago, in terms of the defense programs, we have 
reduced the size--what defense programs is doing for the 
laboratories themselves quite considerably, is almost a factor 
of two in some cases. But one would expect over time, in the 
Stewardship Program that one would see some marginal increases 
starting from now.
    The difference is the Stewardship Program's purpose is to 
maintain those weapons in the stockpile without testing, and 
that's really a different job.
    Mr. McDade. We understand that. But we get information, for 
example, that there has been a 13 percent increase in 
contractor employment at Los Alamos and that there is an 8 
percent increase at Livermore over fiscal year 1997. That's a 
lot of growth and we don't know why that's happening and we 
need to have you specifically justify that to make sure that we 
are----
    Dr. Reis. Sure.
    Mr. McDade [continuing]. Confident that the laboratories 
are not getting out of control in terms of their appointments.
    Dr. Reis. I think you--again, I would be concerned about 
the same thing. There is some growth in this program and we 
think that growth is required, but one has to be very careful 
that the people don't pile on.
    Mr. McDade. Yes.
    Dr. Reis. Other parts of the programs which are not 
directly related to Stockpile Stewardship.
    Mr. McDade. Your basic answer is that with the advent of no 
testing and the requirement for science-based verification, 
that is the reason for the increase?
    Dr. Reis. Yes. It is a very different and very, very 
difficult and challenging task and the idea of being able to 
certify year in and year out that these weapons of enormous 
destructive power without being able to go out and test one is 
a very, very difficult job. And while I would expect there has 
been some growth in the laboratory areas, but I believe we can 
justify every part of that growth.
    Mr. McDade. We certainly hope so.
    Dr. Reis. Right.
    Mr. McDade. I yield to my friend from California.

                      budget impacts of start III

    Mr. Fazio. Thank you. Mr. Chairman.
    I would like to welcome you both. I don't think there is 
any question that the subject matter of today's hearing is 
among the most important we deal with, and yet I am not sure 
that we are--certainly I feel inadequate to the test of 
providing oversight, but we will do our best.
    [Deleted.]
    [Deleted.] And if we are to follow-on as Secretary Cohen 
has indicated we would, with START III talks, almost 
immediately, we could begin a process of reducing the number 
even more.
    I am just wondering what kind of impact that would have on 
your budgets if we were to make the kind of progress that until 
recently we have been unable to make in this area
    Dr. Reis. Let me start on that first. We looked at that 
several years ago when we did the Programmatic Environmental 
Impact Statement as part of the National Environmental Policy 
Act (NEPA). The law requires that at any time you are making a 
major change, and stockpile stewardship was certainly a major 
Federal action, [Deleted.] And what came back was there was no 
major cost differentials in terms of being able to close plant 
A and move everything to plant B.
    We have done a considerable amount of downsizing already in 
that regard.
    There certainly would be some impact in terms of the number 
of limited lifetime components that had to be manufactured. 
Certainly there would be a change in the tritium requirement. 
That would be the obvious situation.
    If the Department of Defense said, really the President 
said we are only dealing with that many weapons, that is the 
amount of tritium you have to deal with--I guess we are 
classified so you can--we can talk specifically about that 
number. So, in some sense if the reductions are faster than the 
half life of the tritium, 12 years, then one could delay the 
tritium decision. Or if you didn't, you could take options 
which allow you to basically take that into consideration.
    So there would be those basic impacts.
    [Deleted.] In fact, you could almost argue that if you have 
fewer of them, you have to be more careful about the ones that 
are left.
    We have not done any detailed analyses at this stage of the 
game, of what that would entail. But, again, clearly there 
would be some changes. We get our requirements from, literally 
from the Stockpile Memorandum which is signed by the President 
every year. So one would have to see how that would play out.

                                tritium

    Mr. Fazio. Well, speaking specifically of the tritium 
issue, the budget request currently assumes that we would 
maintain the current START I levels.
    Dr. Reis. That is correct.
    Mr. Fazio. So I think there would be some sort of immediate 
ability to stretch out from 2005.
    Dr. Reis. There would be an immediate ability to stretch 
out because as you recall the requirement for START I was 
2005--while we were moving to START II and the requirement 
there was at 2011. We have all of those numbers, but if that 
requirement got changed, we are certainly prepared to change. 
We are holding to the numbers. However, the budget we have 
presented to you did not anticipate any changes. So it was 
fixed at START I.
    Mr. Fazio. If the Duma, which is to adjourn in June, were 
to make its decision prior to that, obviously that would impact 
on our ultimate decision on this bill?
    Dr. Reis. I am sure it would.
    Mr. Fazio. And you would come back and ask for a 
budgetamendment that would reflect the changing requirements?
    Dr. Reis. [Deleted.] So if the Secretary chose any other 
choice, we would have to come back in any event and ask for 
more money. That is sort of built into the system right now.
    Mr. Fazio. I was assuming we would get into this discussion 
because my understanding is, and I think you have just 
confirmed it, that the dual option approach that we continue to 
consider in terms of what new tritium production facility would 
be required has not been funded.
    Dr. Reis. That is correct.
    Mr. Fazio. We base that on a single option funding.
    Dr. Reis. That is correct, single option.
    Mr. Fazio. Well, isn't the option of having made a decision 
in effect?
    Dr. Reis. Let me make that clear. The option is not a 
single option. It is a dual track. The question is which is 
primary and which is secondary. Because you always have the 
ability, if something happens on one of those, to go back and, 
in time, replace the other.
    Mr. Fazio. We are funding the primary track at the moment?
    Dr. Reis. Right now you would be--let me be very careful 
about how I say that because I don't want to get ahead of the 
Secretary's decision on that part. What the FY 99 budget 
supports is the radiation services of the commercial light 
water reactor as the primary track with the accelerator 
production of tritium as the secondary track. If there was a 
change in--that decision has not yet been made. But if the 
Secretary makes that decision, what you see is the budget. If 
the Secretary makes another decision, which, again, has not 
been made, why we would have to come back and ask for 
additional funds.
    Mr. Fazio. So we shouldn't even use primary and secondary? 
That would be----
    Dr. Reis. Well, I have got to be careful, that is right.
    Mr. Fazio. That would be the beginning of biasing the 
decision?
    Dr. Reis. Yes, that's right,
    Mr. Fazio. One of the options would be to use a light water 
reactor at TVA; Is that correct?
    Dr. Reis. That is correct.
    Mr. Fazio. Is that the only conventional reactor proposal 
that is available?
    Dr. Reis. That is the only conventional light water reactor 
proposal that is on the table. As you know, we went out for 
bids and they were the only that responded.
    Mr. Fazio. They had an old reactor laying around looking 
for something to do?
    Dr. Reis. Well, I wouldn't say an old reactor laying around 
looking for something to do. There are two proposals.
    Mr. Fazio. I am obviously being facetious.
    Dr. Reis. I understand.
    Mr. Fazio. We don't have a lot of extra reactors these 
days, though.
    Dr. Reis. You don't want to get me in trouble do you, Mr. 
Fazio?
    Mr. Fazio. Not on Saint Patrick's day, no.
    Dr. Reis. Any other day is all right?

                   accelerator production of tritium

    Mr. Fazio. It might be.
    Could you discuss with the committee what the other option 
really is in the sense of what is involved if we chose it?
    Dr. Reis. The accelerator production of tritium?
    Mr. Fazio. Yes.
    Dr. Reis. The idea there would be you would take an 
accelerator, which accelerates protons, to a very high speed. 
It literally bangs them into a target of lead or tungsten, 
making neutrons. Those neutrons act just like the neutrons one 
would have in a reactor. In this case, they would bang into 
helium and convert an isotope of helium into tritium. That is a 
very simple explanation.
    It would be a large, perhaps kilometer long device. You are 
probably familiar with a number of accelerators that we have, 
which are usually used for research purposes. This would be one 
that would be constructed, if you will, as a neutron factory to 
make neutrons.
    Over the past several years, we have looked at a number of 
the components of that machine and tried to determine, from an 
engineering perspective, whether we had any problems.
    I will say, Mr. Fazio and Mr. Chairman, that is one of the 
projects, even though it is at Los Alamos, which has been 
working from an industrial perspective, and from a program 
management perspective, very well. While Los Alamos is the 
program manager, they have worked very closely with the prime 
contractor, Burns and Roe, and with the Savannah River Site and 
the Westinghouse folks. That is one of the reasons that I am, 
frankly, optimistic because that program has met its 
milestones.
    Again, they have not constructed a lot of things yet, but 
in terms of getting the drawings out, in terms of doing the 
design, in terms of getting the difficult technical problems 
solved, that has all been right on time, right on schedule, and 
within budget.
    So from a programmatic perspective, from the ability to do 
the job, the accelerator production of tritium--and if that is 
chosen, then I have no question that that would be a successful 
program.
    Mr. Fazio. Obviously, that would be at much greater cost 
than the conversion of an existing reactor.
    Dr. Reis. The APT that would come out to be more expensive. 
I am a little hesitant to talk about details now since we are 
right in procurement-sensitive discussions with the TVA. 
Clearly, it would cost more than one of the options which would 
be to just use radiation services.
    There would be very little actual conversion of the reactor 
itself. What you essentially do is take out the control rods 
and put in burnable absorber rods that you would eventually end 
up making tritium out of. But as far as the reactor is 
concerned, and as far as the generation of electricity is 
concerned, it doesn't even know the difference. It operates 
exactly the same way. So under those circumstances, clearly it 
would be considerably lower cost for that approach than one 
would have to today with anaccelerator. If you had to build a 
new reactor, of course, that would be much more expensive.
    Mr. Fazio. Right. Getting kind of at the cost-benefit ratio 
issue.
    Dr. Reis. Right.

                       benefits of an accelerator

    Mr. Fazio. If it is obviously cheaper to convert an 
existing reactor, why would we want to go to the cost of an 
accelerator? What would be the benefits we would derive and 
what would be the mission requirements that would be better 
provided?
    Dr. Reis. From the output perspective in terms of meeting 
the requirement--providing the amount of tritium you need to 
make up for the decayed tritium, it doesn't make any 
difference. They both meet them exactly the same. Tritium--it 
doesn't know where it came from.
    But the major benefit for the accelerator is that it--the 
concerns were both from a policy perspective and a potentially 
proliferation concern. Even though it is TVA, those are 
civilian reactors and with few exceptions we have never made 
military material in civilian reactors. There have been some 
examples in the past. And I would turn over to, you know, Ms. 
Gottemoeller, who has been doing the analysis of what those 
policy concerns are, but it is a difference.
    An accelerator would be an all Defense Program facility. It 
would be kept in there. There would be no--clearly I won't say 
there would be no litigation. There is litigation, it seems to 
me, in everything we do now. But, you know there is no, if you 
will, breaching of the civilian versus military role and that 
plays a role around--in terms of our policy around the world, 
and also in terms of, you know, a proliferation concern as 
well.
    Rose, would you maybe comment?
    Ms. Gottemoeller. If I may comment on that?

         tritium production and nonproliferation considerations

    Mr. Fazio. Sure, I would love to hear your thoughts.
    Ms. Gottemoeller. We have actually been playing a role in 
the Department as we have been considering, as a department, 
this issue of tritium production for the future, and the 
nonproliferation considerations have been serious ones. We 
recognize that this, as Dr. Reis said, does represent a 
stepping up to our policy in this regard. There has been a line 
carefully drawn between civilian and military reactors in the 
U.S. system, and so we recognize that it would represent a 
slight step over the line.
    Our view is that with careful mitigation, that one can 
ensure the continued strength of our nonproliferation goals 
overall. So we have been looking at the present time at what 
kinds of insurance policies we would like to see put in place 
to ensure that our nonproliferation goals can continue to be 
reached and that the impact on our nonproliferation policy 
worldwide will be minimized.

                               start iii

    Mr. Fazio. Well, do we have a good deal longer now 
potentially to make this decision? Isn't that what really the 
implication of the START II adoption would be and maybe a 
successful START III? I mean, it keeps pushing the date so we 
have to make this drop-dead decision further into the next 
decade and then perhaps into the one after.
    Ms. Gottemoeller. Yes. I agree with Dr. Reis in that 
regard. It does give us more time to consider these issues.
    Mr. Fazio. So, in effect, we may anticipate some budgetary 
relief during this fiscal year and perhaps even more 
significantly in the years following? Is that your view as 
well?
    Ms. Gottemoeller. Well, Mr. Fazio----
    Mr. Fazio. You know Russia very well.
    Ms. Gottemoeller. Yes.
    Mr. Fazio. I am wondering what your assessment of this 
relatively optimistic news story is.
    Ms. Gottemoeller. I have felt for some time that the 
leverage Washington is currently exerting in this regard, that 
is, the promise that a summit meeting between our two 
Presidents will occur only upon Duma ratification of START II, 
is effective. This has been the President's position since a 
press conference in mid December and the Russians are taking it 
very seriously. They are good negotiators and they recognize 
strong leverage when they see it. So I think it has had the 
effect, essentially, of motivating the executive branch in 
Russia to work more intensively with the Duma than they had up 
to this point.
    So, indeed, not only because of what Mr. Lukin has said 
publicly now but for a number of reasons. When I was in Moscow 
a couple of weeks ago, I had an opportunity to talk to several 
people, both on the legislative side and the executive branch 
side, and it was clear to me that things are moving now on 
START II. And I found that very encouraging. So, yes, I agree 
with Mr. Lukin's assessment that the treaty can be ratified 
before the Duma departs for its summer holidays.
    Mr. Fazio. And this will be my last follow-up, Mr. 
Chairman, because I have some other questions, but I know 
others do, too.
    Does START III seem to you to be a lengthy and difficult 
negotiating process, or does the positive feeling about START 
II lead you to believe that perhaps we are on a roll now and 
that maybe fundamental thinking in Russia has changed?
    Ms. Gottemoeller. May I make two points in that regard? I 
think that indeed START III can move quickly for two reasons. 
First of all, the Russians are highly motivated, as you 
intimated. They have felt that they cannot maintain their 
nuclear arsenal at its current level and that, in fact, it is 
going through a somewhat uncontrolled implosion at the present 
time. So I believe that they will be highly motivated to go 
into an organized negotiating process in order to get lower 
numbers.
    Mr. Fazio. An implosion implies that it is simply not 
functioning as it is required to? It is not being maintained 
anywhere near its current level?
    Ms. Gottemoeller. Yes. There have been impacts on their 
operational capability and there have been impacts on their 
maintenance. Those two things are linked closely. Their budget 
crisis in the last 5 years has had a profound impact on their 
nuclear forces.
    Mr. Fazio. Yeah.
    Ms. Gottemoeller. The second thing that I would point out 
that I think enables a rapid negotiation to take place is the 
very good homework that we have been doing on the U.S. side in 
order to prepare. For example, my Office of Nonproliferation 
and National Security has been responsible for working with the 
Russians to develop transparency measures at their nuclear 
weapons dismantlement plants to better understand how they do 
dismantlements; and as warheads are due to be an aspect of 
START III, that kind of ``going in'' understanding will be an 
important factor in speeding the negotiations along.
    Mr. Fazio. I find this very interesting, and I hope we get 
more chance to get more of this input as the hearing goes on.
    Thank you, Mr. Chairman.
    Mr. McDade. The gentleman from Kentucky is recognized.

                safety and reliability of the stockpile

    Mr. Rogers. Thank you, Mr. Chairman. Welcome all of you to 
this hearing. We appreciate your taking the time for us. 
Someone once said that democracy, if it is to fail, will fail 
because lay people will be unable to grasp and properly oversee 
the delicate functions that the science age brings to mankind; 
and I think we are at that point here. I am not adequate to--I 
think many of us feel that way--to understand fully what is 
involved here. I started out, a physics major in college. But 
as the world is now going to perhaps its longest sigh of 
relief--and I hope that sigh continues for some time--we still 
obviously are in a delicate period and will likely remain that 
way for some time, because it is still a dangerous world out 
there, not just because of the former Soviet Union, but 
terrorist states as well that easily could possess these 
weapons.
    And I guess I want to try to focus on the reliability of 
the procedures we are now using, or hopefully will use, to 
assure ourselves entirely that our stockpile of nuclear weapons 
is reliable and safe. But I want more to focus on reliability 
than safety. Safety is not as complex as reliability in my 
opinion.
    For those of us who have a limited scientific capacity, 
assure us in our language that the new computing capabilities 
will assure us 100 percent of the reliability of nuclear 
weapons without testing.
    Dr. Reis. I can't assure you 100 percent in this business. 
In fact, if I could, I think you should question my 
trustworthiness to do this. Yesterday we were discussing this 
with a group of Senate staffers who were meeting at the 
Brookings Institution to talk about this from the perspective 
of the Comprehensive Test Ban, they asked, what do you worry 
about? And I said, honestly, I worry that we stop to worry. If 
you stop to worry, if you stop to ask those kinds of questions 
that is when you really should be concerned, because this is a 
very difficult job. I don't want to underestimate that.
    I can't tell you that the reliability of these weapons will 
be okay 20 years from now to 100 percent. That is why, among 
other things, we have tried to build in a system that 
continually asks that question. Every year we ask that 
question. Every year that is why we have gone through two very 
rigorous looks at the stockpile, warts and all; and we prepared 
a detailed report for the President. The President has sent 
that to Congress.

                         stockpile stewardship

    Mr. Rogers. What I am looking for is, tell us how it works.
    Dr. Reis. Okay. The system itself works, the Stockpile 
Stewardship System works--first of all, it starts off with this 
look, the same way you go every year to get your physical, to 
find out how that is done. What you care about is not just your 
own health; you care about what the level of--how good the 
doctors are who are analyzing you? Are they working? Do they 
have the best machines? Are they the best doctors? That is in 
large measure what we are trying to do, is put a system in 
place so that we not just ask that question every year, but 
ensure ourselves that the people are the best, they have got 
the best tools to do that.
    Mr. Rogers. Tell us how it works.
    Dr. Reis. Once a year each of the laboratories review in 
detail every single weapon with the weapons designers, the 
engineers who built those. They provide an estimate in their 
best--they use the tools that they have available. They use 
their--the archive data from the weapons themselves; and then 
they provide the Secretary of Energy and the Secretary of 
Defense, and then ultimately the President, a detailed analysis 
of--weapon by weapon, whether there are any problems with those 
weapons?
    Mr. Rogers. What do they measure when they are looking at 
the weapons?
    Dr. Reis. What they do, the first thing they do is they 
start off each weapon--each type of weapon--let me back up.
    Eleven weapons of each type are taken out of the stockpile. 
Ten of those are--you know, they are taken apart, they are 
examined, the potential problems with them are identified.
    One type of each weapon is destroyed in that process. The 
pits are taken apart, the secondaries are taken apart, the 
explosive is taken apart, and then it is examined with the best 
tools that one has available. The radiography, spectroscopy and 
all the tools itself. And then we look and see what changes 
have been made.
    There will inevitably be changes.
    And then using the computational tools that we are 
developing, we assess whether there have been any changes in 
the reliability or the safety of these weapons. For example, 
has the yield dropped? Has our estimate of the yield, the 
amount of explosive product dropped? Then we look and say, is 
that within the specifications that the military has given us 
to do that? Okay?
    So we go through that process once a year, weapon by 
weapon, wart by wart.
    That same information is provided to the Commander of 
Strategic Command of the Department of Defense. They again make 
up what their estimates are in terms of what are the results. 
That then flows through the Nuclear Weapons Council where again 
a series of military experts review that data.
    It goes to the Secretaries of Energy and Defense. They send 
a letter to the President. And then the President sends a 
letter to the Congress saying, we have gone through that 
process; and then they specifically ask the question as part of 
that, in the next year, are nuclear tests required to solve any 
of those issues?
    So, in essence, that's the way it starts with asurveillance 
process and then goes through assessment.
    Now, if there are any particular issues, then we have to 
remanufacture--we will have to remanufacture a part. We are 
continually remanufacturing some parts that we know only last 
for a certain length of time, and we have to assure ourselves 
that if we change the specifications of those parts--again, we 
go through this process where we assess, is that change going 
to affect the specification?
    Now, those changes are now only made where we have had 
previous test data, not just doing the new experiments, but we 
have had previous test data, so it is, if you will, within the 
envelope of our understanding of what those systems will be.

                                  W-76

    Mr. Rogers. In the time that you have been testing these 
new procedures, have you encountered anything that was a 
surprise to you?
    Dr. Reis. Yes, we have encountered several problems. One 
example, perhaps I could, if you have the time, I could go 
through, because it was a very interesting one. It is 
classified. We don't discuss this in open session.
    [Deleted.]
    [Deleted.] When we first did our analysis of that, we did 
not have the real computational ability at the time to 
understand that. With what we could do we asked one of the 
laboratories, we asked the other laboratory to say is this 
going to be a problem or not? [Deleted.]
    Now, in the past, that probably would have been something 
we would have gone back and tested because we didn't have the 
capability to do that. Well, we didn't want to test. It was 
only one, so before we, you know, had a whole big deal, we 
said, let's see if we can understand that a lot better. 
[Deleted.]
    We did some very detailed analysis using new types of 
computer codes. We used a lot of computer time to do this. Then 
the question is, are these computer codes useful or not? I 
mean, are they valid?
    Again, what both labs did was to devise new experiments to 
determine whether those codes were valid or not. [Deleted.]
    [Deleted.] We were able to go back using the validated 
codes and we were able to predict that result which we had been 
unable to understand before.
    [Deleted.]
    [Deleted.] That is not necessarily acceptable. You wouldn't 
really want to wait 2 years to be able to find this out.
    The new tools that we are developing, the computing is much 
faster now, so one could get to this type of answer literally 
in a matter of weeks, or perhaps even less time to be able to 
get that answer.
    But that is one example, and there are others as well. If 
we have time, I could go through it, perhaps even for the 
record include some of those. If it is a classified record, we 
could describe some of those devices where we have done that.
    [The information follows:]

                          B61-11 Certification

    The fielding of an earth-penetrating version of the B61 
presented one of the first opportunities to certify a change in 
the stockpile without nuclear testing.
    The unique underground environment of the B61-11 earth 
penetrator presented a new challenge. The primary and secondary 
designers had to determine the relevant differences between 
this and tested configurations of the B61, and then quantify 
the effect and uncertainty bounds on nuclear performance. The 
secondary designer is responsible for the overall performance 
of the weapon while the primary designer must assure that 
adequate yield is produced to drive the secondary under all 
conditions. A structured methodology that develops computer 
models, normalized to nuclear and non-nuclear experiments, to 
predict the range of performance was employed and rigorously 
reviewed.
    [Deleted.] Uncertainties associated with computation-
simulation were also being reduced by demonstrating the ability 
to predict accurately the performance of a broader range of 
systems. Then, calculating the B61-11 primary becomes more like 
interpolation than extrapolation of performance.
    [Deleted.]
    The challenge for the secondary designer is to minimize the 
uncertainties in performance associated with the untested 
configuration. Several independent computer models are 
normalized against numerous nuclear test events to determine a 
range of calculated behavior that includes such uncertainties 
as the accuracy of measured data in NTS events and variations 
in the numerical methods. This computer simulation system is 
then used to calculate a range of performance due to 
environmental conditions, aging and production tolerances to 
produce the stated range of performance in the certification. 
Independent calculations are run by the designer and by peers 
at Livermore.

                          stewardship working

    Mr. Rogers. That would be very helpful if you could do 
that.
    Dr. Reis. But we have been at this for several years and 
the question always comes up, as it should, how do you know 
whether this thing is working or not? What will happen 10 or 15 
years from now if we have a situation, or will it be 10 or 15 
years before you really learn whether this thing works or not?
    That is the right question to ask. I mean, that really is. 
The gut issue is not, is it working or how are we doing now; 
but what happens 10 or 15 years from now when we no longer have 
the people available to answer these questions or any questions 
that you might have.
    Mr. Rogers. And as time passes, the number of people who 
were active when we had actual nuclear testing taking place is 
going to decrease, and we are going to be dealing with weapons 
who no one alive has ever seen or exploded. And then it becomes 
even more complicated, it seems to me.
    Dr. Reis. That is the--that represents the reason why we 
are so--why this program, if you will, has gone from $4.0 
billion to $4.5 billion is that in the sense that we have a 
time frame, we have to show this is working. [Deleted.] So we 
have to get this program--again, which is working now, but we 
have to convince ourselves and you that it is continually 
working all through that period. And that is why we are making 
the investments in some of these facilities now. That is why we 
are making the investments now in the computing, because we 
have to have those in place, and you have to feel comfortable 
that we are working before the people with the real test 
experience are actually no longer with us.
    Mr. Rogers. Well, it is certainly a big part of your 
increase in budget.
    In your Stockpile Stewardship Program, you want almost 18 
percent more than you currently have, an increase of $330 
million. And then your Accelerated Strategic Computing 
Initiative, you are requesting from $226.6 to $329 million. And 
the National Ignition Facility from $229 to $291 million. So 
these are sizable increases. And obviously you feel it is 
necessary.
    Dr. Reis. Yes, sir. I think--again, I think you have put 
your finger on what is the sense of urgency about this program. 
And that is, you know, why can't we wait, perhaps START III, 
perhaps START IV or something like that? What will happen is 
that we have to have the program in place, working through that 
process I described to you earlier with weapons that are 
considerably older that they are now. And, you know, we don't 
want to have to go back and test if we don't have to.
    On the other hand, if we have to, you want to be very sure 
that you really have to. I am saying that requires really the 
best and the brightest to work on this and they have to have 
the tools to make that happen.
    Mr. Rogers. Well, and in a National Journal article some 
time ago, Donald Wolkersdoerfer.
    Dr. Reis. Wolkdersdoerfer.
    Mr. Rogers. Program manager and weapons designer at Los 
Alamos calls the Stewardship Program a scientific, quote, 
``leap of faith.'' He says it won't be clear until 2005 whether 
or nor the program has allowed the laboratories to keep pace 
with their earlier work projections.
    Is that an accurate statement, do you think?
    Dr. Reis. Well, people have different levels of faith. I 
guess I think that he is certainly working the right problem. 
My confidence--and again if we support the program the way I 
believe it ought to be supported, and certainly the way 
Congress has felt it ought to be supported, I feel--and again, 
you don't get the opportunity to ask the laboratory directors 
and other people as well, but I think it is more than a leap of 
faith.
    I think it would have been a leap of faith 4 years ago; I 
think that clearly was a leap of faith. But I think--what we 
have been able to do in the past 3 or 4 years gives me the 
feeling much more than if we stay the course in this, we will 
have a very good confidence of being able to succeed.
    Mr. Rogers. Will it take us 7 years to know whether or not 
it is working?
    Dr. Reis. Again, we ask that question every year 
rigorously. You also ask that question every year; we ask that 
question of ourselves every year. I think it is working now. 
And it gets progressively more difficult as the years go on, 
but we get progressively better.
    But I think, Mr. Rogers, you put your finger on the, if you 
will, you know, the years where, you know, by the year 2005, it 
will be--I think it will be in place by then.

                            remanufacturing

    Mr. Rogers. One final question. A number of scientists 
agree that the elimination of nuclear weapons production is a 
weak element of the stewardship program. If I am not mistaken, 
all of the nuclear states that have endorsed the Comprehensive 
Test Ban Treaty have continued to manufacture new nuclear 
weapons. We have not produced anything new in 10 years. I think 
I am correct on this.
    Dr. Reis. That is correct.
    Mr. Rogers. Is that a wise policy?
    Dr. Reis. The policy we are choosing is one where we will 
be remanufacturing, but we are not going to remanufacture the 
whole thing at once. We expect over time that almost every part 
of every weapon will have been remanufactured, assessed and 
replaced. But what we are not doing, which some other countries 
do, certainly Russia does, is remanufacturer the whole system 
at one time.
    What we are trying to do, if I could use an analogy with 
your automobile, we are replacing part by part as it needs to 
be done and maintaining that weapon. We are not sort of sending 
it back to the factory and redoing the entire weapon. We do not 
have the funds, A, to do that; B, many of the facilities that 
we had, even if we wanted to look--Rocky Flats, some part of 
the Y-12 complex, again the tritium--we no longer have those 
factors available to us. So the approach we are doing is to, 
one, very carefully assess what part has to be replaced and 
must manufacture those.

                          building new weapons

    Mr. Rogers. Are we researching new weapons?
    Dr. Reis. No. We would only do such at the request of the 
Department of Defense.
    Mr. Rogers. Ae are staying with our pat hand?
    Dr. Reis. We are staying with our pat hand, and I think it 
is at least a straight, maybe a flush.
    Mr. Rogers. Are others researching new weapons?
    Dr. Reis. I have no idea.
    Mr. Rogers. Does anybody care to answer?

        russia--nuclear weapons manufacturing and dismantlement

    Mr. Gottemoeller. Well, the Russians continue to both 
manufacturer weapons and also dismantle weapons. [Deleted.]
    [Deleted.]
    Mr. Roberts. I have other questions I can ask later.
    Thank you, Mr. Chairman.
    Mr. McDade. The gentleman from Texas is recognized.

                       RUSSIAN STOCKPILE PROGRAM

    Mr. Edwards. Thank you, Mr. Chairman.
    Thank you both for what you are doing. I wish we could get 
as much interest in these issues that are so important to our 
children and grandchildren's future as we can in highway 
spending and filling potholes, but I guess one of the 
imperfections of this process is that this is not one of the 
issues that many people focus on. Thank goodness you are 
committed to it.
    Let me ask, Dr. Reis, if you say that we have to spend $45 
billion over 10 years to ensure the safety and reliability of 
our nuclear stockpile, what are the risks and implications of 
the former Soviet states that cannot even afford to pay their 
army soldiers their monthly salaries regarding their nuclear 
stockpile? Is it a reliability problem that could become very 
severe in the next couple of years, or a safety problem? Surely 
their nuclear missiles are facing the same challenges as ours.
    Dr. Reis. As Ms. Gottemoeller has mentioned, they have a 
somewhat different system where they do tend to go back and 
remanufacture the whole system. Their system, as best we 
understand it, is perhaps not quite as finely tuned as ours, so 
they are perhaps less, you know, less science--if you will, 
science-based to some degree. On the other hand, our 
discussions with them indicate that they are very concerned 
about this.
    We have had a number of discussions with the nuclear 
weapons designers in Russia and certainly we have a lot of lab-
to-lab work and a lot of informal discussions. They are very 
concerned about that issue.
    Interestingly enough, Mr. Edwards, it gets down to some of 
the questions that you and the committee have asked, that 
really do have to do with people. Nuclear weapons require a 
very high level of expertise, if you will--not everybody can do 
these sorts of things--and they are very concerned about where 
are they going to get the people to do the job, you know, in 
the future, as well as, how do I maintain the current, you 
know, the current system as well.

                     RUSSIAN STOCKPILE STEWARDSHIP

    Mr. Edwards. And I assume they have nothing close to the 
resources that we are putting into our Stockpile Stewardship 
Program.
    Dr. Reis. Rose.
    Ms. Gottemoeller. It is difficult to know, Mr. Edwards, 
exactly what their budget is for Stockpile Stewardship. I am 
afraid we simply don't have a lot of information on that topic 
overall. We do know from recent discussions that they are 
concerned about how they are going to keep up the pace.
    [Deleted.]

                      CHEMICAL AND BIOLOGICAL ROLE

    Mr. Edwards. Thank you. That is a concern I would like to 
follow over the next couple of years.
    Ms. Gottemoeller, in regard to chemical and biological 
weapons, I understand that DOE's primary focus, and its 
resources in the past, has been on nuclear issues. Tell me, if 
you would, what you think the appropriate role of DOE should be 
vis-a-vis the Department of Defense, public health agencies, 
CIA.
    I am curious because in some parts of your budget, while 
President Clinton is saying this is a national emergency, you 
freeze your intelligence budget. You have a 5 percent increase 
in your programs overall. That is--maybe in today's limited 
budget that is better than other Federal agencies, but it is 
hardly a crisis response.
    Tell me what you think the appropriate role of DOE should 
be in chemical and biological weapons, if you would.
    Ms. Gottemoeller. Certainly, Mr. Edwards, I would be happy 
to do that.
    The Department of Energy's primary mission will always 
reside in the nuclear arena. That is what we do, and we do that 
for the government as a whole and for the Department of 
Defense, as Dr. Reis mentioned a few minutes ago. Over the 
years, however, a great deal of capacity for chemical and 
biological work has developed at the laboratories as a product 
of the work that we are doing in the nuclear arena.
    For example, things like remediation after a nuclear 
attack; that has brought in a great deal of chemical research 
overall. Detection systems that would be useful after a nuclear 
attack again has brought in quite a bit of chemical research.
    The effect of radiation on the human body has taken us into 
the biological arena.
    So over time a great deal of capability and expertise has 
developed in the lab system, and we are currently, I think, in 
an excellent position and are already leveraging that expertise 
in order to be able to provide capability to a new--not a new, 
but certainly a burgeoning--both domestic counterterrorism 
threat in the biological and chemical area, and also to 
continue to serve the Armed Forces abroad.
    And I would like to underscore we have done work for the 
Department of Defense to help them with their protection of 
soldiers in the field. This new work is somewhat different in 
that it really does focus on the domestic, the threat to the 
United States and specifically on the counterterrorism threat.
    So we are working in a number of specific areas. Many of 
them have to do with the way a biological or chemical agent 
would spread in an urban environment; for example, through our 
Metro system here in the Washington area.
    That kind of work is also very, very much benefiting from 
the kind of computer expertise that the labs have at their 
fingertips, because it involves a great deal of modeling work, 
plume modeling for the movement of these agents through urban 
areas.
    So I think that it is a service to the Nation, really, to 
use the capability that has been developed over time in our 
nuclear mission areas and now turn it to these new weapons-of-
mass-destruction kinds of threats in the chemical and 
biological area. We--again, the program began in fiscal 1997 
under the aegis of the Nunn-Lugar-Domenici legislation, and it 
is continuing at the level of $19 million we are requesting in 
fiscal year 1999.
    I think this is an area that we really see to be one where 
we can provide some relative advantages. But also I would like 
to end by saying that we are working very carefully with 
agencies all over town, with the Defense Department and with 
other organizations such as the Justice Department, to make 
sure both that we are not repeating work that is being done 
elsewhere and that we are also partnering with them in very 
effective ways to ensure that we are filling in gaps where they 
need new technologies and the labs are able to provide them.

                        interagency coordination

    Mr. Edwards. Let me ask. Sitting in my seat, it is 
difficult, since we only have one piece of the pie, both 
nuclear and chemical and biological weapons. Personally, I 
think there should be a quantum increase in funding in some of 
these nonproliferation programs; but I would also want to see 
that that money was coordinated well. Is there a functioning 
committee or entity that meets on a regular basis? Who is 
responsible for seeing that all of these dollars are being 
spent without a great deal of waste and duplication, or just as 
bad, a great deal of gaps left in funding for programs?
    Ms. Gottemoeller. If I may, I will just refer quickly to my 
notes because there are actually three interagency 
organizations that work very closely together to ensure that 
both the DOE is getting input, proper input from the DOD and 
other interested agencies, and to ensure that there is no 
duplication.
    We work very, very closely annually with three 
organizations. One is the central MASINT office, or CMO, which 
is under the chairmanship of DIA; and that group specifically--
under that group, we work specifically with the so-called 
Biological Seniors Group.
    The second group is chaired by DOD and that is the 
Nonproliferation and Arms Control Technology Working Group 
which has a Chem/Bio Detection Focus Group, so we here working 
very, very closely with the DOD.
    And finally--this is an organization that was started a few 
years ago as we began to work in the Nunn-Lugar-Domenici 
context, the Counterproliferation Review Committee, CPRC. We 
are going to have a meeting with them in the next week. That is 
a group that is jointly chaired by DOE and DOD with the 
participation of the Intelligence Community as well.
    So I feel like we are working quite vigorously with 
agencies all over town. This last summer, in August, we had a 
program review, very successful, and invited in agencies from 
all over the government to both discover their needs and to 
ensure that there was no duplication in our programs.

                          personnel practices

    Mr. Edwards. Good. There are a number of other questions I 
might want to consider, but let me just ask one more right now 
because I want to defer to the Chair and his questions.
    But it seems to me that both of you are working in an 
extraordinarily important arena, albeit an arena that most 
people don't worry about because there is not a daily, visible, 
tangible threat to the standard American family. But clearly 
you have to hire people that have very specialized expertise to 
do their jobs.
    Do Department of Labor standards require when there are 
layoffs that you have to lay off some of the very specialized 
people that you have hired in order to keep on board those that 
have greater seniority, or do you have some leeway to designate 
or develop an exemption so that if there are any reductions in 
staffing that you can actually keep those that--not everybody 
can review the safety and reliability of a nuclear warhead. Do 
you have all of the authority that is needed to see that these 
people are not laid off because of budget reductions?
    Dr. Reis. Certainly the laboratories have the flexibility 
to do that. I think in the production plants where there are 
contracts, you know, working with unions and things like that, 
there is less flexibility. I do know, in discussing this with 
the people at the plants, that we have had--they have gone 
through significant measures to ensure that the skills mix is 
all right.
    I have not sensed at this stage whether that becomes an 
issue, but it is worthwhile relooking.

              commission on maintaining nuclear expertise

    I would add that, you know, the Congress, we are working 
with a Commission created by Congress to look in the nuclear 
area, certainly to look at the nuclear expertise. That 
Commission is just getting going. It is chaired by Admiral 
Chiles, who formerly was the commander in chief of STRATCOM and 
includes a former Deputy Secretary Curtis, General Larry Welch, 
who was formerly head of STRATCOM who is president of the 
Institute of Defense Analysis, several other quite 
distinguished people who are going to look at that information, 
Mr. Edwards, in some detail.
    Both at the laboratories and in the production complexes as 
well, because I think the point you raised is, it is not just 
the laboratories in terms of the scientists; we are going to 
have to remanufacture things. We know that. And some of the 
manufacturing is similar to others, but a lot of it really does 
require special training. So they are going to be looking at 
all the details.
    I haven't bumped up to that. I frankly haven't bumped into 
that specific problem yet in terms of Department of Labor 
standards, but I know that the scientific--the issue of 
maintaining a trained work force and, in addition, ensuring 
that the trained work force will be available 10 or 15 years 
from now is one that is very high on my agenda.
    Mr. Edwards. Do you have any idea what the timetable is for 
this group's study and report?
    Dr. Reis. I think they are supposed to report back in March 
of 1999.

                               skills mix

    Mr. Edwards. So not in time for this legislative year, but 
perhaps next year.
    You know, as a Democrat, I try to work with civil service 
groups and labor unions, but when it comes to national security 
interests, it seems to me that that ought to be the top 
priority when you have to decide who to fire and who to hire 
and who to keep and who not to keep.
    I understand why it would be maybe politically sensitive 
for this administration to make a proposal, but I am very 
interested in hearing the results of this effort and being part 
of an effort to try to designate some sort of exemption that is 
narrow enough that it wouldn't be a threat to the general 
membership of, you know, AFSCME or any other Federal union that 
represents Federal employees. Just, we should not have to 
compromise national security interests in order to meet civil 
service laws designed with the best intentions of protecting 
the rights of a broader group of Federal employees.
    If--short of waiting for March of 1999 to come about, if I 
could ask perhaps a written response to any limitations you 
presently have, either under program direction or other areas 
under your jurisdiction where you--by law, you couldnot keep 
the people that you felt were crucial to keep for our country's 
interest. I would be very appreciative of your sending that 
information. You can send it without editorial comment.
    Dr. Reis. Just the facts.
    Mr. Edwards. And we will add our own editorial to that.
    Dr. Reis. Glad to provide that.
    Ms. Gottemoeller. We will as well.
    [The information follows:]

                           Critical Employees

    To meet funding reductions in the Energy and Water 
Development Appropriations Act, 1998, and to comply with 
personnel ceilings, the DP Headquarters organization conducted 
a reduction-in-force (RIF) in January 1998. Additional RIFs may 
be required in the future, both in DP Headquarters and at field 
sites. This recent experience demonstrated that certain 
critical skills areas were vulnerable to ``unintended 
consequences'' of the RIF process under existing laws and 
regulations. To minimize this vulnerability, specifically the 
displacement of highly skilled employees from positions 
requiring a high level of technical competency, the Department 
is developing a model for preserving critical technical skills. 
The model will ensure that employees with critical skills are 
properly categorized in competitive levels which accurately 
reflect the unique technical competencies essential to many DP 
jobs. This more precise and specific definition of the 
competitive levels used in a RIF may provide greater protection 
for critical technical staff from displacement due to the 
unpredictable results of the bumping and retreating by 
employees with higher retention standings. This model will 
enable DP to assure the maximum retention of critical 
scientific and engineering skills to the extent possible under 
current legal and regulatory constraints.

                           Critical Employees

    The Office of Nonproliferation and National Security (NN) 
shares the concerns expressed by Defense Programs. When plans 
for a potential NN reduction-in-force were developed during the 
late summer and early fall of 1997, it became clear that under 
current regulations involuntary separations would inevitably 
impact disproportionately staff in positions requiring a high 
level of technical competency. The critical skills model under 
development by the Department should be helpful to NN if 
involuntary separations become necessary in the future.

                      russian command and control

    Mr. Knollenberg [presiding]. First of all, I want to thank 
both of you for attending today, and for, particularly, Dr. 
Reis, your arranging to allow me and others to attend or visit 
the laboratories last fall. We got to all three of them, and as 
you were going through some of your response to Mr. Rogers, I 
began to relive some of the experiences and familiarity with 
some of the discussion items that we got into when we were out 
there.
    I want to focus, if I can, on some of the proliferation 
problems that we have; and to begin, there was an article that 
appeared in the Post over the weekend. You probably both have 
had an opportunity to read that. And as you know, it focused on 
Russia's nuclear deterrents and its nuclear situation, its 
collapsing, as it pointed out, command system or allegedly it 
could be in a state of collapse.
    And as you know if you read the article, it focused on a 
joint effort between Norway and the U.S. in 1995 that was 
simply a research vehicle that was being--that was triggered in 
Norway, and the result of that was to send a signal to Russia. 
At least their response was that this thing was not a research 
item; it was, in fact, something far more scary. And 
apparently, even though the U.S. and--I guess in conjunction 
with Norway, did send a letter advising them of this being a 
forthcoming event.
    They blew it. There was some bureaucracy obstruction, and I 
happen to know a little bit about that because I am dealing 
with it on a totally different issue. In any event, President 
Yeltsin had to almost--in fact, he did get his hand pretty 
close to the trigger.
    I am not trying to sensationalize this 1995 event, but I 
think it does play into--very closely into the heart of what is 
our situation today and would there or could there have been 
some kind of misstep by the Russians' assuming that it was 
nuclear, that it wasn't research that was not a harmless 
vehicle?
    I would like your idea as to, how do we in the future, or 
how do we at any time combat that kind of accident from 
starting?
    I guess, Ms. Gottemoeller, it would be you I would turn to 
for a response to that.
    Ms. Gottemoeller. I will be happy to start, Mr. Chairman. 
And Dr. Reis may have something he wishes to add.
    I would note--I remember that event well, because I was in 
London at the time, and the Europeans got very spun up about it 
because it was very, very, very close to home for them so they 
were very, very concerned about it.
    [Deleted.]
    I would say that what, in the end, prevented disaster in 
that case was that there was a decent existing communication 
system from their headquarters in Moscow out to the field, and 
that continues to function fairly well, except when the SRF 
does not pay its bills and the local electricity authority 
closes them down, which has also happened in the past. But 
generally, I think the Strategic Rocket Forces has done quite 
well in maintaining their command and control system as it has 
traditionally operated.
    So that was a saving grace in this case. And the other 
saving grace was simply the fact that, bureaucratic bungling 
aside, there is such good communications these days between the 
various capitals, between Moscow and Washington, for example, 
that this could be checked fairly quickly. It is quite routine 
for test rocket launches, and it has been for many years, to be 
prenotified to the various capitals; and so everyone knew, I 
think, in Moscow to check quickly and make sure that something 
hadn't gotten lost so to speak.
    So the assumption was that that was probably not, you know, 
reliving the Cold War in some ways, a shot fired in anger; but 
it was probably a test launch, and they simply didn't know.
    My point is that the world has changed somewhat in a 
positive direction and there is a lot more communications, a 
lot more ability to just pick up the phone and say, hey, what 
was that?

                responding to a nuclear terrorism attack

    Mr. Knollenberg. Let's turn this into something that may be 
a little more a matter of concern of not so much just Russia 
and the U.S., but also some of the rogue states. For example, 
and I know that you probably know what is coming--by the way, I 
am concerned about another comment that was made in that 
article by I believe--I can't pronounce his name, Rodionov, is 
that close--who said that Russia might soon reach the threshold 
beyond which its rockets could not be controlled; and there was 
another so-called well-informed source who said that today it 
is not dangerous, but tomorrow it might be. It is going down. 
It has not reached the critical point, but the trends are down.
    In the days when designers are not paid and when money is 
allocated for upkeep, and we know the problem that Russia has 
had with paying its people many times, and there is a problem 
there--they are unpaid or underpaid, and that creates a 
problem. The question I would like to relate to now is a 
nuclear strike by a group of terrorists, and that is still out 
there. I know it has got to be something that you are 
preoccupied with, both of you.
    Let's say a device was stolen by or created by such a rogue 
nation or a group of terrorists. What would be Russia's 
response if a nuclear warhead were launched against Moscow, not 
by the U.S., but how would they respond? And conversely what 
would the U.S. response be if a nuclear warhead were launched 
against Washington, D.C.? I guess I would like to have a 
response on both of those questions.
    Ms. Gottemoeller. Those kinds of threats, I think, have 
been, for many years, a concern to both sides. Those kinds of 
threats created, even in the early 1960s, an impetus to the 
establishment of the Hotline, for example. So for many years, I 
think there has been an effort by Moscow and Washington to 
ensure that accidental launch, or launch by a third party, 
whether a terrorist or a state, could be checked adequately; 
and that it would not necessarily lead to an all-out attack, 
Moscow against Washington, the United States against Russia. So 
my view of this, Mr. Knollenberg, is that the two sides would 
be cautious and would not immediately assume the worst.
    But there is a danger there, and any time a nuclear device 
goes off anywhere in the world, whether it is launched by 
missile or it goes off in a truck somewhere, it will be an 
enormous catastrophe and will cause not only a great deal of 
pain and suffering in the local area, but a great perturbation, 
I think, in the international arena and in the major capitals.
    So I don't want to in any way say that such an event would 
not be a very, very serious problem, but I do think that both 
countries would be very cautious about checking to make sure 
before they acted precipitously.

                  proliferation prevention priorities

    Mr. Knollenberg. Russia, as you know--it has been quoted a 
number of times and in this article as well--has so-called 
``graveyards'' of nuclear weapons; and I know that--and they 
say they don't know what to do with them. This article, what it 
pointed out I think is somewhat frightening because--you have 
already provided in your testimony that confronting the 
worldwide proliferation of weapons of mass destruction is one 
of the U.S.'s highest priorities, and I know that Mr. Edwards 
engaged in a little bit of that. Please, if you would for this 
committee, tell us what should be the order of our priorities 
preventing proliferation, both weapons and materials from the 
Soviet Union.
    And also, through which responses can we get the most 
prevention? If you could give us a little order of priority of 
how you would go about it.
    Ms. Gottemoeller. I think that you really have to come at 
this problem as a multilayered problem. But in the first 
instance--and this is the basis upon which our material 
protection, control and accounting system is based, you have to 
control the materials and weapons at their source. If you can 
keep them at home, so to speak----
    Mr. Knollenberg. The submarines and----
    Ms. Gottemoeller. Yes, the submarines, the weapons and also 
the nuclear materials in whatever form they occur. So if you 
can keep the nuclear materials and weapons systems safe at 
home, protected and in a storage situation where they cannot 
easily walk away, be carried out by illicit actors, whether 
through terrorist attack or just simply insiders saying, you 
know, here is a way I can make some easy money. That is the 
most important thing, and that is why we have initially placed 
such a great emphasis on making sure that we are building good 
fence systems, that we are building good detection systems.
    I walked into these vaults in Moscow 2 weeks ago, and it 
was very good to see that we had helped to establish a better 
container system in the vaults that were there. The containers 
were actually wired, so if anybody tried to move them, it would 
set off alarms all over the place. They hadn't had anything 
like that before. So it is very--in many ways, they are very 
simple technological steps; they are not very glamorous, but I 
think they are very high payoff. And that is the way that you 
prevent at the most basic level your proliferation problem.
    Mr. Knollenberg. What is the top priority in your mind when 
it comes to proliferation with respect to Russia and the 
varying presence of nuclear material of one kind or another? 
What is the number one priority?
    Ms. Gottemoeller. The number one priority is weapons usable 
material that is more or less readily accessible.
    I spoke to one director of a facility in Moscow. His 
reactor was the closest to the Kremlin and therefore it was 
somewhat high visibility. After Chernobyl, the Politburo had 
called him up and said, Shut that reactor down; we don't want 
an accident here in Moscow. And he told me that during the 
Chechen war he had been constantly getting advisories from the 
government warning that there were Chechen terrorists in Moscow 
and that he needed to get his materials protected.
    So that was a facility where there was a very poor fencing 
system, and he said he was quite concerned that he would have 
people driving through it in a truck and picking things up. So 
it is those situations that I think we have to work on.
    Mr. Knollenberg. What about the nuclear experts, for 
example, that are no longer employed? Is it conceivable they 
could have gone to Iran or Pakistan? They could have gone to 
India or wherever; is that possible?
    Ms. Gottemoeller. That issue of the brain drain is also a 
very important problem area that we have to tackle. You have to 
physically make sure that the materials and weapons are secure, 
but you also have to provide employment and alternative 
economic activities for people of that kind so that they are 
not tempted to walk away.
    Mr. Knollenberg. It strikes me as the brightest and the 
best, as Dr. Reis talked about. These folks are the brightest 
and the best in Russia and they are not going to get a job 
waiting on tables. Is there any tracking system for those folks 
at all?
    Ms. Gottemoeller. MINATOM itself, the Ministry of Atomic 
Energy, is a very large organization with traditionally a very 
good social service capacity. It has had a kind of cradle-to-
grave policy for nuclear scientists and their families. That 
has begun to crumble in recent years, and so I would say that 
the tracking system and the kind of social services that 
surrounded every nuclear scientist have definitely begun to 
dissipate at the present time. That is one reason why we have 
worked so energetically on our Initiatives for Proliferation 
Prevention, which is a program that the DOE sponsors in 
partnership with other agencies--the State Department has the 
International Science and Technology Center.
    But these are programs that help not only to keep nuclear 
scientists gainfully employed, but also to provide them 
economic alternatives that are interesting work outside of the 
nuclear weapons complex, per se.

                construction of nuclear reactors in cuba

    Mr. Knollenberg. I know that that is ongoing. I hope it is 
proceeding in the way that you describe it and that there are 
some safeguards built in.
    I have a quick question on Cuba. What can you tell us about 
the current status when it comes to the nuclear reactors that 
are being built in Cuba by Russia? What is the status on that?
    Ms. Gottemoeller. We are not yet sure, to tell you the 
truth, if the Russians are going to come through with the 
necessary financing for that project. If the Russians do commit 
and come through with the financing, then it could be completed 
in 2 or 3 years' time and be up and running essentially.
    It is not--the reactors that are being built in Cuba are 
not Chernobyl-style reactors. [Deleted.] So it is not quite the 
same as the Chernobyl situation. But I think the big question 
is whether the Russians are actually going to come through with 
the funds.

                   spent fuel canning in north korea

    Mr. Knollenberg. Describe if you can, jumping to North 
Korea, the spent fuel program up there and when will it be 
completed. What will the U.S. role be as this continues, once 
the spent fuel is canned? What are we going to do?
    Ms. Gottemoeller. Yes, I am happy to tell you, Mr. 
Chairman, that the canning process has now been completed. We 
will continue to work with the IAEA in North Korea in order to 
establish--in order to establish all the basic conditions to 
keep the materials under safeguards over an extended period of 
time. And that has been a difficult set of activities to carry 
out because the North Koreans have not always been easy to work 
with by any means. But the canning is now completed, and we 
will continue to be working to ensure that the materials are 
adequately safeguarded.
    Mr. Knollenberg. I am going to conclude my questions at 
this point.
    The Chairman didn't leave without reason. He had a couple 
of things in tow. But I do want to make sure that we get the 
additional questions that Mr. Fazio, Mr. Edwards, and of 
course, now we have Mr. Frelinghuysen joining us. I think it 
would be appropriate to return to Mr. Fazio, who has returned.

          us/russian strategic command and control cooperation

    Mr. Fazio. Thank you, Mr. Chairman. I really appreciated 
your questions, some of which were similar to some that I had. 
The series of articles in the Washington Post, and the New York 
Times Magazine were all very timely for members of the 
committee. And I thought perhaps we ought to engage in some 
further discussion of them.
    Ms. Gottemoeller, you talked about the avenues of 
communication that exist between the two powers, giving you the 
confidence that perhaps the hair trigger concerns that some 
people have talked about are overblown. But, you know, it seems 
that there has been talk, but not recently, of a direct link 
between NORAD and the Soviet command, the Russian command post. 
And that still does not exist. And so when we have these 
research rockets fired off from Norway that nobody knows about 
because some bureaucrat forgot to take note of a letter to that 
effect and forward it to the right people, or, some sort of 
computer chip failure, as occurred in our system in 1980, 
occurs, we don't have any ability to quickly reassure the other 
side at the highest level that, in fact, there is no reason, 
put your forces on alert or launch on warning or, use it or 
lose it or any of the things that we have heard thrown around 
for years.
    Don't you think that would be a reasonable and relatively 
inexpensive thing to engage in?
    Ms. Gottemoeller. I have understood, Mr. Fazio, that--and 
this would be a good inquiry for colleagues at the Defense 
Department; that, in fact, there is quite active consideration 
at the present time of returning to the idea of having a 
Russian presence in the U.S. NORAD system somewhere, and 
perhaps vice versa as well. This idea has been out there for 
some years and has been under discussion, as you pointed out. I 
think it is one to which people are returning now and I think 
it is a good idea.
    Mr. Fazio. Why do you think we have kind of neglected it? 
It was a Sam Nunn idea. I remembered it at the time he 
mentioned it, but it simply has dropped off the list of things 
to do. Do you think that is because we basically have assumed 
that things are going in the right direction; we didn't have 
the level of hostility and accidents don't happen, therefor?
    Ms. Gottemoeller. As I understand it, sir, I don't think 
that people believe accidents don't happen, but I do think in 
general people felt that things were going in the right 
direction and that communications were improving overall, as I 
mentioned before. So that was one factor.
    And, frankly, some other priorities began to take 
precedence, when the Soviet Union fell apart, and there were 
thousands of warheads in Ukraine, Kazakhstan, and Belarus. That 
was an area that the administration and the Russian side, as 
well as Ukranians, Kazakhstans and Belarusans put a great 
priority on.
    So some of the issues we were considering very intensively 
in the waning years of the Cold War simply, I think, got set 
aside. I won't say got pushed to the background, but I think 
now it is a good time to return to them. We have solved some of 
these pressing problems.

                       russia's nuclear stockpile

    Mr. Fazio. Do you think the deterioration of the Soviet 
weapons stockpile, essentially now there seems to be some 
consensus that their nuclear warheads are, in operational 
terms, below 2,000 is accurate, as some of these assertions in 
the public press. We are in a secure room here and you know 
that answers, and I am wondering if you can confirm some of the 
things that are now being put in the public domain?
    Ms. Gottemoeller. The Russians have now been very public, 
and I have heard it directly from specialists in Moscow, as 
well have seen it in the press. They are saying very openly 
that they cannot maintain readiness levels as they did in the 
past, and that the reliability of their nuclear forces is going 
down.
    I would ask, sir, if we might, I would be happy to provide 
some additional details in a classified forum for the record. 
At the moment, I do not personally have a particular view on 
this issue.
    Mr. Fazio. Do you think this creates more or less 
stability, given their declining ability to utilize what had 
been a formidable nuclear response at least, if not initiate a 
very, very effective strike? There are theories on both sides. 
I would be interested in your doing on the one hand, and on the 
other.
    Ms. Gottemoeller. Yes, I was going to take that tack, 
actually.
    Mr. Fazio. I figured you were. I wanted you to feel better 
about it.
    Ms. Gottemoeller. Thank you. Thank you, sir.
    On the one hand, you know, the Russians have felt that they 
must depend on their nuclear forces now because their 
conventional forces are, indeed, in catastrophic shape at the 
present time. And so we do continue to see evidence of 
investment in the nuclear forces.
    I believe the current Commander in Chief, the current 
Minister of Defense, excuse me, General Sergeyev, who is the 
former Commander in Chief of the Strategic Rocket Forces, when 
he says that the SRF is still at this time a very capable force 
and is fully capable of meeting its requirements for 
maintaining a deterrence, a deterrent force, so I agree with 
that assessment, but I also agree that the level of investment 
in the forces has not kept pace with requirements for 
maintenance particularly, and for maintaining operational 
readiness.
    So I think that there are troubles on the horizons, and I 
think this is one good reason for us to be considering moving 
expeditiously once the Duma ratifies START II into a START III 
negotiation.
    [The information follows:]

                     Reduction in Russian Stockpile

    [Deleted.]

                            start ii and iii

    Mr. Fazio. Well, we started negotiating START II before 
START I had actually been ratified, as I remember. So there is 
really no reason to even delay at this point, hoping that, of 
course, the Duma does act.
    Ms. Gottemoeller. Well, as I mentioned, Mr. Fazio, before, 
the Russians are very good negotiators, they are crack 
negotiators and they recognize good leverage when they see it. 
So I think that the executive branch and Russia is keen to get 
the START II treaty ratified because they are facing tremendous 
budgetary pressures and they recognize that START II will free 
them up to proceed in directions they would like, and may be 
forced to go anyway.
    Mr. Fazio. Yes.
    Ms. Gottemoeller. So my view is that we should continue to 
exercise that leverage. And I believe, as I said earlier, that 
it will pay off within a short time.

                             stockpile size

    Mr. Fazio. This leads me more to question the number of 
weapons that we find are required as a result. It is my 
assumption that we have--given our desire to cannibalize older 
weapons, if need be, for materials that are harder to come by, 
have kept sometimes twice the number that we have agreed to 
limit deployment of in order to have the back-ups, the spares, 
the things that we feel more secure having in our arsenal.
    Is that correct, Vic? Maybe you want to jump in.
    Dr. Reis. Well, we maintain an inactive reserve and then we 
also maintain certain components, bits, you know, as part of 
that reserve. Then, we also have a reserve of material, of 
plutonium and, you know, uranium. And I would imagine, Mr. 
Fazio, you know, as one moves towards a START II, START III, 
one would relook that whole issue. The Department of Defense 
and the State Department spend a lot of time considering those 
issues.
    Mr. Fazio. [Deleted.]
    That's the reference you are just making; is that correct
    Dr. Reis. That's right.
    Mr. Fazio. Does Russia do the same?
    Dr. Reis. By the way, I should add that we are responsible 
for those weapons, whether active and inactive, to ensure that 
if they are--you know, if they ever did have to maintain, you 
know, be moved into the active stockpile or whatever, it is all 
part of the----
    Mr. Fazio. If there was a break out----
    Dr. Reis. Or something like that.
    Mr. Fazio [continuing]. And the treaty was trashed, we 
could immediately make them operational?
    Dr. Reis. We could have a reserve, and in addition, the 
production complex also has to, you know, over time, be--you 
know, our responsibility is to maintain the capability of--
currently, but be able to produce a START I in that situation.
    Mr. Fazio. Do we permit in the treaties we have negotiated 
or are hoping to ratify, do the Russians do the same? Are they 
in the same position we are in in terms of having multiples of 
currently deployable weapons in the reserve in one status or 
another?
    Dr. Reis. The treaties, START I and START II, really have 
to do with launchers. It is only when we get to START III that 
we are looking at these things----

                        russian tactical weapons

    Mr. Fazio. There is no real limit until III?
    Dr. Reis. Of course, as Ms. Gottemoeller said, she is 
actively involved, as are we, in trying to understand what all 
of these issues are.
    The other aspect, which I don't think was mentioned in 
there, is the large number of tactical nuclear weapons.
    Mr. Fazio. Right.
    Dr. Reis. That the Russians maintain, which is a much 
larger number.
    Mr. Fazio. Which is probably a major security issue, more 
than in the tactical area. Is that so? Am I making an 
assumption I shouldn't make?
    Ms. Gottemoeller. Mr. Fazio, we have been concerned.
    Mr. Fazio. Terrorism, et cetera.
    Ms. Gottemoeller. [Deleted.]
    I have to say, to the credit of first the Soviet Union and 
now Russia, they have taken steps to consolidate those weapons 
in a very small number of storage facilities. So they are not 
spread out all over. The Soviet Union, even before its breakup, 
had brought those systems back into Russia and they have 
continued to consolidate since. So that is a helpful step, but 
it is still a significant concern.

                         russian stockpile size

    Mr. Fazio. Do we have any number of spares or nonactive 
weapons that would be equivalent to the number we have in 
reserve; not tactical, strategic weapons?
    Ms. Gottemoeller. I would defer to Dr. Reis on that.
    Dr. Reis. Do you mean do we know what they have?
    Mr. Fazio. Yes, what do we know about what they may have 
that is comparable to us.
    Dr. Reis. Then I would refer back to Ms. Gottemoeller.
    Ms. Gottemoeller. I am sorry. I thought you were talking 
about the blue side.
    Mr. Fazio. Whichever.
    Ms. Gottemoeller. Yes, they do have similar kinds of 
numbers. [Deleted] to really dismantle those weapons.
    There is an arrangement in the parallel unilateral 
agreements between Presidents Bush and Gorbachev and then 
Yeltsin in the early 1990s to reduce tactical nuclear weapons, 
and we have been doing that very energetically. The Russians 
have also been doing reductions in those forces, somewhat less 
energetically. So there have been reductions, but there is 
still a very large number on their side.

                      strategic deployment levels

    Mr. Fazio. Do we assume that they are having problems 
maintaining that kind of stockpile of weapons if everything 
else we know is true about the deterioration of their forces? 
Do we know much about the status of these weapons in terms of 
their operational ability?
    Ms. Gottemoeller. As I noted before, I think on the 
strategic nuclear side, they continue to be in good shape in 
terms of maintaining their operational capability, generally 
speaking. But we do know that their deployment rates are down 
for things like the submarine force. In the past, they would 
have several boats at sea at any one time. Now they typically 
have one or perhaps two boats at sea at any one time.
    Mr. Fazio. So they would have----
    Ms. Gottemoeller. So their deployment rates are down. Their 
operational performance rates are down. But in terms of the 
actual reliability of the nuclear warheads on those systems, I 
think they are probably still in pretty good condition.
    Mr. Fazio. They are probably, what, 20, 30 ballistic 
missiles at sea at any given time; we have got probably 300 or 
so, is that--according to this article?
    Ms. Gottemoeller. Yes. If they have a single boat at sea, 
that range is correct; two would double that number.

                               b61 mod11

    Mr. Fazio. I guess one of the questions that was sort of 
the hook for this article was why we developed the B61-11. 
Could you give us the rationale?
    Dr. Reis. Sure.
    Mr. Fazio. I think it would probably be better coming from 
you than extrapolating it from this critic's article.
    Dr. Reis. You can't always believe what you read in the 
newspapers.
    Mr. Fazio. That's true. They can't certainly always do the 
job you would otherwise, if you could, in rebutting.
    Dr. Reis. Right, indeed.
    The requirement for developing the B61-11 came from the 
Department of Defense several years ago. And the purpose was to 
maintain the same military requirement, but do it without using 
the B53.
    As you remember, the first--the first approximation--you 
can tell when a weapon was first designed by the number that 
comes after it now. So 53 was started back in 1953. So it is a 
very old--it is a very large weapon, I can say [deleted].
    Mr. Fazio. This is the earth penetrator we are talking 
about?
    Dr. Reis. It is not an earth penetrator. What it does by--
it is a surface burst--would it be an air burst? A surface 
burst. So you can imagine.
    Mr. Fazio. You are talking about the B53?
    Dr. Reis. The B53. The B53, as you can imagine would be a 
horrendous sort of device. And also--again, when one is on an 
aircraft, one is always concerned about it. Safety really is a 
very, very important aspect. And even though it met specs, you 
still are always trying to make it safer. So what was done on 
the B61-11 was to take a B61 and essentially just change the 
nose cone and tail assembly so it would penetrate. The 
electronics is much the same.
    Ordinarily, a B61 lands and just, you know, waits a while 
and then goes off. This would penetrate, give you better 
coupling to the target. The specific group of targets, there 
weren't very many of them, that the B53 was designed to go 
after, the B61 is designed to do. It uses the exact same 
physics package. In other words, the bomb itself is identical 
to what it was before. Much of the electronics are all the 
same, but it does penetrate, as you might imagine. Its fusing 
is basically a little different.
    There is an argument, continued, you know, discussion, is 
this a new weapon or is this not a new weapon? And, you know, 
you can go forever on that one. As far as we are concerned, 
from the Department of Energy perspective, it meets the 
requirement that came over from the Department of Defense. They 
have reduced the potential for accidents. They have reduced the 
amount of nuclear material that they have to have, you know, in 
their stockpile. I will leave it to the, you know, the people 
to worry about semantics as to whether it is--specifically 
whether it is a new weapon or not.
    Mr. Fazio. But the reason for it?
    Dr. Reis. The reason was to improve safety across the 
board, to do the same mission with considerably less yield but 
essentially with more effectiveness.
    Mr. Fazio. And this is to essentially go after command and 
control underground?
    Dr. Reis. It is to go after specific underground targets.
    Mr. Fazio. All right.
    Dr. Reis. And I think that is--we can give you certainly 
more details on this. By the way, one of the issues that came 
up, I think Mr. Rogers asked, to give some examples of how 
stockpile stewardship is working, there is an example in the 
B61-11 where we did have to put it in a new case, and we have 
been able to certify that by using the new techniques, by using 
the new systems. In the past, we probably would have tried--
done some underground testing on that, and we were able to 
certify it without underground testing.
    Mr. Fazio. The fact that it is new in the sense of the new 
mission----
    Dr. Reis. Well, it is an old----
    Mr. Fazio [continuing]. Occurred in the last couple of 
years.
    Dr. Reis. No, it is an old mission. It is the exact same 
mission it was before, but it is using----
    Mr. Fazio. A newer and better approach?
    Dr. Reis. A new and better approach which is safer and much 
less yield, right.
    Mr. Fazio. And the third digit, which in this case, went 
from B61-7 to 11----
    Dr. Reis. Right.
    Mr. Fazio [continuing]. Is what? The third digit tells us 
something.
    Dr. Reis. Well, I think what has happened is, every one of 
those are modifications because the original B61 was built in--
started off in 1961 and there have been a number of 
modifications.
    Mr. Fazio. Right.
    Dr. Reis. A number of those modifications are still in. The 
8, the 9, were other modifications which were not deployed. 
Okay?
    Mr. Fazio. Yes. They were designed, but never implemented 
in the sense of developed?
    Dr. Reis. That is right. They were never--they were never 
entered into the stockpile.
    Mr. Fazio. I see. I see. This is an area of some arcanity, 
and I guess we are all learning just enough to get in trouble 
and make the day of the people behind you. But, you know, it 
seems to me that we need to delve into this depth occasionally 
in order to get some sense of what is really appropriate.
    Dr. Reis. Sure.
    [The information follows:]

                          Need for B61 Mod 11

    The DoD established the military need for development of 
the B61 Mod 11. DoD requested a nuclear weapon with modern 
safety features for carriage on the B-2 to replace the B53 
gravity bomb carried by the B-52. The B53 gravity bomb was 
designed before the development of modern safety and use 
control features. While the DoD and DOE agreed that the 
continued military deployment of the B53 did not pose an 
unacceptable safety risk, we also agreed that overall safety 
would be enhanced by replacing the B53 with a weapon which 
embodied modern safety features and existing B-2 delivery 
capability and qualification.
    [Deleted.]

                          stewardship working

    Mr. Fazio. Could you tell me whether the Armed Services 
Committee hearings are really--I know they are also----
    Dr. Reis. The Congress was fully informed about this. Now, 
again I think I----you know, before, during----
    Mr. Fazio. There was a reprogramming request, I am told.
    Dr. Reis. Yes.
    Mr. Fazio. Never are we fully informed by reprogramming 
requests, I can assure you, although I am sure the people who 
need to know in theory were, which is like 4 to 8 people.
    Dr. Reis. Part of the concern on this one was the Air Force 
was anxious to get that out of the stockpile as rapidly as 
possible.
    Mr. Fazio. Yes.
    Dr. Reis. So there was some degree of urgency specifically 
on that.
    Mr. Fazio. Right.
    Dr. Reis. Of course, from our perspective, it also allowed 
us, frankly, from a programmatic perspective, to see, can you 
do Stewardship, albeit on a modest scale, can you actually do 
something that perhaps one in the past would have gone in a 
very different way----
    Mr. Fazio. Right.
    Dr. Reis [continuing]. And do it rapidly?
    And by the way, if I could get back to one of the points 
that Chairman McDade was saying, that one was done on time, on 
budget, throughout the complex.
    Mr. Fazio. Well, I am not saying I would have come to any 
different conclusion.
    Dr. Reis. Sure.
    Mr. Fazio. I am saying that sometimes we don't have the 
discussion, and I understand why better than most people here 
would like to admit. Thank you.
    Mr. Knollenberg. Thank you. The idea is--we will wrap this 
up a little later, but we want to hear obviously from both Mr. 
Frelinghuysen, who hasn't as yet had an opportunity, and then 
we will come back to Mr. Edwards. And then we will conclude and 
we can adjourn then until tomorrow at 2:00.
    So Mr. Frelinghuysen, you are recognized.

               new york times article and nuclear weapons

    Mr. Frelinghuysen. Very briefly. I apologize, I was in 
another hearing, Mr. Chairman.
    The New York Times article, was there anything in there 
that surprised you?
    Dr. Reis. Not really, to be honest with you. I mean, it had 
a point of view. It was well written. I think it made the--not 
necessarily do I agree with it, but I can't say anything 
surprised me.
    Mr. Frelinghuysen. A lot of people--I read it as 
provocative.
    Dr. Reis. We have been talking about this degree, you know, 
in some sense----
    Mr. Frelinghuysen. Just coincidentally you are here today.
    Dr. Reis. There is always something, isn't there?
    I didn't have anything to do with The New York Times.
    Mr. Frelinghuysen. I wasn't suggesting that, Dr. Reis.
    Dr. Reis. All right. But I do think it is important, and I 
think--as has been the tone of this hearing today, which I 
thought was very useful--is that these are extraordinarily 
important issues and ones that the public frequently is not 
aware. With the end of the Cold War and with the so-called 
threat of these things, you don't get the type of--the type of 
understanding across the board.
    If I could, you remember the discussions you had with 
Secretary Pena last week was, gee, this is important. We just 
don't hear enough about it. Now you have got a job to do to 
convince not just the Congress, but the public that this is 
very important.
    I mean, we are talking about a lot of money. These are very 
important issues, and frequently the public doesn't understand 
what they are. So, frankly, even though I didn't necessarily 
agree with all of The New York Times, I welcomed that because I 
do think it brings out the type of debate that I think it is 
very important that we have.
    And this isn't--you know, we have been at this stuff 
several years, and some people think we are putting too much 
money in, some people think we are not putting enough money in. 
But unless you recognize the importance of the issue itself, 
then I don't think you really can get at a full debate, and it 
is only with a full debate that you will feel comfortable and 
confident that you are putting the money in the right way; and 
that is the only way we will be able to convince you we are 
putting the money in the right way.
    So I really do look forward to that kind of a--those kinds 
of articles, and that is why I frankly spend time debating--or 
not debating, but even discussing with, you know, various 
outside groups, peace groups or whatever there is, just to 
ensure that we have the right type of debate. Because as I 
said, I can't think of anything that is more important, because 
we are really talking about the survival of the planet.

                       year 2000 computer problem

    Mr. Frelinghuysen. Thank you for your reaction.
    The year 2000 problem, you have probably more advanced 
computers in the DOE. Where do you stand relative to that 
situation and what sort of money are you spending to address 
it, specifically?
    Dr. Reis. Let me separate two things. One is the type of 
scientific computing that we are dealing with in terms ofthe 
Stockpile Stewardship Program, the things that we are dealing with in 
terms of--are not subject to the--there is no issue as far as the year 
2000 in terms of those kinds of computers. It is far more the business 
aspects.
    Now, those are very important, and I think we are--
certainly from a defense program perspective, I think we are 
now in good shape in terms of those but we can give you the 
details on that.
    Mr. Frelinghuysen. But to answer my question.
    Dr. Reis. In terms of how much money we are spending on it?
    Mr. Frelinghuysen. How much money have we spent? You are 
giving us a high level of assurance.
    Dr. Reis. Sure. We will get that for you.
    From my perspective, Mr. Frelinghuysen, I am just looking 
for the check that says these things are going to work and I 
will get back to you in terms of what it has taken to do that.
    [The information follows:]

                       Year 2000 Computer Problem

    It is estimated that Defense Programs will have spent by 
the end of FY 1998 approximately $12 million to address year 
2000 issues.

                               Landmines

    Mr. Frelinghuysen. This may not be in the same category. 
What is going on relative to work at DOE facilities, both 
defense and nondefense, on land mines? Could somebody give me a 
synopsis? I would like the specifics that relate to fundings 
for 1997, 1998 and 1999 DOD relationships.
    Dr. Reis. Let me----
    Mr. Frelinghuysen. Give me just a short, brief overview.
    Dr. Reis. Let me give you a highlight on that and let me 
get back to you on the details. We are doing a study right now 
with the Department of Defense. I met with General Ralston, who 
is concerned about that specific area, and we agreed we would 
work together with the Department of Defense on that to help 
put together a joint program in that area.
    We really just started that. I am sure there are individual 
areas as well.
    So that is one that we are, again, working with them on 
directly. General Gioconda from my office is working with 
General Campbell in his office on the Joint Staff to ensure 
ourselves that the Department of Defense gets full advantage of 
the technical ability of the DOE laboratories working that 
problem.
    So that is a very high priority for us, and we will get 
back to you, you know, in terms of the specifics in terms of 
where we are in dollars that would be spent.
    [The information follows:]

[Pages 446 - 448--The official Committee record contains additional material here.]


          laboratory directed research and development (ldrd)

    Mr. Frelinghuysen. Some remarkable work is being done at 
some of our national labs. It is true that 6 cents of every 
dollar goes to discretionary funding of the laboratory 
directors?
    Dr. Reis. That is correct.
    Mr. Frelinghuysen. Yes?
    Dr. Reis. Yes, the laboratory directors.
    Mr. Frelinghuysen. Yes, I would like to know what the 
specific amounts are and what, in fact--give me maybe one or 
two examples from a laboratory that these dollars are being 
spent on. I would like the specifics for all.
    Dr. Reis. Surely. We have a report.
    Mr. Frelinghuysen. There may be some exciting things 
occurring, but there is actually an annual report?
    Dr. Reis. There is a report. We have submitted that to 
Congress. Congress has been very--not just this committee, 
other committees, are concerned about that. We have put 
together an annual report which describes in detail where all 
the money goes and what those programs are.
    If you would like, I could mention one, for example, off 
the top of my head.
    Mr. Frelinghuysen. Maybe give me one and maybe give me--I 
want the specifics for each lab and what the specific overall 
amount is.
    Dr. Reis. All right.
    Mr. Frelinghuysen. What would 6 percent--or 6 cents of the 
overall amount be?
    Dr. Reis. Okay. If we can make that perhaps part of the 
record?
    [The information follows:]

          Laboratory Directed Research and Development Funding

    The total amount of funding for LDRD in FY 1997, FY 1998, 
and FY 1999 is provided on the following table. Note that for 
FY 1997 funds are actual amounts while those for FY 1998 and FY 
1999 are best estimates.

                              LDRD FUNDING                              
                        [In millions of dollars]                        
------------------------------------------------------------------------
                                     FY 1997      FY 1998      FY 1999  
                                      actual     estimated    estimated 
------------------------------------------------------------------------
Total LDRD funding (LANL, LLNL,                                         
 and SNL)........................        184.6        190.3        204.5
------------------------------------------------------------------------

          Laboratory Directed Research and Development Report

    A copy of the Fiscal Year 1997 Laboratory Directed Research 
and Development Report, dated February 1998, was provided to 
the Committee on January 30, 1998.

                                  ldrd

    Mr. Frelinghuysen. Give me one example.
    Dr. Reis. Let me give you one example of a program that is 
being done at--a very interesting program that comes out of 
LDRD at Lawrence Livermore, called the Perigrine Project. What 
it does is make use of the calculation ability of our ability 
to, if you will, follow how radiative particles go through soft 
tissue. In other words, when people are trying to diagnosis 
cancer of all sorts. And it uses the mathematical techniques 
and it uses the type of computers we now have available to us, 
but on a much smaller scale, to make much better diagnoses so 
that one can indeed--when one uses radiation therapy, one can 
put the radiation exactly in the right places.
    Mr. Frelinghuysen. I saw that when I was at the Livermore 
Lab, but in reality, these are discretionary.
    Dr. Reis. That is right.
    Mr. Frelinghuysen. But they fall under, you know, the 
nuclear stockpile umbrella.
    Dr. Reis. That is right. You wonder why?
    Mr. Frelinghuysen. While I think it is exciting and I am 
all for it--basic science, fundamental science, basic 
research--I am just wondering whether----
    Dr. Reis. The reason I mentioned that one is that a number 
of the mathematical techniques that we have had to use, it 
originally started from looking at the nuclear weapons program. 
We have been able to apply them to, if you will, radiation 
therapy. To really make that work properly, we have had to 
advance the technology of understanding where these particles 
go, which in turn feeds back to the calculations that we are 
doing in terms of maintaining the stockpile indefinitely.
    Another example, if I could just give you one more, also 
happens to be a Livermore one----
    Mr. Frelinghuysen. I don't mind your having to do some 
advertising. I think the work is important.
    Dr. Reis [continuing]. Is the idea of using laser cutting. 
Did you get a chance to--an opportunity to look at that?
    Mr. Frelinghuysen. Yes.
    Dr. Reis. Well, there is one where we had a specific----
    Mr. Frelinghuysen. You have got a whole lot more of them.
    Dr. Reis. Let me just take that one because that is a very 
specific example where we are able to cut through uranium, 
which is what we deal with in terms of the pits, and do it in 
such a way that there is no heat. The laser is so intense that 
it essentially takes it--cuts through atom by atom, and there 
is no heat, that gets transferred to the uranium material. So 
if you look at a cut, you cannot see where the cut from either 
side of the cut, it looks like real material.
    Well, it turns out now--again, we used that primarily for 
specific problems we are having in the stockpile when we have 
to cut these weapons open for surveillance. That developed out 
of one of these LDRD problems but it also turns out to be 
useful for, for example, dentistry. It is the same sort of a 
system you might want to----
    Mr. Frelinghuysen. We won't put anyone through any more of 
a drill here. I believe you.
    Dr. Reis. Okay. With that----
    Mr. Frelinghuysen. Thank you, Dr. Reis.
    Dr. Reis. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Knollenberg. Mr. Edwards.

                nonproliferation priorities and funding.

    Mr. Edwards. Mr. Chairman, thank you. And I will be brief.
    Ms. Gottemoeller, I would like to follow up on the 
Chairman's questions about focusing on where the priority 
problems in the area of nonproliferation are. Your answer was 
control materials and weapons at their source.
    Where in your fiscal year 1999 budget could I determine how 
much total funding is focused on what you said is the top 
priority? Does that cut across these budget categories or is it 
in one particular category?
    Ms. Gottemoeller. I think the answer, Mr. Edwards, is that 
it is primarily in the material protection, control and 
accounting budget.
    Mr. Edwards. Is that----
    Ms. Gottemoeller. In arms control overall.
    Mr. Edwards. And in that area, we went from about $234 
million to $256 million. That is an increase of about $22 
million?
    Ms. Gottemoeller. Yes, sir.
    Mr. Edwards. Which, on a percentage basis, is significant, 
somewhere in the range of 10 percent; but in terms of the--you 
know, if that is the number one priority in the area of 
protecting millions of American citizens against attacks by 
terrorists or rogue nations, I have got to wonder. You know, we 
will spend more money than that building part of a loop around 
Austin, Texas, in the next couple of years.
    Let me ask one final question. We focused a lot today on 
the priority that you have mentioned. Are you or is any other 
Federal agency going back and looking at the inventory control 
systems prior to these efforts you have made in material 
controls and accounting to determine what is already--what 
was--what left the barn before we shut the door?
    Ms. Gottemoeller. That, of course, has been a very, very 
difficult question all along, knowing what the baseline is 
overall, because we are dealing with areas and with 
facilitiesthat were the most secret facilities of the Cold War years, 
and it is really quite an amazing change that now these facilities are 
opening their doors to us, and that we can also now talk to the 
scientists and other specialists who have been involved in these 
programs.
    But I would say that we are still far, far from knowing 
exactly what the baseline was. How much the Russians produced 
in terms of weapons-usable materials overall, we have some 
estimates in that amount; how many warheads they produced 
overall, we have some estimates. But in terms of knowing 
exactly, there are significant questions.
    Mr. Edwards. Recognizing that inventory control is 
difficult after the fact, then based on the knowledge you have 
of what other agencies do, including DIA, CIA, are you 
confident we have a pretty extensive and effective on-ground 
intelligence system to be able to identify if there are certain 
identified, you know, rogues around the world or organized 
criminals that would deal in the sale of nuclear, chemical or 
biological weapons? That somehow our intelligence is good 
enough, we would pick up on this if they were actively trying 
to buy or sell weapons of mass destruction, based on your 
knowledge?
    Ms. Gottemoeller. Since the events of 1994, when you will 
recall--well, the attention of the world was caught, really, by 
the appearance of some weapons-usable nuclear material in the 
Munich airport, there has been a great deal of attention 
focused on this matter by the intelligence agencies around the 
world and by law enforcement organizations as well.
    So it has led to a partnership between law enforcement, 
customs agencies and so forth, with the Intelligence Community, 
to establish a better base of knowledge on this set of issues.
    I will not say, however, that it is a perfect system at the 
present time. But it is an area that has caught people's 
attention. There is no question about it.
    Mr. Edwards. Would that primarily, in the United States, be 
the responsibility of the CIA or the DOD?
    Ms. Gottemoeller. Well, for information that is developed 
on countries outside of U.S. borders, clearly, the CIA places 
the emphasis there. For domestic law enforcement and issues 
related to the territory of the United States, FBI and the 
other domestic agencies are involved.
    Mr. Edwards. Okay. Very good. Thank you.
    Mr. Chairman, thank you.

                       year 2000 computer problem

    Mr. Knollenberg. Thank you, Mr. Edwards. I just have a 
couple of quick questions in following up on Mr. 
Frelinghuysen's question about the computer year 2000 
situation. What I would like to focus on is Russia.
    What do you know about their being alert to and on top of 
this thing? Do we have any idea about that? Because if you 
wanted to create a scenario for a forthcoming fiction, I think 
you might start with perhaps something like that. Any thoughts?
    Ms. Gottemoeller. Mr. Chairman, this is a question I have 
not wrestled with in the past, so I will have to look into it 
and see if I can get you any information on that question.
    Mr. Knollenberg. Isn't that something we should be 
concerned about?
    Ms. Gottemoeller. I would think that around the world this 
has been a question.
    Mr. Knollenberg. Not just Russia?
    Ms. Gottemoeller. Not just in Russia, but all over the 
world. And because of the multinational character of 
corporations and so forth, I know that many corporate 
structures such as the banking industry have been quite focused 
on this. So I know that individual parts of the burgeoning 
Russian economy have quite likely been acutely focused on this.
    But I would like to do a little research and be able to 
provide you with a more detailed answer.
    [The information follows:]

             Russian Nuclear C2 Systems and the Y2K Problem

    [Deleted.]

                manufacturing by nuclear weapons states

    Mr. Knollenberg. Could you do that? I think that might be 
helpful for us.
    Also, do we know what countries are making--I know we are 
not, but what countries are actually making new nuclear 
weapons?
    Ms. Gottemoeller. As far as I know, of the five nuclear 
weapons states, four are still in the process of manufacturing 
nuclear weapons.
    Mr. Knollenberg. So we are the only one that does not?
    Ms. Gottemoeller. As far as I know, yes.
    Mr. Knollenberg. I am going to submit some additional 
questions, as I am sure the rest of the committee will. But we 
do appreciate your coming before us. This is very serious 
business, I know, and we appreciate the work that all of you do 
and the work that is being done by all of the folks in DOE and 
particularly the labs.
    We do have some concerns, the committee does, about the 
amount of funding that has been raised from $4 billion a year 
to $4.5 billion, and from $40 billion to $45 billion over 10 
years, and obviously we are going to ask a lot of questions, I 
think, in addition to the ones that we have asked today about, 
as we go along, as to how that money is spent.
    But we do want to thank both of you for coming before the 
committee. We appreciate your time. And it has been awhile, so 
thank you very much.
    This committee will adjourn until tomorrow at 2:00 p.m.
    Thank you very much.
    [The questions and answers for the record follow:]

[Pages 454 - 689--The official Committee record contains additional material here.]


                                         Wednesday, March 18, 1998.

                             NAVAL REACTORS

                                WITNESS

ADMIRAL FRANK L. BOWMAN, U.S. NAVY, DIRECTOR, NAVY NUCLEAR PROPULSION

                            Opening Remarks

    Mr. Knollenberg. The meeting will come to order. Chairman 
McDade is going to be here later this afternoon. In the 
interim, I will be presiding or one of my colleagues, probably 
Mr. Frelinghuysen. We welcome you this afternoon, Admiral.
    Pursuant to the vote of this committee on the 10th of March 
1998, today's hearing on the Department of Energy's Atomic 
Energy Defense Activities will be held in executive session. 
Admiral Bowman, can you verify that everyone in the room has 
the appropriate security clearance?
    Admiral Bowman. Yes, sir.
    Mr. Knollenberg. Thank you. For the members of the 
subcommittee, I would like to remind you that some of the 
information discussed today will be classified and should not 
be discussed outside of this room. Also, please do not remove 
anything from the hearing room that is classified.
    Then, one last reminder. I would ask that all cellular 
phones, two-way pagers and authorized--or unauthorized, rather, 
recording devices be turned off during the hearing. I assume 
that will be done. Thank you.
    With that in mind, then, Admiral, we look forward to your 
testimony and the entirety of your submission will be, of 
course, put in the record. I presume you will want to make an 
opening statement and refer to that and maybe make just some 
comments off the cuff. So the floor is yours. Thank you.

               Oral Statement of Admiral Frank L. Bowman

    Admiral Bowman. Mr. Chairman and members of the committee, 
as you know this is my first opportunity to testify before this 
committee. I thank you for inviting me to represent the 
dedicated men and women of this program.
    Mr. Chairman, to your point, I would appreciate it if my 
written statement could be made a part of the record.
    Mr. Knollenberg. So ordered.
    Admiral Bowman. I know and appreciate that this committee 
has historically been a very strong supporter of the Navy and 
of our Naval Nuclear Propulsion Program. On my watch as 
Director of the Naval Nuclear Propulsion Program, I intend to 
continue to earn your support through frank and open 
discussions and exchange of ideas.
    I think the record is very clear that our Navy's nuclear-
powered warships have made and continue to make a major 
contribution to the Nation's defense and are doing so without 
any harm to the environment.
    I would be grateful, Mr. Chairman, if the program's annual 
environmental safety and health performance records could also 
be included in the record as has been the tradition for almost 
30 years, starting with this first book of Environmental 
Monitoring and moving through the other performance records.
    Mr. Knollenberg. So ordered.
    [The information is included at the end of this hearing 
record.]

                      Statement of Admiral Bowman

    Admiral Bowman. Mr. Chairman, with your agreement, what I 
would like to do is use a few prepared poster boards to briefly 
explain the scope and the organization and the activities of 
the program and then to address any questions that the 
committee might have, and I have also prepared a few poster 
boards in anticipation of questions of interest to the 
committee.
    Mr. Knollenberg. Very good. These are those poster boards?
    Admiral Bowman. Yes, sir, they are.
    Rather than sitting at the table, if I could just stand 
over here and do this.

          INTEGRATED PROGRAM OF DEPARTMENTS OF ENERGY AND NAVY

    This first board attempts to summarize the underlying law 
that underwrites this program. The Naval Reactors' 
responsibilities for this program are extremely broad and 
colloquially we say cradle to grave, and it truly is that. The 
law was put into being in 1984 and has, indeed, undergirded 
this program since that time. It tasked me with research, 
development, design--the cradle part, all the way down to the 
burial part, the refueling and disposal, and including the 
operational parts of this.
    I think that this organizational construct brings an awful 
lot to the country, to the Navy, and to what we are trying to 
get accomplished; efficiency, and then a real sense of 
responsibility comes with this.
    This fellow who is shown here in one of our laboratories 
designing, developing something, knows that some day he might 
well get a phone call from someone who is using his design out 
in the fleet and has experienced some difficulty or has some 
question about it. That sense of responsibility pervades the 
operation and organization of this--of this operation, and I 
think it is a very important part of our business.
    [Chart 1.]

[Page 693--The official Committee record contains additional material here.]


                        NAVAL NUCLEAR PROPULSION

    In execution of that law that runs the gamut from design 
all the way through burial and disposal of spent fuel, the 
Naval Nuclear Propulsion Program is centrally controlled, here 
in Washington, with the Director of Naval Nuclear Propulsion, 
me, at the head of that. It is a very lean organization. It is 
composed of some of the most dedicated citizens of this country 
you will ever want to talk to, and it has been eminently 
successful for the 50 years of its operation.
    We run the gamut from our field offices that take care of 
the regulatory aspects and oversee the operations, the day-to-
day business of our organization in the field, two dedicated 
laboratories, one in Pittsburgh, one in Schenectady, New York; 
that is the Bettis Atomic Power Laboratory and Knolls Atomic 
Power Laboratory for the design and development aspect; and a 
specialized industrial base. And it is specialized, it is 
small, it is very lean today for procurement of our components 
to go on these important warships.
    The shipyards that put the ships together with the 
components, with the design engineering that came from 
thelaboratories, the training aspects and even before the training, my 
selection process that has me interviewing every officer who comes into 
this program and personally saying yes or no to his or her selection 
into the Program; and then, of course, the operating fleet, which today 
is comprised of some 95 warships that constitute about 40 percent of 
the Navy's major combatants in today's day and age.
    These 115 operating reactors that we oversee are more 
reactors than the commercial nuclear industry in this country 
at 105 reactors today. In fact, 115 operating reactors are more 
reactors than the next two largest users of nuclear energy in 
the world: France and Japan. It is a big job, but it has been 
done very successfully for these 50 years.
    [Chart 2.]

[Page 695--The official Committee record contains additional material here.]


               90,000 tons of diplomacy anytime, anywhere

    This is a little bit of an advertisement, and I do it 
without shame. CNN has been telling this story very well for 
us. Unfortunately, Saddam shows again and again that he doesn't 
quite understand. But most recently, the nuclear carrier 
NIMITZ, was scrambled from a Singapore port visit that never 
quite happened over into the Arabian Gulf to take care of the 
new contingency.
    This quotation is a recent quotation from President 
Clinton, but it could easily come from any one of the 
Presidents, especially since the end of the Cold War.
    I had the opportunity, and indeed the pleasure, of serving 
as the Director of Political Military Affairs for both General 
Colin Powell and General John Shalikashvili at the beginning of 
his term as the Chairman of the Joint Chiefs of Staff.
    In that role as the Director of Political Military Affairs 
of the Joint Staff, I represented the uniformed services in the 
White House in the Situation Room; more hours than I want to 
remember spent in that Situation Room, and more hours than I 
want to remember spent trying to field the current, the latest 
issue, crisis in the country. And it is true that the National 
Security Adviser, Sandy Berger, does ask this question: Where 
is the nearest carrier?
    Beyond where is the nearest carrier, the Unified Commander 
in the Pacific Fleet, Admiral Joe Prueher, says that it goes a 
little bit beyond that. He is recently on record as having said 
that in this large theater, this large AOR that he is 
responsible for in the Pacific, there is no more sought after 
asset than the nuclear carrier.
    Ninety thousand tons of diplomacy and 90,000 tons of 
sovereign territory, and we truly don't have to ask any other 
country's permission to use this asset as we deploy our 
military force.
    In this day and age, it is extremely important, and let me 
explain, if I may. In the Cold War, I think that both 
classified and more and more unclassified literature is coming 
to the fore that tells us the impact of the nuclear Navy during 
that Cold War period, during that eyeball-to-eyeball nuclear 
gridlock period with the Soviet Union.
    The Soviets apparently were absolutely convinced that 
behind every one of their submarines lay a U.S. submarine. 
Again, both in classified and in unclassified writings, we are 
finding that to be true.
    Furthermore, they knew without a shadow of a doubt that 
they could not find our strategic submarines. We don't have one 
instance of counterdetection of any of our Polaris, Poseidon or 
Trident strategic ballistic missile submarines throughout their 
history.
    On top of that, when the Navy's maritime strategy was 
changed in recognition that independently operating nuclear 
carrier battle groups could take the battle into the Barents 
Sea on this side of the world and into the Sea of Okhotsk on 
the other side, it actually caused, I believe, the Soviet Union 
to change their entire order of battle and their entire scheme 
for operating their Naval fleet.
    No longer did we hear about the Soviet Union coming down 
into the Atlantic or into the Pacific but, rather out of fear 
for protection of the motherland of Russia, the Soviet Union 
decided to retrench, and the Bastion defense, the layered 
defense of the homeland came into being.
    I think that was absolutely instrumental in the ultimate 
outcome of the Cold War. I think that that ability to influence 
events continues today. This is an era of instability, as the 
board says; an awful lot of entanglement, even more enmeshment 
of our country and our people in the world events than back in 
the Cold War days.
    [Chart 3.]


[Page 698--The official Committee record contains additional material here.]



           crucial to nation's defense and military presence

    A couple of statistics. This says fewer bases and uncertain 
world politics. We built 172 air bases after World War II and 
up to today. Only twenty-four of those today we still have 
access to. So the country is, indeed, dependent on the Navy to 
carry the flag, both for the forward presence, the painting of 
the orphanages that didn't use to be a part of our bag of 
tricks, but is very, very important today, all the way up to 
what the USS NIMITZ had to do just in the month of January, 
flexing muscle and showing resolve.
    We are the ones who were there, and I think Admiral Jay 
Johnson, the Chief of Naval Operations' new bumper sticker, 
``Anytime, Anywhere,'' is right on the mark. And this nuclear 
power that we are going to talk about today I would argue is 
what allows this much smaller Navy--remember, we were about 600 
ships at one time. We are now at 347 ships to date--allows this 
smaller Navy to stretch to do what needs to be done in this 
more entangled world.
    The work force of this nuclear fleet are these three 
categories of ships. We have 8 of 12 nuclear carriers with two 
more being constructed at Newport News today. All 66 of the 
United States attack submarines, of course, arenuclear-powered, 
and all 18 strategic missile submarines are nuclear-powered. These 
ships are being called on every day, all day, 24 hours a day, 7 days a 
week. That's what we do.
    This is the Navy of today.
    Naval Reactors must continue our unblemished record. Can 
you imagine for just a minute a Three Mile Island or a 
Chernobyl occurring on one of these nuclear ships? If the Navy 
is 40 percent dependent on this capability and with the major 
ships of our dependency being nuclear powered, imagine the 
outfall of that. We must continue this unblemished record and 
we intend to do so.
    [Chart 4.]

[Page 700--The official Committee record contains additional material here.]


                  fifty years of unparalleled success

    This summer, Mr. Chairman, will mark the 50th anniversary 
of Naval Reactors. I believe that the record and, indeed, the 
very open records of accomplishments of this program speak for 
themselves. One hundred thirteen million miles of safe steaming 
in the ocean, 4,900 reactor years, let me put that in 
perspective for just a minute. Four thousand nine hundred 
reactor years almost equals the rest of the world's experience 
if you take away the Soviet Navy's operating reactor 
experience.
    Specifically, the rest of the commercial world, exclusive 
of the United States, has generated 5,800 reactor years and in 
this country about 2,700 reactor years. So this is about half 
of the operating experience of the nuclear industry in this 
entire world, exclusive of the Soviet Navy situation.
    We have, indeed, been a leader in environmental 
performance. Some of the ideas that Admiral Rickover had back 
at day one are certainly seeing us through to good end today.
    We are open. You allowed me to read into the record these 
four reports, Mr. Chairman, and I commented that one of them 
has been in existence for over 30 years, since 1966, in fact. 
This is a report of the environmental monitoring effects of all 
our nuclear-powered ships and bases and the entire program on 
the entire environment around the world.
    The other three books address other aspects of our 
environmental safety and health program, and I believe it is 
very open.
    I also like to think of our congressional ship visits as 
being an important part of this openness, and once again extend 
to you the option to come any time; we will go find a submarine 
or an aircraft carrier to show off.
    A recent accelerated part of our business--I felt that it 
was very important, when I took over the reins at Naval 
Reactors, for us to emphasize the cooperation with State and 
other Federal level regulators and interfaces that we have in 
the local communities. And we are doing that. We are inviting, 
for example, the EPA and the State regulators in for a cup of 
coffee; come on in, let me show you what we do, what we are 
about. Here are these open books. I would like for you to know 
what is taking place in your backyard.
    All of that sounds good, but I would end on this one note 
that puts a little chill back into me, and that is that this is 
very unforgiving technology we deal with. Chernobyl and Three 
Miles Island are just examples. The Soviets can tell us some 
other examples of how you have to keep your eye on this ball or 
suffer the consequences.
    This unforgiving technology has required and will continue 
to require constant work. This work is underwritten--honestly, 
and I have used this twice and I apologize--undergirded by the 
R&D work that this committee supports. That's the name of the 
game for us. And our continued success that is so important to 
the Nation's security from the previous board is absolutely 
dependent on ongoing and continual congressional support.
    [Chart 5.]

[Page 702--The official Committee record contains additional material here.]


          primary job is to support plants in operating ships

    Our primary job with 115 operating reactors and 95 ships in 
the ocean is to maintain the safe operation of those operating 
plants, and that is where the vast amount of our resources, 
both human and monetary, are poured. It requires this continual 
testing and analysis and monitoring and R&D and an iterative 
process that goes through the R&D and back to analysis and 
testing.
    One of the very important successes of this R&D feedback, 
analysis, testing, more R&D has been the extension of the 
lifetime of these reactor cores. When Nautilus, the first 
nuclear-powered ship, hit the water, that reactor core was good 
for 2 years. Today, we are designing a reactor core for the new 
attack submarine that will last the life of the ship. That is 
important--leaps ahead both for the environment, for 
operational reasons to keep those ships on station, and for a 
number of other reasons having to do with money.
    It falls to us to stay on top of replacing the equipment as 
it becomes obsolete, to stay at the edge of the envelope. This 
R&D that we work on today, that sometimes has to do with 
problems that are generated in the fleet, those telephone calls 
I talked about in this area, the first poster board, back to 
the labs, back to my headquarters, sometime that generates 
research and development. How can we make a better mousetrap?
    Sometimes one of our great people just wakes up with a 
better idea and says, let me go start churning this around and 
see what we can come up with.
    But that R&D is absolutely crucial, both for today's 
operating ships and for tomorrow's improvements.
    [Chart 6.]

[Page 704--The official Committee record contains additional material here.]


                  a tightly controlled budget request

    And finally, this is what our budget looks like. We are 
about 4 percent of the DOE budget and we are less than 1 
percent of the total defense budget of the country. And I think 
the returns say that that is pretty good leverage, in terms of 
the Nation's security and what this program brings to the 
country.
    Over the period of time since really the end of the ColdWar 
to today, the Naval Reactors budget in constant dollars has fallen 30 
percent. We have done that through the old hard-core downsizing of the 
laboratories and that certainly has happened; the laboratories have 
been reduced by about 30 percent, person for person, but we have also 
shut down six of our eight land-based R&D and training prototype 
reactor plants.
    We, unfortunately, also shut down two of our shipyards 
along the way. I say unfortunately because some awfully good 
people went away with those decisions, but it was an 
unfortunate necessity and fact of life of today. Overall, a 30 
percent reduction over this period.
    [Chart 7.]

[Page 706--The official Committee record contains additional material here.]


                               Conclusion

    Admiral Bowman. Mr. Chairman, subject to your questions, 
that concludes my opening comments.
    [The prepared statement of Admiral Bowman follows:]

[Pages 708 - 720--The official Committee record contains additional material here.]


                            recess for vote

    Mr. Knollenberg. Admiral, you are right on target. You 
finished just at the right moment because we have a vote on 
right now. I thought it would be most appropriate if we would 
recess for just a handful of minutes, vote, come back and then 
we will commence with questioning. We very much appreciate the 
testimony, and we will get into that just as soon as we get 
back from our vote. So we will be in recess, then, for just a 
short time. Thank you.
    Admiral Bowman. I promise to be here.
    [Recess.]

                     russian submarine development

    Mr. Knollenberg. The committee will come to order, and we 
will resume from where we left off. Again, Admiral, thank you 
very much for the testimony. We appreciate very much what you 
do and what your people do and what the military does and 
certainly the Navy, and your reach in terms of the spectrum of 
activity and supervision that you have.
    I want to talk maybe not so much about the U.S. situation 
first, but I will get into that, but first let's talk a little 
bit about a concern that I have, this committee has, regarding 
Russia. You know, only a decade ago, the Soviet arsenal hit its 
peak, and they were talking then about, I think, it was a 
Typhoon was the ballistic missile submarine, which I guess 
never really materialized to any great point. But in any event, 
that whole thing changed when the United States, through the 
efforts of the Navy and the strength of the Navy, among other 
branches of the service, did rise to challenge the Russians, 
the USSR, and a whole lot of things stopped.
    They tell me that of 62 strategic submarines deployed by 
the Soviet Union in the 1990s, the Russian Navy currently has 
only 28, and by some reports as few as [deleted] are 
operational, and at the peak of the Cold War tensions between 
20 and 22 submarines, Russian submarines, were at sea. Today, 
there are usually [deleted] I have been told, and they do not 
go far. I believe, as you mentioned in your commentary, I 
think, they stay pretty close to the mother country.
    I think so far some [deleted] submarines have been retired 
officially or unofficially are in line to be retired. I think 
the credit, again, for all this coming into play or happening, 
the credit should go to the U.S. Navy and to the armed forces 
branches. This fact was pointed out in a recent article in the 
Washington Post that you may have been privy to and may have 
seen, I think it occurred over the weekend, the buildup of our 
forces did bring an end to the Cold War, brought the Soviet 
Union to its knees. And certainly I am a strong supporter for 
maintaining a strong defense and our world superiority.
    However, with tighter budgets in recent years, the 
military, like the rest of the Federal Government, has been 
forced to prioritize their programs. While we maintain our 
world superiority, and I hope that we do maintain our 
superiority, how does the decline of the Russian submarine 
force play into the U.S. Navy's plans?
    Admiral Bowman. Mr. Chairman, that is a very good question. 
[Deleted.]
    Mr. Knollenberg. [Deleted.]
    Admiral Bowman. [Deleted.]
    Mr. Knollenberg. Does that compare at all with the NIMITZ 
category?
    Admiral Bowman. The SEVERODVINSK is a submarine which would 
be their response to our improved 688 class submarine. It is 
about at that level. Certainly, our SEAWOLF, and without 
question our next generation, our New Attack Submarines are 
better submarines.
    Mr. Knollenberg. I didn't mean to say the--what did I say?
    Admiral Bowman. I think you meant New Attack Submarine, 
yes.
    Mr. Knollenberg. Yes, the attack submarine is what I meant 
to say.
    Admiral Bowman. Yes, sir. But it would be their response 
really to trying to close the gap between the AKULA II and our 
improved 688's. So we are still a generation or two ahead of 
the Russians.
    [Deleted.]
    On the operational side, what we saw this last year was 
indeed a slow down. You might remember just a year ago, I 
believe it was, and it might--I believe a year ago, summer--
1996 summer, we had a very firm indication and then the press 
picked up the fact that the Russians had deployed a submarine, 
an AKULA, the best that they have, just off Kings Bay, Georgia. 
You remember that series of articles that followed?
    Mr. Knollenberg. Uh-huh.
    Admiral Bowman. That did happen. That same year there were 
a couple of our carrier battle groups that were shadowed by 
other Russian submarines. [Deleted.]
    Now, the year before it was Kings Bay Trident base. 
[Deleted.]
    So they are still out there. They have slowed down. You are 
absolutely right in your premise, they have slowed.
    [Chart 8].

[Page 723--The official Committee record contains additional material here.]


                       worldwide submarine forces

    Mr. Knollenberg. But you are not going to rest on that 
because you are concerned that they still have the capability 
to start up at any time if they should choose to, to extend or 
promote that in some other way, with more of those----
    Admiral Bowman. I am absolutely concerned about that. And 
if I could address one other thing, please, sir, there is 
another piece of this.
    The New Attack Submarine today was not necessarily and is 
not necessarily being developed against a specific threat. We 
are no longer in this--we are no longer in this numbers game 
that we were in the Cold War. The New Attack Submarine today 
brings to the table capability that our unified Commanders need 
in their theaters for multimission execution of military 
responsibilities.
    Several studies have been conducted that show, as recently 
as last summer, a study that shows that we really need about 72 
attack submarines to make do with the post Cold War peacetime 
presence requirements. So the New Attack Submarine needs to be 
delivered to bring capability to the country, and irrespective 
of Soviet--I keep saying Soviet. I apologize. Irrespective of 
Russian deployments or construction.
    I am going to show you something while you are making your 
next question here just very quickly.
    What this was intended to do was give you a few numbers in 
this regard about what is going on in the rest of the world, 
submarine world, submarine business.
    It says 445 submarines operated by 42 other nations and 
here are some headlines from----
    Mr. Knollenberg. Admiral, if I might, is there a way--that 
we could have some smaller copy of that? I can't see much from 
here. I am not sure the committee can.
    Admiral Bowman. You bet. This big one says 445 submarines 
operated by 42 other nations. And then there are just some 
headlines here from some of the stories that I just recounted 
about the Russian deployments and what is going on.
    The committee might be interested in knowing that there are 
four other countries, other than the United States, that 
operate nuclear submarines today. About 90 of those 445 are 
nuclear submarines. That includes Russia, China, France and the 
UK.
    Mr. Knollenberg. How about Iran and Iraq?
    Admiral Bowman. Iran has diesel submarines, KILO class 
submarines that have been bought from Russia. A new wrinkle in 
that--again, this is recent information from the Office of 
Naval Intelligence, says that where the Russians were only 
exporting an exportable version of the KILO, they began this 
last year with the first sale to China to sell their very top 
of the line KILO class. That is a KILO class submarine that 
includes all the quieting and all the capability that the 
Russians would use if they were operating that KILO class for 
themselves. That's a new turn and it is an important one.
    Mr. Knollenberg. That would be sold perhaps to whom?
    Admiral Bowman. KILOs have been sold--I would have to--if 
you will let me take that for the record--for sure to Iran, 
three of them to Iran; to India, to China and I would have to 
provide for the record the other countries.
    Mr. Knollenberg. And those were the countries I was 
concerned about, too, in terms of their nuclear capability.
    Admiral Bowman. Yes sir. [Deleted].

                     types of submarine propulsion

    Mr. Knollenberg. Let me turn now to a question about the 
types of propulsion, nuclear versus alternatives. And it is my 
understanding that there are several types of propulsion 
systems, from the smaller ships all the way up to the carriers.
    Can you give us some indication, give the committee some 
indication, of the various types of propulsion systems and the 
pros and cons briefly? I know that is a tough order, but very 
quickly and maybe in terms of how that connects to the 
preference for one or the other in certain battle conditions? 
Could you maybe move in from the types and then into what would 
be preferential, perhaps, for battle conditions?
    Admiral Bowman. Yes, sir. I hope I don't put anyone to 
sleep here.
    Mr. Knollenberg. You can be brief.
    Admiral Bowman. Yes sir.
    Mr. Knollenberg. Just give us some quick, if you can, read 
on that.
    Admiral Bowman. On the submarine side, there are 
twofundamental types of propulsion for submarines. There is nuclear 
propulsion, which makes a true submarine, and then there is diesel 
power or battery-powered submarines.
    The diesel submarines today use a combination of electric 
power that is stored in batteries and carried on board, and a 
diesel generator that generates electricity to drive the ship 
service requirements, the lights, the combat control systems, 
as well as the motors that push the submarine through the 
water, while on or near the surface.
    So there are diesel submarines, colloquially called diesel, 
even though they are battery powered when they are not on the 
diesel, and the nuclear submarines. In the diesel submarine 
area, new technology is pushing toward investigations to extend 
the underwater endurance of those diesel submarines. Today's 
diesel electric battery powered submarine can stay underwater 
for about 7 days, 9 days at a time. Those are rough numbers. 
There are new kinds of systems that sometimes involve storage 
of hydrogen and oxygen, not a very nice thing to think about 
storing together on a submarine or even in this room, but much 
less on a submarine, that would extend that underwater 
endurance all the way up to 17 days of operation.
    In fact, there was a recent, ``Eureka, we have made a major 
breakthrough with this air-independent propulsion.'' It is call 
AIP, you see it in the newspaper, that got the diesel 
submarines, the battery-powered submarines, all the way up to 
17 days.
    For us, for the United States, with our global interests 
and with our broad range of responsibilities, that is not very 
interesting, very honestly.
    Now, for Iran or for Singapore, if you are a small island 
nation, if you sit astride a choke point, a natural 
geographical choke point in the world, those kinds of 
submarines can be a formidable problem for us. So they are out 
there.
    Those are the two propulsion systems for submarines.

                      aircraft carrier propulsion

    Mr. Knollenberg. Can we move into the aircraft carriers on 
that?
    Admiral Bowman. Yes, sir. On the aircraft carrier side, 
there really are fundamentally in existence today nuclear power 
and then fossil fueled steam power. Nuclear power also uses 
steam to turn the turbines that turn the screw that makes the 
thing go through the water. So the real difference is the heat 
source, the thing that generates the heat.
    On the conventional powered carriers, it is oil. On the 
nuclear-powered carriers, it is nuclear power. It's uranium 
that is fissioning that causes the heat. From there on back it 
is essentially the same kind of vehicle. Some people are 
investigating the possibility of sizing up gas turbine 
generators to be able to power a large aircraft carrier. That 
has not been done before and especially with the military 
ruggedness that is required for these aircraft carriers.
    To compare very quickly, and this will not do it justice, 
but very quickly to compare in my view the operational 
advantages and disadvantages, as I said on that one chart 
earlier, nuclear power allows, with this small Navy that we 
have today, allows the carriers in this case that we can afford 
to operate like the carriers that we need. Now, that sounds 
like a catchy bumper sticker, but let me explain just a minute.
    What I mean by that is that all of these studies that have 
been conducted in the Navy say that we--not just in the Navy, 
but independent studies, say that the country can certainly use 
today 15 carriers. Instead, we have 12. We can afford 12. As a 
result, we are operating these carriers today on what is called 
a tether, a tethered operational method.
    The carrier that belongs to the Mediterranean that would be 
doing service off Bosnia is also a carrier that might be called 
on to go to the Arabian Gulf. How recently has that happened? 
How long ago did that happen? Last month, the GEORGE WASHINGTON 
nuclear carrier was forced to leave Bosnia, leave the 
Mediterranean and get down as quickly as possible to join the 
NIMITZ battle group in the Arabian Gulf because of the Saddam 
thing.
    Likewise, there is a tether attached to the carrier that is 
deployed to the western Pacific and the Indian Ocean. That 
carrier is shared, robbing Peter to pay Paul, again, between 
the western Pacific and the Arabian Gulf. When did that last 
happen? In January, when the NIMITZ was scampered over to take 
care of the Saddam situation.
    What nuclear power allows is, with its endurance and with 
its lack of dependency on a logistics train, is it allows those 
nuclear carriers to scamper about and be shared like that. So I 
think that that is one primary advantage.

                   reliability of nuclear propulsion

    Mr. Knollenberg. What about reliability, the factor of 
reliability in comparing nuclear with the other?
    Admiral Bowman. Without any hesitation, the reliability of 
the nuclear plant is head and shoulders above the reliability 
of conventional plants from anecdotal information that I have 
received from operators.
    I brought with me at the urging of Mr. McDade a real 
operator. He is sitting on the second row here. If you would 
like to hear from him, I don't know how much time you want to 
devote to this issue.
    Mr. Knollenberg. At some point we may want to get back to 
hear his commentary. At this point, we will move ahead, but we 
would like to, obviously, hear from him.
    And I am going to wrap up here in just a minute because 
there is going to be some moving about up here. I am going to 
shift briefly and turn the Chair over to another individual. 
But I will conclude my questions for now and I believe we can 
turn to the ranking member, Mr. Vic Fazio, who I am sure has 
some questions.
    Mr. Fazio.
    Mr. Fazio. Thank you, Mr. Chairman. I have got to be 
somewhere in about 15 minutes, but I thought I would yield my 
time to Mr. Visclosky at this point, who I know had the real 
interest in having, although I think it was shared by others, 
this hearing, and who I think has some specific issues. I would 
like to hear the interplay between the Admiral and Mr. 
Visclosky.
    Mr. Visclosky. I appreciate the gentleman yielding.
    Mr. Chairman, I have a prepared opening statement. If I 
could have that entered into the record I would appreciate that 
very much.
    [The information follows:]

                           Opening Statement

    As the Subcommittee may be aware, I also serve on the 
National Security Subcommittee, where I have heard testimony 
from a number of Navy officials over the last several years 
about several of their most critical shipbuilding programs, 
including the New Attack Submarine and the next-generation 
aircraft carrier, known as the CVX.
    My ultimate goal in serving on these two subcommittees is 
to help provide proper congressional oversight of Naval 
Reactors. The Congress should be closely monitoring the design 
and development activities that are occurring at Naval Reactors 
because these activities ultimately have serious consequences 
for the costs and capabilities of Navy warships that are 
eventually procured with funds appropriated by the National 
Security Subcommittee.

    Mr. Frelinghuysen [presiding]. Consider it done.

     impact of ship propulsion type on aircraft carrier operations

    Mr. Visclosky. Admiral, I do have a number of very specific 
questions, but just following up for a moment on the chairman's 
line of questioning about the fossil fuel and nuclear carriers. 
In the Persian Gulf, my understanding is there were six 
carriers during the Gulf War. Am I correct in that, do you 
know?
    Admiral Bowman. I believe that's correct.
    Mr. Visclosky. Do you know how many of those were fossil 
fuel and how many of those were nuclear?
    Admiral Bowman. I think all but one were fossil fuel at 
that time.
    Mr. Visclosky. Were there any serious comments or 
complaints that you know of as far as their effectiveness 
because they were fossil fuel?
    Admiral Bowman. Under those circumstances, there were no 
problems. Those carriers and the crews aboard performed in 
perfect fashion, recognizing that the spin up to that war 
allowed some 6 months to develop the logistics train, to 
develop the oil, necessary refuelers and so forth.
    Mr. Visclosky. I appreciate that. And I appreciate the fact 
that speed may be of the essence, flexibility may be of the 
essence, as far as carriers' mobility.
    When carriers are at sea, are they by themselves?
    Admiral Bowman. Carriers are sometimes by themselves and 
especially----
    Mr. Visclosky. Are they often by themselves?
    Admiral Bowman. Could I yield that question to my expert 
witness?
    Mr. Visclosky. Sure.
    Admiral Bowman. Let me introduce, if I may, please, Admiral 
John Natham. Admiral Natham has just returned from being the 
battle group commander, the admiral in charge of that NIMITZ 
battle group, that just made that scamper from Singapore into 
the Persian Gulf.
    Admiral Natham, you can help me.
    I would be glad, Mr. Visclosky, to give you my considered 
views, but I think an aviator--I am a submariner. I have 
spent----
    Mr. Visclosky. I would rather talk to you, to be honest 
with you, about reactors but again, just to keep the flow of 
the questioning consistent, if I could finish the line that 
would be great. Admiral.
    Admiral Nathman. All right, sir. Maybe I can talk to you 
about some recent experiences that we had in the Persian Gulf.
    Mr. Visclosky. My interest specifically here is----
    Admiral Nathman. Traveling alone?
    Mr. Visclosky [continuing]. The concern about refueling, 
and if you are nuclear you don't have to worry about that, you 
don't have to get the oil up in advance. I would like to know 
the period of time when nuclear carriers, conventional 
carriers, if you would, diesel powered, are by themselves. My 
understanding is the majority of the time, at least more than 
half the time, they are in a carrier group.
    Admiral Nathman. Yes, sir. I think that's--yes.
    Mr. Visclosky. And the ships with them. Are those ships 
with them, are they nuclear-powered or are they powered by 
diesel fuel?
    Admiral Nathman. Sir, most of them are conventionally 
powered. Most of them are now gas turbine in terms of their 
power. In the battle group that we were in, the cruisers are 
gas turbine. The AOE was steam-powered or fossil fuel powered.
    Mr. Visclosky. So those escort vessels and the other 
vessels in that group would have, from time to time, whether it 
be a combat or peacetime situation, be refueled?
    Admiral Nathman. Yes, sir.
    Mr. Visclosky. So there would be ships available to do that 
and they would be available for the carriers as well?
    Admiral Nathman. Yes, sir.

                    naval reactors funding situation

    Mr. Visclosky. Okay. Thank you very much.
    Admiral Bowman, if I could get back to you. You had 
mentioned that your budget has gone down in the last couple of 
years. Are you experiencing any funding constraints that are 
causing problems in carrying out your basic mission that we 
should be concerned about?
    Admiral Bowman. Thank you for asking that.
    The budget request fully supports my technological 
requirements for 1999, the budget that is here before us today.
    The budget request that is here before us today does not 
represent the optimum program for my remediation and 
inactivation program that is going on at three of our prototype 
sites that--remember earlier, I stated that we had 
decommissioned or inactivated six of the eight. The money that 
is requested today does not allow for the optimum execution of 
that inactivation or remediation program at those prototype 
sites.
    It is off by about 20 percent of the optimum amount needed, 
or $16 million.
    Mr. Visclosky. And, Admiral, if you could share that 
precise figure for the record with us I would appreciate 
knowing that if there is a shortfall, I think it would be 
beneficial to know that.
    Admiral Bowman. Yes, sir. It is $16 million, yes.

           distribution of naval reactors development funding

    Mr. Visclosky. Admiral, the next question I would have is 
as far as the expenditure of your monies. Could you, in a 
general sense today address this, and then for the record with 
some specificity, the percentage of the funds that are 
appropriated to contractors, to government laboratories and 
then to government employees themselves?
    Admiral Bowman. Yes, sir.
    Mr. Visclosky. Again, I would be looking for a general 
response today and then more specificity, if you could.
    Admiral Bowman. And I will certainly provide that 
specificity for the record.
    If I use, Mr. Visclosky, the budget request that is before 
us today, the $665.5 million request, about 90 percent of that, 
or $500 million--I am sorry, $600 million would goto the 
laboratories. Of that 90 percent, of that $600 million, about 40 
percent of it would go to our subcontractors who are engaged in the 
research and development activities that are assigned to the Department 
of Energy responsibilities.
    Back to the $665 million, about 8 percent of the $665 
million total request goes to operate the advanced test reactor 
in Idaho. That test reactor, it is very important to our 
business in the research and development side of our work.
    It provides in-pile, in-core, in-reactor core, radiation 
measurements and testing of materials, both fuel and structural 
material.
    So about 8 percent of that $665 million, $50 million goes 
to that. About 3 percent, and I realize that I am now at 101 
percent--about 3 percent goes to the salary side of our 
business. So 3 percent of the $665 million, or roughly $20 
million of the $665 million, would go to the pay, benefits, 
salaries of our employees, scattered around that first chart 
that I had. That adds to $670 million and it adds up to 101 
percent, but rough numbers.
    [The information follows:]

            Recipients of Naval Reactors Development Funding

    The Naval Reactors Development budget breaks down into 
seven functional areas: Reactor Technology and Analysis, 
Materials Development and Verification, Plant Technology, 
Evaluation & Servicing, Facilities Operations, Construction, 
and Program Direction. The vast bulk, about 90% of these funds, 
go to the Bettis and Knolls Laboratories, which are government-
owned, contractor-operated facilities. They are currently 
operated by CBS, Inc., and Lockheed-Martin, respectively. A 
small amount, around 8%, goes to the Advanced Test Reactor 
Facility at the Idaho National Engineering and Environmental 
Laboratory to carry out a key materials effort, irradiations 
testing. The remaining amount of 3% goes for salaries of Naval 
Reactors' 214 DOE employees.
    Of the operating funds going to the laboratories, about 40% 
on average goes to subcontractors. Of this subcontracted 
effort, about 25% goes to inactivation and remediation, 20% to 
infrastructure related to the laboratories, for example, 
utilities, repairs, supplies and services, 10% to materials 
evaluations, 10% to general reactor technology, 10% to reactor 
plant arrangements, 8% to instrumentation and control 
development, 6% to next generation reactor core and mechanism 
development, 4% to steam generator work, 4% to prototype plant 
operations, and 2% to spent core examinations.
    In addition, the laboratories subcontract the vast majority 
of the Facilities Operations and Construction funds, which are 
for equipment and facilities at the laboratories. This 
increases the overall subcontracted percentage on average to 
about 50%.

          status of nuclear industrial and technological base

    Mr. Visclosky. Admiral, I am very concerned also about the 
technological base and the industrial base as far as the 
support of Naval reactors. What is the situation as far as the 
industrial and technological base from your perspective? 
Clearly, we have many fewer submarines coming on-line. 
Obviously, it is an open question, which may not be open as far 
as carriers in the future. What does the industrial base look 
like from your perspective?
    Admiral Bowman. Thank you for being concerned about it. I 
am, too.
    The current industrial base workload is as low a workload 
as it has been since the early, early days of the Naval Nuclear 
Propulsion Program. We have worked very hard in this program to 
reengineer and to work with those subcontractors and those 
vendors to ensure that they can support the program.
    As an aside, if I may, one of the things I did in my first 
year in this job, Mr. Visclosky, was travel around to these 
various single source, in most cases, suppliers and make an 
effort to talk to the people, talk to the blue collar workers 
primarily, and tell them the story that I tried to tell very 
quickly here before the committee earlier today, and that is 
the importance of their lives and work in the country's defense 
and security.
    I would typically begin these sessions by saying, if your 
job is to measure the ``framits'' everyday, it is difficult for 
you to realize how important this really has been. And I think 
we have a solid core of people out there who understand the 
importance of the program.
    We are today holding on and can maintain that very crucial, 
very critical industrial base, with about one submarine ship 
set per year. That is about the break-even point, or I should 
say the break point. And we believe that we have that. 
Specifically, we have five of these submarine ship sets in the 
program of record over the next 6 years, a little less than the 
one per year that I would like to have, but I think that it is 
holding us there and it has also put us in a reasonable 
position to be able to increase that workload if such a need 
arises; that is, to increase the number of submarines or, as 
you said, the potential carrier requirements.
    Mr. Visclosky. Any subsets as far as critical suppliers 
that may be in some danger here? Or with one set a year, we 
will be able to maintain the base that you do need?
    Admiral Bowman. Sir, I believe that one set a year will 
maintain that base. We are, indeed, down to single source 
suppliers in a number of these very critical areas, but to my 
knowledge none of them are having difficulty making ends meet 
today.
    Mr. Visclosky. As long as we can maintain consistency as 
far as that workload?
    Admiral Bowman. Yes, sir, that is very important, the 
consistency.

                impact of cvx program on industrial base

    Mr. Visclosky. How does the CVX figure into the industrial 
base, if I could ask? Because you specifically talk about 
submarine subsets and that clearly is a question for the 
future. How does that play into the industrial base?
    Admiral Bowman. Well, it would be a very important adjunct 
to the underlying foundation for the industrial base. That is 
to say, we could share overhead costs. We could share 
infrastructure costs across a broader number of components and 
a broader base.
    We are not dependent on it. The industrial base, as I said, 
is dependent on about one submarine set a year. Any CVX work 
that would come the nuclear way would just make matters easier.
    Mr. Visclosky. Mr. Chairman, if you would indulge me, if I 
could develop one other line of questioning, then I would yield 
for a second round if that would be possible.
    Mr. McDade [presiding]. Mr. Visclosky, you continue with 
your questioning and if we need to shift over to someone else 
to convenience a Member, we will let you know, but you are 
doing a fine job and you continue your questioning, please.

                      cvx propulsion plant studies

    Mr. Visclosky. Admiral, we had talked earlier in the office 
about the propulsion plant for the CVX, and I had expressed to 
you at that time a concern about the analysis of alternatives 
being prejudiced before a final decision is made as to the 
power plant that would be in a new generation of aircraft 
carriers.
    The question I have is, where are you today at the Office 
of Naval Reactors in developing or designing a nuclear 
propulsion plant for the CVX, and how these activities relate 
to the analysis of alternatives currently under way for the 
CVX? And do you think the activities prejudice or bias the 
outcome of the analysis?
    Admiral Bowman. Mr. Visclosky, the Office of Naval Reactors 
is an active participant in the ongoing analysis of 
alternatives. Specifically, we are developing conceptually, 
that is conducting conceptual studies and scoping studies, for 
a large, a medium and a small carrier.
    We are focusing on the large carrier; that is to say, the 
100,000-ton variant of the three studies that were initiated. 
We are responsible--I personally am responsible for providing 
to the Secretary of Defense and the Secretary of the Navy my 
very best considered opinion of what is possible, what can be 
done.
    To do that, and to do that with honesty and integrity and 
not promise the world when it is a back of the envelope kind of 
calculation requires some degree of fidelity. So the scoping 
studies are, indeed, evaluating and, as I said, focusing on the 
large carrier, focusing on the 100,000 ton carrier, to ask the 
questions at least at the conceptual level, questions such as 
can we field a life of the ship core for this 50-year carrier 
of the future? That would be another huge step. You may recall 
that the one chart said 30 years.
    Mr. Visclosky. Thirty years.
    Admiral Bowman. Yes, sir. We would be talking about a 50-
year reactor core. I better not, and I will not, say to the 
Secretary of Defense that we think we can do that or that we 
will do that unless I have something to back it up. I worry 
that any hand signal might be interpreted wrong and might even 
sway the cost analysis without having some firm foundation to 
back it up.
    So there is some degree of fidelity involved in this. There 
is no design, there is no design--no detailed design, I should 
say. There is nothing beyond these kinds of studies. There is 
nothing that Naval Reactors is doing that would in any shape, 
form or fashion limit the Chief of Naval Operations options for 
mission capabilities, size, shape or any of the other important 
factors that he has to consider.
    Mr. Visclosky. And the office is not engaged in any 
detailed design?
    Admiral Bowman. There is no detailed design going on for 
the CVX.
    Mr. Visclosky. So it would be your position that the 
Department would still have an option to choose, if they would, 
a fossil fuel-powered carrier?
    Admiral Bowman. I think very clearly the Department 
ofDefense has the option to choose any one of the several types of 
propulsion.
    Mr. Visclosky. Okay. I would yield my time for now. Thank 
you, Admiral.
    Thank you, Mr. Chairman.
    Mr. McDade. Mr. Knollenberg--oh, the gentleman from New 
Jersey, the distinguished gentleman from New Jersey, is 
recognized.

              Russian Post-cold War Emphasis on Submarines

    Mr. Frelinghuysen. Thank you very much, Mr. Chairman.
    Admirals, congratulations to both of you for the work you 
do.
    In your opening remarks and in your prepared statement you 
say during the Cold War the Soviets placed greater emphasis on 
their submarine force, recognizing the advantage of submarines 
for sea control and power projections.
    How would you characterize the post-Cold War emphasis?
    Admiral Bowman. Sir, the statements of the Russian Navy 
leaders, the statements of the Russian defense leaders, have 
led us to believe that a great deal of their energy and effort 
was going to be poured into the submarine pipeline; that, 
indeed, they did consider the submarine to be the capital ship 
of the Navy. If you count merely the numbers, I think that the 
numbers would back up that opinion.
    As I said earlier, though, recent information shows that 
the Russian overall financial situation across the country is 
taking its toll on ideas to build and operate more and more and 
more of these submarine capital ships.
    Mr. Frelinghuysen. Yes, but the public perception, a lot of 
this--the public perception is that just because the Cold War 
is over, that somehow the Russians are less frightening. I get 
the impression that they are still very much in the business of 
gathering intelligence, doing espionage, counterespionage. That 
they--if these article headlines are any indication, they are 
extremely active in monitoring our activities. And one can't 
disagree with the number of articles in the Washington Post 
that Congressman Knollenberg referred to entitled, ``Downsizing 
a Mighty Arsenal,'' but they still have potential.
    I assume they still have a potential force that we have to 
contend with.
    Admiral Bowman. You are absolutely correct.
    Mr. Frelinghuysen. We are no less vigilant as a result of 
the fact that they have two operative submarines out of a peak 
time in the Cold War of 20 to 22; we are still just as 
vigilant?
    Admiral Bowman. We are absolutely just as vigilant and, 
sir, I would caution you, I believe that that article is 
referring to their fleet ballistic missile submarines, their 
strategic submarines, when talking 2 out of 23 active.
    On the attack submarine side, I think that the numbers are 
somewhat different, and the attack submarines were the ones 
that I referred to earlier, operating out of area, off Kings 
Bay, off Oregon, [deleted] shadowing the battle groups. Those 
are not the strategic submarines that are in that article, but 
your point is well taken.
    Mr. Frelinghuysen. Those types of actions are not the mark 
of a nation that is in decline----
    Admiral Bowman. Or one that has quit.
    Mr. Frelinghuysen [continuing]. In terms of considering 
itself a world power.
    You have mentioned they have enhanced China's submarine 
capacity. Is that something that we have monitored pretty 
closely?
    Admiral Bowman. Yes, sir, it is something we have monitored 
closely.

                  Sale of Russian Submarines to China

    Mr. Frelinghuysen. Could you expand on that a little bit? 
Do they sell submarines or do they do them as part of trade 
agreements, and what capacity do they have? Are any of those 
nuclear submarines?
    Admiral Bowman. They do sell submarines. They have sold at 
least one KILO class diesel submarine to China. None of them 
are nuclear. The Chinese have an indigenous capability to 
develop and are developing their own nuclear submarines as well 
as their own diesel submarines. They are currently constructing 
those submarines today.
    My concern, and the concern that I would bring to this 
committee, is out of this new intelligence that indicates that 
the Russians this last year sold their very, very best diesel 
submarine, not the old export version that banged and clanged, 
but the version that the Russians operate for themselves that 
that is going to provide the capability to the Chinese to 
reverse engineer some of the sound quieting techniques and some 
of the other capabilities on board that submarine.
    I am not fearful of that submarine, if I were still in 
command of my nuclear submarine in a one-on-one kind of 
situation, but reverse engineering, the sound quieting, and the 
weapons systems, and all the other capability can only make the 
Chinese indigenous submarines that much better.

                    North Korean Submarine Incident

    Mr. Frelinghuysen. What did you make of the stranded North 
Korean submarine? To the average person, it appeared that maybe 
there was some incompetence on the North Koreans' part, but in 
reality I thought it somewhat represented a warning shot. Quite 
honestly, as a Member of Congress, I never knew the North 
Koreans had any submarine capacity at all.
    Was there anything that you took from that incident as a 
warning?
    Admiral Bowman. We took that incident very seriously, as 
you did. And I would agree with you that it does represent a 
warning shot.
    Now, of course, we have known and do know that the North 
Koreans have infiltration-capable submarines and that is their 
primary job to sneak special forces ashore in South Korea. They 
are not so much built to represent a specific threat to our 
ships or our submarines but, rather, to infiltrate the South.
    We will continue to watch that situation very closely.

                    worldwide submarine development

    Mr. Frelinghuysen. [Deleted.]
    Admiral Bowman. [Deleted.]
    Mr. Frelinghuysen. [Deleted.]
    Admiral Bowman. [Deleted.]
    Mr. Frelinghuysen. And other countries, how many other 
countries? There are 445 submarines operated by 42 nations, 
which is what you said earlier, but are other countries 
building new submarines?
    Admiral Bowman. Yes, sir, other countries are building 
submarines. To be----
    Mr. Frelinghuysen. For the record, what are those 
countries?
    Admiral Bowman. If I may take that for the record, I can go 
through several--certainly, Germany is building a diesel 
submarine. Australia is building a diesel submarine; China I 
mentioned earlier; Russia I have already mentioned. There are a 
number of countries, and if you would allow me to provide an 
accurate list for the record, and I will also provide some 
specificity in terms of numbers and capability.
    [The information follows:]

                           Submarine Builders

    [Deleted.]

       environmental monitoring of russian submarines lost at sea

    Mr. Frelinghuysen. Yes. In your environmental monitoring 
book, you mentioned the loss of two nuclear-powered submarines, 
one in 1963 and one in 1968. How many have the Russians lost?
    Admiral Bowman. Sir, I believe the number----
    Mr. Frelinghuysen. And their losses, we obviously have 
monitored, according to the data you provided, what was the 
impact of those losses on the environment? Has there been 
environmental monitoring of what the Russian losses have caused 
surrounding those vessels?
    Admiral Bowman. The answer to how many, I believe the 
number is 5, and we are not entirely certain about intentional 
scuttling versus unintentional losses at sea or at least one of 
those. But I believe the number is 5.
    In terms of environmental monitoring, the most recent 
Russian losses at sea have been monitored not only by the 
Russians, but by the international community. A great deal of 
interest, especially in--the most recent, the Mike submarine 
that was lost in the Norwegian Sea. That submarine has been the 
object of a great deal of investigation by the international 
environmental community to just see that the outfall really is.

                 defense of deployed aircraft carriers

    Mr. Frelinghuysen. And the last question, satisfy my 
curiosity. We have 35,000 troops and sailors over in the 
Persian Gulf. I guess we have two aircraft carriers there. At 
one point, we had three. I often get questions from my 
constituents as to whether our sailors are at risk in any way 
by either submarines or other, you know, land missiles. What 
sort of cover and protection do we have for those, other than, 
obviously, destroyers that are surrounding them and other 
ships; what mechanisms do we actually have to protect those 
carriers which by any definition are large, huge and 
vulnerable?
    How would you answer that to a lay audience?
    Admiral Bowman. I would agree with your question and the 
premise of your question right up to the last word, 
``vulnerable.'' These carriers are--carry a great deal of self 
protection as well, as Mr. Visclosky mentioned the protection 
and the synergy afforded by the rest of that battle group. 
There is always risk. A military operation involves risk. 
Flying off an aircraft carrier, flying off an aircraft carrier 
at night, involves risk.
    And I am going to shut up because I am out of my league, 
and if you would allow me to----
    Mr. Frelinghuysen. We all have tremendous admiration for 
those who fly, as well as those who are backing up those 
flights.
    Admiral Bowman. Yes, sir.
    Mr. Frelinghuysen. But I would certainly be interested in 
your perspective.
    Admiral Bowman. The battle group commander of the NIMITZ, I 
believe, can answer that question probably better than I.
    Mr. Frelinghuysen. All right. Thank you.
    Admiral Natham. Yes, sir. I will introduce myself. I am 
Rear Admiral John Nathman. I just left the NIMITZ battle group 
as the battle group commander, and in the Persian Gulf you are 
the force commander for the ships that are--the Navy combatant 
ships that are in the Gulf. So the time that I was there, we 
initially went in with USS NIMITZ and GEORGE WASHINGTON arrived 
about a month later, to respond to the further worsening of 
that crisis, specifically with the United Nations special 
commission in Iraq as our inspectors were kicked out and then 
removed.
    To answer your question specifically about the defense of 
those ships, as you know, we do often operate--we operate most 
frequently as a battle group or battle force, where the 
carriers have their own built-in defense, which is primarily 
their air wing, which can project power from, of course, those 
flight decks hundreds of miles inland. Their layer defenseis, 
of course, with cruisers, with destroyers and with submarines, which 
support and also provide power projection for those aircraft carriers 
as well as the rest of the force.
    As an example, sir, we had the PELELIU Amphibious Readiness 
Group in the Gulf with us. That was some 2,500 Marines. And 
this is the way I would answer the American public on that: We 
protected those Marines when they were at sea because we 
included them in the force protection for the rest of the 
battle force that was in the Gulf. We provided air cover. We 
provided sea space surveillance so we understood what was out 
there. We provided a common intelligence picture and collection 
picture against both the Iranians and the Iraqis.
    So we not only knew what their capabilities were, but what 
they would most likely do. So we could protect those particular 
individual sailors and Marines by making sure that they had an 
umbrella coverage, whether it was ship protection or air 
protection.
    One of our biggest factors out there, of course, is the 
mobility of our ships, which I think really diminishes greatly 
the risk that we have when we are at sea, because you are not 
talking about force protection against--when you are land 
based, as we have had recent experiences with some of our 
forces in that area. These ships and the men and women on those 
ships are at sea so they are very well protected by, I think, 
the fact that we can move them and we can protect them while 
they are moving.
    Mr. Frelinghuysen. Thank you very much for that reaction.
    Thank you, Mr. Chairman.

            u.s. assistance with russian submarine disposal

    Mr. McDade. My friend from Indiana, Mr. Visclosky.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Fazio asked that I ask a question on his behalf, and I 
think it would be of interest to all of the members.
    Admiral, are we helping the Russians dispose of their 
submarine reactor cores that are in these ships that are at 
dock side? And if so, are we providing technical assistance? Is 
there a monetary assistance involved?
    Admiral Bowman. The answer to the question is, yes, we are 
assisting, both through the Nunn-Lugar funds and that whole 
program effort.
    The Russians today, Mr. Visclosky, have ten sets of 
defueling equipment available for their use. In point of fact, 
they are defueling two to three submarines a year with this 10 
sets of equipment that we have provided them.
    Last year, a delegation from Russia came to the Puget Sound 
Naval Shipyard and the shipyard commander, and some of my 
people, walked the Russian delegation through the methodology 
that the United States uses very competently and professionally 
in inactivating our submarines.
    We are helping. They have a backlog right now of [deleted] 
submarines that they haven't started on yet that have been 
inactivated or removed from service and still have fuel in 
them. They have another [deleted] submarines that are in some 
state of inactivation, fuel removal, so on and so forth.
    In total, I believe my numbers are correct that [deleted] 
only [deleted] of the Russian submarines out of this total 
number have now been completely inactivated, with the fuel 
removed, and with the reactor compartments cut out similar to 
what we do, but left afloat in the water.
    So we are watching what----
    Mr. Visclosky. The reactors are?
    Admiral Bowman. The reactor compartment, the fuel has been 
removed.
    Mr. Visclosky. Yes.
    Admiral Bowman. And is land stored. But the reactor 
compartment is--the reactor compartment with the vessel and the 
piping and all of that has been chopped out of the submarine 
and is floating there alongside.
    Now, that is unlike--you may recall one of my pictures when 
I said cradle to grave, the grave part was our latest picture 
of our 71 reactor compartments that are stored neatly in the 
trench in Hanford, Washington. That is what we do with ours.
    To your question, we are helping the Russians. There is 
money involved. There is a more recent effort to direct some of 
this Nunn-Lugar money more directly into the Russians' hands, 
either through an intermediary in this country or directly to 
the Russian shipyards. The resource constraint that I spoke of 
in the construction business is making itself felt in the 
deconstruction business, too.
    I worry a little bit that because--exactly as you pointed 
out, because the wherewithal, the expertise, the design 
experts, the methodology to push the button and recommence 
their construction of new submarines is just beneath the 
surface; that we watch closely that the assets that we are 
providing to the Russians out of concern for environment, out 
of concern for moving on with the START treaties, that we be 
careful that that resource is being directed in that direction 
and not being diverted to some other use that could be to our 
dismay some day.
    Mr. Visclosky. Admiral, if you could, for the record 
provide the subcommittee with a dollar amount, and if it is 
exclusively from the Nunn-Lugar pot, I would appreciate that 
very much.
    Admiral Bowman. Yes, sir.
    [The information follows:]

   COOPERATIVE THREAT REDUCTION FUNDING FOR RUSSIAN BALLISTIC MISSILE   
                         SUBMARINE DISMANTLEMENT                        
              [End of fiscal year--in millions of dollars]              
------------------------------------------------------------------------
                                   Prior years     FY 98       FY 99-02 
------------------------------------------------------------------------
SLBM Launcher/SSBN Elimination:                                         
    Equipment/Infrastructure.....           34            6           40
    Elimination efforts (30                                             
     submarines).................  ...........           35          190
Training/Logistics/Program                                              
 Support.........................            7            4           29
Liquid Low Level Radioactive                                            
 Waste Processing................  ...........           30  ...........
Missile Elimination..............            1            7           26
                                  --------------------------------------
      Total......................           42           82          285
------------------------------------------------------------------------
Notes.--All amounts provided through Nunn-Lugar funding; SLBM =         
  Submarine Launched Ballistic Missile.                                 

        differences between naval reactors' doe and navy funding

    Mr. Visclosky. As you know, Admiral, the chairman and I 
serve on the National Security Subcommittee and one of the 
reasons--and I really appreciate the fact that the hearing is 
being held and therefore you are here today, is that you almost 
have two committees of jurisdiction here and you have two pots 
of money, to make sure that we are focusing on the activities 
as a whole.
    One of the questions I have is, we have a Program Element 
for Advanced Nuclear Power Systems in the National Security 
Subcommittee. And my understanding for fiscal year 1998, about 
$80.8 million of that is going to your shop for R&D on the 
propulsion plant for the New Attack Submarine.
    A couple of questions I have. One, is that part of the pie 
chart that you have up here, is that part of the 665 or is that 
in addition to the 665?
    Admiral Bowman. That is in addition to.
    Mr. Visclosky. Okay. So that is a separate pot of money? 
That is not included in that chart?
    Admiral Bowman. That is correct, yes, sir.
    Mr. Visclosky. At what point did funding for the work on 
the S9G power plant transition from DOE to DOD? Is there a 
transition where the money spent on a new plant like that 
transitions from this subcommittee to defense? Is it a shared 
cost? Is there a dual track that we should be following?
    Admiral Bowman. The DOE technical and regulatory 
responsibilities and the associated funding that goes with that 
are for reactor development, reactor plant development.
    The Navy----
    Mr. Visclosky. You are talking about the national security 
pot?
    Admiral Bowman. No, sir. The pot----
    Mr. Visclosky. DOE?
    Admiral Bowman. Yes, sir, the DOE pot is for reactor 
system, reactor plant development.
    The Navy or the National Security Committee R&D money is 
for the propulsion plant development--research and development. 
It is easy to get confused about where that line is. And I am 
sympathetic.
    Mr. Visclosky. I am confused.
    Admiral Bowman. Yes, sir. The reactor plant money--this 
really goes back to the reason for the dual nature of our 
business; that it is the Department of Energy and Department of 
Navy. My Department of Energy responsibilities and that 
associated funding, I think the arrangement--well, first of 
all, that funding is crucial to executing my responsibilities 
in regards to reactor safety.
    The arrangement recognizes that reactor safety begins with 
design and it goes through test and it continues on for the 
lifetime of that equipment and of that core, literally for the 
lifetime.
    Secondly, the Department of Energy responsibility and the 
associated funding give me the arm's length that I need for 
hard hitting assessments of Navy activities and for 
intervention, if that should become necessary. And I would note 
that this arrangement, this DOE/Department of Navy, dual hat 
arrangement, was first introduced as a part of the Atomic 
Energy Act at the beginning. And that act, and the Congress, 
suggested that the right formula would be to separate those 
activities that were involved in developing the nuclear energy 
from those activities that were involved in using that nuclear 
energy. So I think that the formula works today.
    Now, specifically, the Energy money goes to developing the 
reactor core and the reactor physics and the thermal analysis, 
the hydraulic analysis, the flow through the core, the 
instrumentation that is directly associated with that reactor 
plant; the reactor vessel that contains this reactor core; the 
components that are directly associated with the generation of 
energy.
    The propulsion plant portions that are overseen by the 
Navy--or, I am sorry, by the National Security Committee are 
the other pieces of the plant, the propulsion plant, that 
convert that reactor energy and heat to usable steam and energy 
on downstream.
    So on lead ships, such as the New Attack Submarine first 
ship will be, we are responsible and that National Security 
Committee oversight and money funding includes all the way back 
to the main turbines, the turbines that turn the screw, to make 
the ship go. It includes the turbine generators that provide 
the electrical power for the ship.
    So the Navy's R&D side is responsible for developing that 
propulsion plant material while the DOE committee's side has to 
do with the energy side. Again, consistent with that first 
Atomic Energy Act notion that the generation of atomic energy 
should be separate from the user side.
    Mr. Visclosky. And you are comfortable with that 
arrangement then?
    Admiral Bowman. Sir, I am extremely comfortable. I have 
spent a great number of hours asking myself about that and 
trying to learn the inside out of this. And I am extremely 
comfortable and furthermore convinced that it is the right 
formula for today and that it makes sense.
    Mr. Visclosky. We have had a number of conversations, 
Admiral, and the chairman and I certainly have, but for the 
benefit of the other Members, I, first of all, really respect 
the work that your office has done. I really respect the 
openness you have shown to me in all of our discussions, 
despite the fact that we have not entirely agreed all the time.
    The concern I have fundamentally is to ensure that the Navy 
and the Office of Naval Reactors are acting as one andthat they 
are complementary of each other as opposed to one driving either way.
    Admiral Bowman. You bet.

                          S9G FUNDING HISTORY

    Mr. Visclosky. And I do think that hasn't always happened, 
and I am not suggesting it is happening today. I would propose 
that part of the failure, and I take some of that 
responsibility, is oversight, making sure we follow it from the 
beginning to the end. And I think too often--and I would say 
myself, I am looking at your program, by the time it gets over 
to the National Security Subcommittee, and then I become 
suspicious or questioning.
    If I could have you, for the record, and it might take some 
doing, but just so I have a better appreciation for where that 
transition and how that transition take place, if I could have 
your office provide a detailed funding history for S9G, showing 
the various DOE and DOD research funding lines and program 
elements involved over time, and the amounts of funding in each 
of these research funding lines on an annualized basis. Because 
I think if I could take one case example and see it from 
beginning to end, it might make this situation much clearer for 
me and I would find that very, very helpful. And I realize that 
is going to be a burden for somebody, but it is not a request 
lightly made.
    Admiral Bowman. I will certainly do that, sir.
    [The information follows:]

                          S9G FUNDING HISTORY

    The following table identifies New Attack Submarine R&D 
funding. The DOE Naval Reactors Development costs reflect best 
estimates of the effort relevant to the S9G reactor plant for 
New Attack Submarine. Note that there is overlap in this effort 
with other plant types, given the generic nature of much of the 
Program's work because all current plants, as well as this 
plant, are of the same general type. The same is true for the 
Navy Advanced Power Systems R&D funding category. Also note the 
New Attack Submarine plant benefited from work in technology 
areas leading up to the time frames noted in the table. For 
example, the modified fuel process development began in the 
1970s, was applied to the advanced fleet reactor for the 
SEAWOLF Class, and ongoing refinements made possible the 
commitment to a life-of-the-ship-core for the New Attack 
Submarine. This is the first ship class for which there has 
been such a commitment made at the outset.

----------------------------------------------------------------------------------------------------------------
                                           1991    1992    1993    1994    1995    1996    1997    1998    1999 
----------------------------------------------------------------------------------------------------------------
DOE:                                                                                                            
    Naval Reactors Development \1\......       2      30     119     156     210     169     100      80      55
NAVY R&D:                                                                                                       
    Advanced Nuclear Power Systems <SUP>1, <SUP>2                                                                         
     (0603570N).........................       5       9      50      98     107     116     107      94      84
    Advanced Submarine System \3\                                                                               
     Development........................       4      23      66  ......  ......  ......  ......  ......  ......
----------------------------------------------------------------------------------------------------------------
\1\ The amounts for the formative years are best estimates of the effort leading up to and related to the New   
  Attack Submarine propulsion plant. In this period, which is similar to what the Navy is going through now on  
  CVX, the Program was assessing possible propulsion plant features and the state-of-the-art in various         
  technical areas for applicability, and interfacing with the fleet and activities responsible for other aspects
  of the ship. Consequently, this was a period of some flux and uncertainty. In setting forth the estimates for 
  the period the effort was made to include the cost of efforts considered specific to the New Attack Submarine 
  propulsion plant.                                                                                             
\2\ Under cognizance of Naval Sea Systems Command (NAVSEA), Code 08, Nuclear Propulsion Directorate.            
\3\ Under cognizance of Navy Program Executive Office for Submarines (PEO SUBS) with work performed by NAVSEA,  
  Code 03, Engineering Directorate. Funding is shown only for the period 91-93 to provide reference for the     
  formulation period of the New Attack Submarine. This Program Element covers the Hull Mechanical and Electrical
  aspects of the ship. This category funded the main turbines, shaft, thrust bearing and the propulsor, i.e.    
  propeller.                                                                                                    

          potential technological advances associated with cvx

    Mr. Visclosky. If I could just, on the CVX plant, from your 
perspective, Admiral, do you think that the new plant, assuming 
it occurs, would represent a technological leap ahead from what 
you have in the New Attack Submarine, or will it represent 
generally the same level of technology?
    Admiral Bowman. Mr. Visclosky, in my wildest imagination, I 
can't fathom that it wouldn't represent a leap ahead in 
technology. Specifically, the New Attack Submarine should 
deliver and hit the water in the year 2004. If the decision is 
made by the Department of Defense, through the AOA that is 
ongoing now for the carrier to become nuclear, that ship hits 
the water in the year 2013.
    What we do in general, and what we do specifically, I 
should say, there is always ongoing research and development 
and technological pushes at the envelope. I said that on a 
couple of these poster boards, that R&D is what it is all 
about.
    When the time comes to begin pulling together out of the 
Naval Reactors' tool box those technologies that are mature 
enough and developed enough for that next generation submarine 
or surface ship, that is exactly what we do. We look down 
across the spectrum of all our technology areas and say, where 
are we with fuel? Where are we with cladding? Where are we with 
the structures? Where are we with pumps? Where are we with the 
steam generators? Where are we with everything? And what's 
mature enough to go on board this next thing that's coming down 
line?
    We have a view right now, we have a vision right now, I 
know what is mature enough to go on board the New Attack 
Submarine, and I believe I know what is coming that will be 
available to go on the carriers if DOD turns that way. I would 
be flabbergasted if that carrier doesn't represent a dramatic 
improvement in technology.
    Now, it may not be exactly the same. It is not a one-size-
fits all kind of situation, but as an example, in 
instrumentation and control, if I may share with the committee, 
and I will probably get in trouble, I took Dr. Shirley Jackson, 
the Nuclear Regulatory Commission Chairman, on a carrier, the 
JOHN C. STENNIS, the latest of our carriers to operate. She 
went down with me into the nuclear propulsion plant, looked 
around. We visited with the people. We saw the technology.
    On the airplane on the way home, she said, your 
instrumentation and control is beyond that we have in our 
commercial plants by a lot.
    I was pretty pleased with that, but it represents--I think 
it is a sea story, shore story, that tells you that we are 
constantly pushing the envelope.
    I said obsolete equipment replacement. Every time that 
happens, we put the next generation, the next best. The fellow 
who is driving my submarine around in the water today, if you 
look at my biography it says that I was the commanding officer 
of the USS CITY OF CORPUS CHRISTI, one of our LOS ANGELES Class 
submarines back in the eighties. That scoundrel who is now the 
commanding officer of my ship, [laughter] has a lot more 
capability at his fingertips than I did, and we haven't changed 
the core. We haven't changed the fundamental plant. What we 
have done is work through this research and development and 
feedback from analysis and computer simulations and computer 
studies, and found ways to squeeze a little bit more energy, a 
little bit more capability, along the way.
    [Deleted.] Now, that is important for an operator. If I had 
had that, I probably would have gotten in big trouble back 
then. But it represents, sir--the answer to your question, if 
it is not better, shame on me.

                      aircraft carrier propulsion

    Mr. Visclosky. I have a couple more questions, but I would 
submit those for the record. But I think I would be remiss if I 
just didn't make a final comment, and, Admiral, again, it is 
repetitive for the two of us, but for the members on the 
committee, a final decision hasn't been made by the Navy as to 
whether the next generation of carriers will be nuclear-
powered.
    I believe in my heart the Navy has made that decision, but 
technically the analysis is taking place. My concern is not on 
the quality of your work or the research, the development or 
the efficacy in many instance of nuclear power. The great 
concern, I have, sitting on the National Security Subcommittee, 
is that we are at about 300 ships today, and I assume there is 
no absolute magical answer or number of ships, but I feel much 
more comfortable today as a citizen of this country, if we have 
a 300-ship Navy, than if 20 years from now we have a 200-ship 
Navy.
    And my concern, and obviously it is a matter of study and 
dispute and controversy, is the carrying costs, the life cycle 
costs of various options the Navy is looking at, and my concern 
is that overall shipbuilding budget as to whether or not we can 
afford a particular alternative today and also afford to have 
300 ships 20 years from now.
    And I am very sincere in that desire to maintain our 
current strength level, because I think the Navy is where it is 
at, given the current world situation. And, again, my concern 
is, it is not a perfect world. I would like it to be a good 
world, and I would like us to have 300 good ships out there.
    Admiral Bowman. Exactly.
    Mr. Visclosky. Instead of 200 perfect ships, and that is my 
great, great concern on the carrier issue, I must tell you.
    And I didn't mean to be rude earlier, Admiral, by cutting 
you off, but I had a lot to talk about.
    Admiral Nathman. Yes, sir.
    Mr. Visclosky. So I just hope you understand what my 
concern is. But with that, again, I thank you very much and I 
do respect the work both of you do.
    Thank you very, very much, Mr. Chairman.
    Mr. McDade. We thank the gentleman from Indiana.
    May I say to the witnesses that we have served together on 
the National Security Committee for quite some time, and the 
gentleman from Indiana has been thoughtful enough and careful 
enough to undertake a series of salient investigations, where 
he engaged in oversight activities for the benefit of the 
country, and we are grateful to you, Mr. Visclosky, for your 
efforts and, Admirals, certainly to both of you for being here. 
Mr. Knollenberg?

  nuclear waste production: navy compared to commercial nuclear power 
                                industry

    Mr. Knollenberg. Mr. Chairman, thank you very much.
    Admiral Bowman and Rear Admiral Nathman, again, a couple of 
quick, short questions.
    You gave me, Admiral, some very compelling figures 
concerning what percentage of all nuclear waste produced in the 
United States will be produced by the U.S. Navy.
    Would you care to repeat those numbers and express them in 
terms of percentage and tonnage or whatever, but give us a read 
on how it compares with the commercial nuclear industry?
    Admiral Bowman. Yes, sir.
    Mr. Knollenberg. And by the way, I think that of the 12 
carriers, aren't eight nuclear?
    Admiral Bowman. That is correct. Of the 12 operating 
carriers today, eight of them are nuclear today. Two more, the 
HARRY S. TRUMAN and the RONALD REAGAN, are being built at 
Newport News today, so soon there will be 10 of the 12.
    Mr. Knollenberg. What about those percentages as it 
compares to the information that you have given me a short time 
ago about how it compares with the nuclear waste on the 
commercial scene versus the Naval scene?
    Admiral Bowman. Yes, sir. Mr. Knollenberg, what we were 
talking about was the total--the units that are used on this in 
the industry are metric tons of heavy metal. Today's inventory 
in this country of total spent fuel, metric tons of heavy metal 
from the commercial industry, is on the order of 30,000 tons, 
30,000 metric tons of heavy metal. The Navy's inventory today 
is 15 tons.
    I also shared with you that the year 2035 is important, 
because by the year 2035, we have promised the citizens of 
Idaho that we will have removed the Navy's spent fuel from the 
State of Idaho and into the ultimate repository in this 
country.
    So the other numbers that I shared with you were the 
expected numbers, in the year 2035 are 80,000 tons of 
commercial spent fuel and the Navy at that time will have 65 
tons; not 65,000 but 65 of 80,000 metric tons of heavy metal, 
less than a 10th of 1 percent.
    For perspective, and I went back and played with this after 
our meeting the other day. If you took all of the Navy spent 
fuel that we expect to have on hand by the year 2035 and put it 
in the storage containers that have already been designed 3 
years ahead of when we promised the citizens of Idaho, already 
designed and already selected, you could stack up all of the 
Navy's spent fuel side-by-side in these containers between the 
goal line and your own 25 yard line on a football field. It is 
not a huge volume. It is not--it is certainly a very small 
percentage of the country's spent waste.

        no impact on nuclear powered warships on the environment

    Mr. Knollenberg. It would be very minimal.
    Let me ask you a couple of additional quick questions. We 
discussed the propulsion systems and we discussed a little bit 
about the advantages. I think that you indicated what nuclear 
provided in terms of reliability and the ability to stay below 
the surface longer and that kind of thing.
    The questions that a lot of folks raise about nuclear, 
whether it is on the sea, under the sea, or at Fermi II in my 
state of Michigan, it doesn't matter where it is. I know you 
covered some of this with Mr. Frelinghuysen, from the Russian 
perspective, but what about from the U.S. perspective? What 
kind of nuclear problems, or problems have we had with any 
nuclear-powered vessel, whether it is a submarine or aircraft 
carrier in our history? How many such incidents and were any of 
them problematic with respect to environmental concerns, 
radioactive leaks, that type of thing?
    Admiral Bowman. These books that I read into the record 
earlier will tell you, and it is absolutely factual, that there 
has been no impact on the environment, from the beginning of 
the operation of the Navy Nuclear Power Program in this 
country.
    We have a report system. You used the word ``incident.'' I 
have a report system that is called an incident report system. 
It includes things like an operator failing to wait the 
prescribed 45 seconds to look at a test tube and instead only 
waited 30 seconds.
    My threshold for pain is very, very, very low. That is part 
of the goodness of this operation.
    We tell each other the truth. We sit down around tables 
when there are problems and have critiques. And I have been 
very, very careful to ensure that my skippers know that I don't 
expect somebody to get shot as a result of those critiques. To 
the contrary. That would exert a chillingeffect on the whole 
system. But rather, tell me what is happening, tell me how we can do 
better, tell me where we have design flaws or personnel issues that 
could be made easier.
    We haven't had a problem in the Navy nuclear propulsion 
world that would meet the criteria that you are talking about. 
There has not been one.

                Naval and Commercial Nuclear Technology

    Mr. Knollenberg. You also said something that encourages me 
to wonder if we shouldn't do something about it on the 
commercial scene. I think I heard you say that the technology 
or I should say the class of equipment on these carriers and 
submarines is a level above what is available to the commercial 
operators of this country?
    Admiral Bowman. Sir, I was talking about one aspect of it.
    Mr. Knollenberg. And what was that aspect?
    Admiral Bowman. I was wondering whether I would probably 
get in trouble with that.
    Indeed, because the Naval Nuclear Propulsion Program has 
remained active and vibrant during this period of stoppage of 
new reactors and little new work on the existing commercial 
plants. We have moved ahead in technology because we fielded a 
large number of reactor plants since Three Mile Island.
    Mr. Knollenberg. Right.
    Admiral Bowman. The commercial industry has not. Virtually 
all contracts were cancelled that were pending and certainly no 
new plant contracts have been let.
    So what I was referring to was in the instrumentation and 
control area, we are now using microprocessor technology that 
is light-years ahead of what I was introduced to in 1966 when I 
first came into this program. And it was that that I am so very 
proud.
    Mr. Knollenberg. It is probably the fact that you have been 
actively engaged in increasing the quality of the technology 
and the commercial folks are in a frozen position. In fact, as 
you, I think, pointed out in a declining position. Currently 
there are only 105.
    Admiral Bowman. Yes, sir.
    Mr. Knollenberg. Presences, you might say around the 
country. You have got 115, I think.
    Admiral Bowman. Exactly.
    Mr. Knollenberg. That will conclude my questioning. I 
appreciate, again, your being here. Thank you very kindly for 
the time and attention, and I would yield back to the chairman.

    advantage of submarines in assisting aircraft carrier operations

    Mr. McDade. Thank you, Joe.
    May I say that it was a pleasure to have you both here. I 
am sorry I wasn't here for all the testimony. I had to travel 
up to my district and back and was delayed.
    Admiral Nathman, you are getting off too doggonned easy.
    Admiral Nathman. Yes, sir.
    Mr. McDade. Admiral Bowman has been over there earning his 
pay. You know, I am responsible for you having to be here. I 
thought it would be good to have an operator sitting next to 
the man who runs the program in case questions of an 
operational nature came up.
    And since they didn't, let me ask you just a couple of 
questions. Can I?
    Admiral Nathman. Yes, sir.
    Mr. McDade. As you took a carrier group during the Middle 
Eastern confrontation, and you had Admiral Bowman's subs now 
equipped with smart weapons, how do you quantify the advantage 
that they gave you? Is there a way for you to be able to say, 
you had X amount more firepower because this stealthy piece of 
equipment now had a new capability? Is there any way for you to 
address yourself to that and tell the committee kind of what 
that was like?
    Admiral Nathman. Yes, sir. I can talk to a few instances, 
examples of that.
    Mr. McDade. Please.
    Admiral Nathman. When NIMITZ was asked to proceed, the 
battle group was asked to proceed, at best speed to the Persian 
Gulf. We had just left Hong Kong and were on our way to 
Singapore. The speed of advance was--we were asked to be there 
by the 12th of October. This was the 2nd of October. We were 
just leaving out of Hong Kong. We were asked to be there by the 
12th to support the no fly zone in southern Iraq because of the 
recent bust by the Iraqis and the Iranians.
    I think you recall that small crisis which at that time 
seemed like a major one.
    [Deleted.]
    Later on, the OLYMPIA, the ANNAPOLIS and the CHARLOTTE all 
were submarines brought into the Gulf, primarily to support 
contingency operations against the Iraqis. And you can quantify 
it by the number of Tomahawk land attack missiles that these 
submarines brought.
    In the case of OLYMPIA, it was some, I believe [deleted] 
but a submarine like CHARLOTTE, which is very much like the 
Admiral's submarine CORPUS CHRISTI, she had [deleted] or so--I 
can probably come back with that number, but a tremendous 
number of Tomahawk land attack missiles.
    [The information follows:]

                      Tomahawk Missile Complement

    During the Gulf operations, the USS ANNAPOLIS (SSN 760) and 
USS CHARLOTTE (SSN 766) each carried [deleted] Tomahawk 
missiles. The USS OLYMPIA (SSN 717) carried [deleted] Tomahawk 
missiles.

        comparison of ordnance delivery from different platforms

    Mr. McDade. Can you tell us, as a fellow who has a few 
hours in the air, can you quantify the power of his Tomahawk 
versus the F-18 or whatever you wish on a mission dropping 
ordnance? How do you compare in terms of delivering the 
ordnance on the enemy?
    Admiral Nathman. Well, sir, as you well know, the Tomahawk 
land attack missile has about a 1,000-pound warhead. It can go 
a thousand miles, basically, in round terms. It doesn't come 
back. You send it there. It is very lethal against the right 
kinds of targets in the sense that if you are looking at--what 
we would categorize in our business, when you look at targets, 
target sets, a slightly softer target, a building that's made 
out of concrete, but maybe not heavily reinforced, something 
that is certainly not mobile but those are very efficient 
systems. The Tomahawk land attack missile is a very good 
missile to do exactly that.
    But I think it has to be used in coordination with what you 
bring with your tactical air power into the same region. That 
is what I would call the coherency of Naval forces. You have 
tactical air power and tactical cruise missiles along with the 
systems that support the projection in support of that fire 
power.
    So if you send an F-18, you could put a precision bomb on 
it which every one of our weapons in the Gulf, when I just 
left, that the Navy was going to use, were precision weapons 
and they would have the opportunity, of course, to--against 
certain target sets which are a little bit harder, or maybe 
mobile, that is the best type of system to use the tactical Air 
Force against.

             attack submarine weapons launching capability

    Mr. McDade. What is the normal complement of TLAMS that an 
attack sub takes up? You mentioned that there was a wide 
disparity between one ship and another. How do you pack them, 
so to speak? Is there a standard number that they take? How do 
you do that?
    Admiral Nathman. Yes, sir. I think the Admiral might want 
to answer that.
    Admiral Bowman. We are shifting back and forth between the 
submariner and the aviator here.
    Mr. McDade. That is fine.
    Admiral Bowman. In our 688 class submarines, the first 
flight of those 688s did not have the vertical launch tubes in 
the front of the ship. The second flight--roughly half the 
688s, did have vertical launch tubes. Roughly half the 688s do 
have vertical launch tubes. It is important because the answer 
depends on that.
    Those with vertical launch tubes have 12 storage spaces 
exclusively devoted to Tomahawk missiles. So they have at least 
12.
    Additionally, in the torpedo room, all the 688 class 
submarines have a storage capacity of around 26 weapons, and 
that number of weapons can be either torpedoes for 
antisubmarine warfare for antisurface ship capability, or they 
can be Tomahawk missiles.
    Now, what I am saying, then, is the newer class 688s, the 
ones with the vertical launch tubes, could carry as many as 38 
Tomahawk missiles; whereas, the older ones could only carry as 
many as 26.
    A typical load out is for the--the ships with the vertical 
launch tubes, 12 in the bow in the vertical launch tubes and 
around six or so in the torpedo room, and that is why about 18 
or so for those class of ships. And the ones without, maybe six 
to eight Tomahawk missiles in the torpedo room.
    Mr. McDade. That's a lot of firepower.
    Admiral Bowman. It certainly is, sir.
    Mr. McDade. Have we done an improvement in the target 
turnaround time to change targets, et cetera, I believe?
    Admiral Bowman. We have had a light-year improvement in 
that, yes, sir.
    Mr. McDade. Can you address yourself to that, please?
    Admiral Bowman. A little bit, yes, sir. A lot of this 
development took place, unfortunately, when I hung up my 
seagoing clothes and came ashore, but I think I understand.
    When I was there, to change a target set required a 
delivery, a hand-to-hand delivery of a new disk to put into the 
fire control system computer.
    A big breakthrough, when I was there, was the ability to 
start bringing in at a very, very slow update rate, changes to 
that hard disk that you sailed with. So before I had left in 
1986 the operating submarine fleet, there was the capability to 
very slowly change or update target packages.
    Today, that target package can be changed very, very 
rapidly and across the entire spectrum of target set assigned 
to that submarine.
    Mr. McDade. When you say----
    Admiral Bowman. By message, I should say.
    Mr. McDade. When you say very rapidly, can you be more 
specific than that or is that----
    Admiral Bowman. I will do that for the record, and I just 
worry that I would say the wrong thing. This is out of my 
field.
    Mr. McDade. Feel free to amplify the record.
    Admiral Bowman. Yes, sir.
    [The information follows:]

                   Speed of changing Target Packages

    In today's submarines, target packages can be updated or 
changed via UHF or EHF satellite communications while a 
submarine remains at sea. The time to accomplish this update 
depends on the type of mission and the means by which the 
submarine receives the update (UHF or EHF). In either event, 
the time scale is on the order of minutes--and the submarine 
retains its stealth by passively receiving this data.

                               Conclusion

    Mr. McDade. Gentlemen, let me express on behalf of the 
committee our gratitude for your appearance and our gratitude 
for your service to the country. We are proud of both of you 
and we are glad to have you here. Thank you very much.
    Admiral Bowman. Thank you, sir.
    Mr. McDade. We will recess until 10:00 tomorrow morning. 
With that, finito, Admiral.
    Admiral Bowman. Thank you, sir.
    [The questions and answers for the record follow:]

[Pages 749 - 1198--The official Committee record contains additional material here.]









                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barrett, L. H....................................................     1
Bowman, Admiral F. L.............................................   691
Canter, H. R.....................................................     1
Gottemoeller, R. E...............................................   351
Owendoff, J. M...................................................     1
Reis, Dr. V. H...................................................   351












                               I N D E X

                              ----------                              

                          DEPARTMENT OF ENERGY
        Environmental Management and Commercial Waste Management

                                                                   Page
Accelerating Cleanup.............................................   123
Accelerating Cleanup: Paths to Closure...........................     3
Acceptance of Spent Fuel in 1998.................................   308
Affected Units of Local Governments.............................247-249
Balance in the Nuclear Waste Fund for Defense Programs...........   250
Bill for Eliminating Russian Weapons-Grade Plutonium.............   254
Biography of:
    Howard R. Canter.............................................    80
    James M. Owendoff............................................    40
    Lake H. Barrett..............................................    68
British Nuclear Fuels, LTD. (BNFL)...............................   220
Budget Authority and Outlays.....................................   159
Budget Increase for the Design of Two Facilities.................   299
Canister Disposability Research..................................   288
Carlsbad Environmental Monitoring and Research Program...........   173
Carlsbad Environmental Research and Monitoring Center............   172
Civilian Radioactive Waste Management:
    FY 1999 Budget Request....................................... 41-42
    FY 1998 Activities...........................................    41
Closure Dates....................................................    95
Community Awareness of Shipments of Nuclear Materials............    89
Community Outreach and Stakeholder Participation.................    99
Comparison of DOE Environmental Liabilities for FY 1996 and FY 
  1997...........................................................   318
Compensation--Waste Acceptance...................................   244
Compliance Agreements............................................   225
Confidence in University Performance.............................   321
Congressional Action on Nuclear Waste Fund Fee...................   107
Cost and Schedule for Pilot Plant in Russia......................   253
Cost Estimate for Storage and Disposition........................   259
Costs for Risk Analysis..........................................   214
Court Order......................................................   329
Debate in the Former Soviet Union (FSU) on Plutonium Disposition.    92
Decision Process for Yucca Mountain..............................    98
Decisions to Construct Facilities................................   300
Definition of ``Sites''..........................................   100
Delay in Acceptance of Spent Nuclear Waste.......................   308
Design and Engineering...........................................   306
Discussions with Contract Holders................................   106
Disposing of Excess Plutonium....................................    91
Disposing of Nuclear Materials...................................    84
Dual Approach to Plutonium Disposition...........................   325
Dual Purpose Canister............................................   291
Environmental Impact Statement...................................   239
Environmental Management Program Direction.......................   224
EPA Standard.....................................................   234
Estimate of Costs of Damages.....................................   108
Final Version of Paths to Closure................................   109
Fissile Materials Disposition FY 1999 Budget Request.............    70
Foreign Research Reactor Program.................................   285
Foreign Research Reactor Spent Fuel Program......................   211
Foreign Spent Nuclear Fuel Shipments.............................84, 89
Formerly Utilized Sites Remedial Action Program (FUSRAP).........   218
Funding for Technology Research and Development..................   275
Funding for University Programs..................................   320
Funding for WIPP.................................................   168
FY 1999 Office of Environmental Management Budget Request........  1, 3
FY 1999 Office of Fissile Materials Disposition Budget Request...    69
FY 1998 Budget Reduction.........................................   235
FY 1998 $4M Line-Item Veto.......................................   235
Governor of Washington Concerns Regarding Hanford Site Cleanup...   120
Groundwater Contamination at Hanford.............................   177
Groundwater Criteria.............................................   234
H.R. 1270......................................................245, 323
H.R. 1270--FY 1999 Funding.......................................   323
Hazardous Waste Operations and Emergency Response................   326
Historically Black Colleges and Universities (HBCU's):
    Funding......................................................   230
    General......................................................   232
Hybrid Approach for Plutonium Disposition........................   292
Immobilization...................................................   294
Impact of Lawsuits on Yucca Mountain.............................   308
Impact of Waste Control Specialists (WCS) Lawsuit on Cleanup 
  Program........................................................   126
In-Tank Precipitation............................................   186
Inspector General Report on Treating Radioactive Liquid Waste....   184
Inter-Site Waste Transfers.......................................   117
Interactions with Utilities......................................   105
Interim Storage--Goshute Tribe...................................   240
international Programs...........................................   246
International Waste..............................................   237
Inventory of Surplus Weapons--Usable Fissile Materials...........   258
K-Reactor Basin Project at Hanford...............................   178
Kyoto Treaty.....................................................   110
Land Use Assumptions.............................................   124
LANL--Assessment vs. Cleanup.....................................   185
Lawsuit..........................................................   303
Litigation.......................................................   104
Mortgage Costs...................................................     2
MOX Fuel.........................................................   110
    Fabrication and Irradiation Services RFP.....................   295
Need for Legislative Changes to Improve the Environmental 
  Management Program.............................................   129
New Construction Projects Needed to Meet Legal Requirements......   229
Non-Repository Alternative.......................................   302
Nuclear Regulatory Commission:
    Licensing Application........................................   304
    Licensing Authority for the MOX Plant........................   298
    Standards....................................................   328
Nuclear Waste Fund Fees..........................................   107
Nuclear Waste Management and Disposal Witnesses..................     1
Opening Remarks..................................................     1
Oral Statement of:
    Howard R. Canter.............................................    69
    James M. Owendoff............................................     1
    Lake H. Barrett..............................................    41
Paths to Closure...........................................93, 113, 315
Payment of Claims................................................   108
Pit 9 at Idaho...................................................   174
Plutonium Disposition:
    Disposition Cost.............................................   295
    Facilities Design............................................   251
    Site Selection...............................................   294
Prepared Written Statement of:
    Howard R. Canter.............................................    72
    James M. Owendoff............................................     6
    Lake H. Barrett..............................................    45
Private Interim Storage..........................................   241
Privatization.............................................130, 163, 252
Privatization Financing Alternatives.............................   132
Privatization of Waste Acceptance and Transportation...........244, 313
Program Direction Account........................................     4
Progress at YMSCO................................................   309
Progress at Yucca Mountain.......................................   103
Progress with Russia.............................................   296
Progress with Russia on Plans for Disposition....................   260
Project Hanford Management Contract (PHMC).....................179, 182
Project Information..............................................   187
Proliferation Concerns...........................................    91
Public Outreach in Regards to the Shipment of Nuclear Materials..   100
Radionuclides....................................................   305
Recent GAO Report on Plutonium Disposition.......................   293
Resolution of Waste Control Specialists (WCS) Lawsuit............   128
Risk Analysis...................................................212-213
Rocky Flats Closure..............................................82, 95
Rocky Flats Costs Savings........................................     2
Russian Highly Enriched Uranium..................................   256
Russian Nuclear Program..........................................    81
Russian Pilot-Scale Plutonium Conversion Facility................   295
Russian Pilot Plutonium Conversion System........................   301
Science and Technology.........................................215, 275
    Budget Request...............................................   314
    Costs and Savings............................................   265
Section 180(c)...................................................   242
Selection Process for Pit Conversion and MOX Fuel Production.....   324
Shipping Routes..................................................   244
Site Closure and Project Completion..............................     3
Spent Fuel:
    Removal in 1998..............................................   233
    Storage......................................................   103
State and Local Concerns......................................... 89-90
Status or Process for Determining Location of the U.S. Facilities   300
Storage and Transportation.......................................   291
    Cost Policy..................................................   291
Suitability......................................................   327
Support for Geologic Disposal....................................   104
Tank Waste Remediation System (TWRS) Project.....................   161
Technology Deployment...........................................263-264
Technology Development.........................................102, 262
Technology ``Roadmaps''..........................................   216
Temporary Storage................................................   302
Total Cost of Cleanup............................................    81
Transfer of Uranium to United States Enrichment Corporation......   255
Transportation.............................................90, 236, 243
Transportation of Spent Fuel.....................................    98
Transportation Program (RSC RFP).................................   289
Transshipment of Foreign-Research Fuel From Overseas.............    86
Treatment of Transuranic (TRU) Waste at Idaho....................   175
U.S. Assistance to Russia........................................   297
U.S. Reprocessing Policy.........................................   293
UMTRA Groundwater................................................   183
Unfunded Requirements............................................   226
University Research Program in Robotics..........................   217
Uranium/Thorium Reimbursement....................................   222
Uranium Enrichment D&D Fund......................................   219
Utility Litigation...............................................   106
Viability Assessment.............................................   102
Viability Assessment Schedule....................................    95
Vulnerability....................................................   210
Waste Acceptance.................................................   290
Waste Acceptance--1998...........................................   301
Waste Control Specialist (WCS) Lawsuit...........................   125
Waste Isolation Pilot Plant (WIPP).....................4, 165, 167, 322
Waste Package....................................................   312
Waste Shipments to Tennessee.....................................   119
Ucca Mountain Site:
    Suitability..................................................    96
    Technical Issues.............................................    96
    Tritium......................................................   236

                  NUCLEAR WASTE TECHNICAL REVIEW BOARD

Activities.......................................................   339
Additional Details of Fiscal Year 1999 Budget Request............   340
Current and Future Focus of the Board's Review...................   333
Fiscal Year 1999 Budget Request................................330, 332
Fiscal Year 1999 Performance Objectives..........................   348
Fiscal Year 1999 Performance Plan................................   347
General Goals and Objectives.....................................   333
Management of Spent Fuel and High-Level Waste....................   332
Panel Organization...............................................   335
Reporting Requirements...........................................   339
Roles............................................................   332
Salaries and Expenses............................................   346
Staff............................................................   338
Summary and Highlights...........................................   331
Summary of Request...............................................   345
Supplementary Information........................................   337

                          DEPARTMENT OF ENERGY
                    Atomic Energy Defense Activities

120 Day Study....................................................   461
Accelerated Strategic Computing Initiative (ASCI)..............455, 470
    Program Plan.................................................   471
Aktau, Kazakhstan Reactor Security...............................   681
Alternative Strategies to Underground Nuclear Testing............   466
Amarillo National Resource Center for Plutonium..................   551
Arms Control....................................................572-573
Atomic Energy Defense Activities Witnesses.......................   351
B61 Mod 11................................................425, 441, 443
Benefits of an Accelerator.......................................   420
Benefits of ASCI to Industry and Universities....................   507
Biography of:
    Dr. Victor H. Reis...........................................   365
    Rose E. Gottemoeller.........................................   402
Budget Impacts of Start III......................................   416
Building New Weapons.............................................   427
Building of Nuclear Reactors in Cuba by Russia...................   559
Chemical and Biological Role.....................................   428
Chemical and Biological and Weapons Programs.....................   557
Commission on Maintaining Nuclear Expertise......................   431
Construction of Nuclear Reactors in Cuba.........................   436
Construction Project Management................................411, 456
Continuing U.S. Role in North Korea.............................575-576
Contractor Employee Reductions by Site...........................   663
Contractor Employment by Site....................................   629
Cooperative Work in Russia.......................................   405
Critical Employees...............................................   432
Declassification Efforts.........................................   578
Delayed Construction Projects..................................410, 459
Device Assembly Facility.........................................   522
DOE Intelligence Programs........................................   555
DOE Organization.................................................   413
Economic Development
    Administration Assistance....................................   666
    Initiatives..................................................   640
Education Activities.............................................   545
Emergency Operations......................................593, 596, 598
Environmental Security Initiative................................   669
Excess Facilities................................................   532
External Regulations.............................................   619
Facility Revenues................................................   602
Fast Flux Test Facility..........................................   512
FY 1999 Budget Request...........................................   454
FY 1999 Defense Programs Budget..................................   406
HAZMAT Spill Center..............................................   599
Headquarters Federal and Contractor Employee Levels..............   608
Health Studies...................................................   618
Improving Response to Chemical and Biological Attack.............   688
Inertial Confinement Fusion (ICF)................................   553
Initiatives for Proliferation Prevention (IPP)...................   683
Interagency Coordination.........................................   429
International Nuclear Safety Center..............................   609
Lab-to-Lab Cooperation...........................................   469
Laboratories.....................................................   464
Laboratory Directed Research and Development (LDRD).......449, 538, 541
Laboratory Employment..........................................416, 520
Landmines..............................................445-446, 527,530
Los Alamos Construction Management...............................   409
Maintaining Test Readiness.......................................   531
Management of Construction Projects..............................   408
Manufacturing by Nuclear Weapons States..........................   452
Material Protection, Control and Accounting (MPC&A) Program......   679
    Activities in Russian........................................   366
    Strategic Plan...............................................   368
Mission of DOE's Office of Nonproliferation and National Security   366
Modernizing Facilities...........................................   408
MOX Fuel.........................................................   671
National Ignition Facility (NIF).................................   675
    NIF Lawsuits.................................................   676
New Facility Construction........................................   454
New Laboratory Requirements......................................   454
New York Times Article and Nuclear Weapons.......................   444
Nonproliferation:
    Funding......................................................   685
    Priorities and Funding.......................................   450
Nuclear Safeguards and Security..................................   577
Nuclear Technology Research and Development......................   613
Opening Remarks..................................................   351
Oral Statement of:
    Dr. Victor H. Reis...........................................   352
    Rose E. Gottemoeller.........................................   366
Pantex Plant Contract Administration.............................   413
Personnel Practices..............................................   430
Pit Production...................................................   523
Plant/Lab Construction...........................................   408
Plutonium Resource Center........................................   551
Prepared Written Statement of:
    Dr. Victor H. Reis...........................................   355
    Rose E. Gottemoeller.........................................   392
Production of Weapons Usable Materials...........................   508
Program Direction:
    Classification/Declassification Support Service Contracts....   603
    Mail Room/ADP/Databases/Secure Communication Support Service 
      Contracts..................................................   605
Proliferation Prevention Priorities..............................   434
Reduced Enrichment Research and Test Reactor Program.............   562
Reducing the Potential for ``Brain Drain'' in Russia.............   391
Reduction In Russian Stockpile...................................   438
Reduction of Weapons in Russian Nuclear Stockpile................   466
Reimbursable Work................................................   542
Remanufacturing..................................................   426
Responding to a Nuclear Terrorism Attack.........................   433
Russia--Nuclear Weapons Manufacturing and Dismantlement..........   427
Russia Programs Work.............................................   468
Russian Command and Control......................................   432
Russian/Newly Independent States.................................   561
Russian Nuclear C2 Systems and the Y2K Problem...................   452
Russian Nuclear Weapons Laboratories.............................   560
Russian Stockpile Program........................................   427
Russian Stockpile Size...........................................   440
Russian Stockpile Stewardship....................................   428
Russian Tactical Weapons.........................................   440
Russian Weapons-Grade Plutonium..................................   673
Russia's Nuclear Stockpile.......................................   438
Safeguards and Security Funding..................................   584
Safety and Reliability of the Stockpile..........................   422
Sale of Supercomputers...........................................   556
Schedule for Reestablishing Pit Production.......................   526
Security Investigations..........................................   588
Severance Benefits and Associated Costs..........................   624
Severance Benefits to Contract Employees.........................   621
Sites of MPC&A Corporation.......................................   403
Skills Mix.......................................................   431
Soviet-Design Reactor Safety Program.............................   611
Spent Fuel Canning in North Korea................................   436
Start II and III.................................................   439
Start III......................................................421, 439
Stewardship Working............................................425, 443
Stockpile Management Restructuring Initiative (SMRI).............   533
Stockpile Size...................................................   439
Stockpile Stewardship............................................   423
Stockpile Stewardship and the Comprehensive Test Ban Treaty 
  (CTBT).........................................................   677
Strategic Deployment Levels......................................   440
Subcritical Experiments...................................353, 407, 536
Success of Stewardship Program...................................   466
Supporting Nonproliferation and Arms Control Treaties............   391
Surplus Facilities...............................................   678
Technology Transfer..............................................   513
Terrorism and Protecting Our Critical Infrastructure.............   391
Total Cost of Executing Section 3161 by Year and Site............   626
Tritium..........................................................   417
    Accelerator Production.....................................419, 511
Commercial Light Water Reactor Production........................   509
Dual Track.......................................................   667
Production and Nonproliferation..................................   420
Requirements.....................................................   465
U.S. Weapons Laboratories and Russia.............................   467
US/Russian Strategic Command and Control Corporation.............   437
Use of Direct Program Funds......................................   625
W-76.............................................................   424
Weapons Grade Plutonium Inventory System.........................   674
Work Force Transition and Economic Development Funding...........   636
Work and Community Transition....................................   639
Year 2000 Computer Problem.................................444-445, 452

                             Naval Reactors

90,000 Tons of Diplomacy Anytime, Anywhere.......................   696
A Tightly Controlled Budget Request..............................   705
Advantage of Submarines in Assisting Aircraft Carrier Operations.   745
Aicraft Carrier Propulsion.....................................726, 742
Attack Submarine Weapons Launching Capability....................   746
Biography of Admiral Frank L. Bowman.............................   720
Comparison of Ordnance Delivery from Different Platforms.........   746
Compliance with Idaho Spent Fuel Agreement.......................   751
Cooperative Threat Reduction Funding for Russian Ballistic 
  Missile Submarine Dismantlement................................   738
Crucial to Nation's Defense and Military Presence................   699
CVX Propulsion Plant Studies.....................................   731
Defense of Deployed Aircraft Carriers............................   735
Differences Between Naval Reactors' DOE and Navy Funding.........   738
Disposing of Decommissioned Russian Nuclear Powered Ships........   754
Distribution of Naval Reactors Development Funding...............   729
Energy Equivalent of Nuclear Power vs. Fuel Oil..................   756
Environmental Monitoring and Disposal of Radioactive Wastes from 
  U.S. Naval Nuclear Powered Ships and Their Support Facilities..   782
Environmental Monitoring of Russian Submarines Lost at Sea.......   735
Fifty Years of Unparalleled Success..............................   701
Foreign Submarine Construction...................................   753
Funding DOE Defense Activities.................................765, 778
Funding for New Aircraft Carrier Studies.........................   756
Future Technology Options........................................   776
Generic Nature of Naval Reactors.................................   757
Impact of Base Closures..........................................   758
Impact of CVX Program on Industrial Base.........................   731
Impact of Ship Propulsion Type on Aircraft Carrier Operations....   727
Integrated Program of Departments of Energy and Navy.............   692
Laboratory Operating Contracts...................................   749
Logic of Naval Reactors' Department of Energy Funding............   777
Material Protection, Control & Accounting Collaboration with 
  Russian Navy...................................................   767
Naval Nuclear Propulsion.........................................   694
Naval Reactors Development Budget................................   766
Naval Reactors Funding Situation...............................729, 768
Naval Reactors' Dual Agency Arrangement..........................   750
Naval Spent Nuclear Fuel.........................................   752
Navy and Commercial Nuclear Technology...........................   744
Need for Nuclear Powered Aircraft Carriers.......................   755
Need to Maintain Two Laboratories................................   762
New Aircraft Carrier Development.................................   774
New Attack Submarine Cost and Operational Effectiveness Analysis.   781
North Korean Submarine Incident..................................   734
Nuclear Safety Standard Provision................................   764
Nuclear Waste Production: Navy Compared to Commercial Nuclear 
  Power Industry.................................................   743
Occupational Radiation Exposure from:
    Naval Reactors' Department of Energy Facilities..............   911
    U.S. Naval Nuclear Plants and Their Support Facilities.......   847
Occupational Safety, Health, and Occupational Medicine Report....   975
Opening Remarks..................................................   691
Opening Statement of Mr. Visclosky...............................   727
Oral Statement of Admiral Frank L. Bowman........................   691
Potential Technological Advances Associated with CVX.............   741
Prepared Written Statement of Admiral Frank L. Bowman............   708
Primary Jobs is to Support Plants in Operating Ships.............   703
Prototype Inactivation Project Plan..............................   760
Prototype Plant Inactivation.....................................   760
Prototype Reactor Plant Inactivation Effort......................   759
Recipients of Naval Reactors Development Funding...............730, 769
Recruiting and Retention of Navy Nuclear-Qualified Personnel.....   763
Reliability of Nuclear Propulsion................................   727
Russian Post-Cold War Emphasis on Submarines.....................   732
Russian Submarine Development....................................   721
S9G Funding History..............................................   740
S9G Propulsion Plant.............................................   779
Sale of Russian Submarines to China..............................   733
Speed of Changing Target Packages................................   748
Status of Naval Nuclear Industrial and Technological Base.....730, 757, 
                                                               770, 773
Submarine Builders...............................................   735
Tomahawk Missile Complement......................................   746
Types of Submarine Propulsion....................................   725
U.S. Assistance with Russian Submarine Disposal..................   736
Worldwide Submarine Development..................................   734
Worldwide Submarine Forces.......................................   724

                DEFENSE NUCLEAR FACILITIES SAFETY BOARD

1997 Technical Trip Reports (Appendix B).........................  1053
Analysis of Resources............................................  1013
Annual Performance Plans for Fiscal Year 1999....................  1033
Conduct of Board Oversight Operations............................  1029
Eighth Annual Report to Congress.................................  1071
Fiscal Year 1999 Budget Request..............................1010, 1017
GPRA Strategic Planning Requirements.............................  1011
Mission & Goals..................................................  1024
Personnel Summary................................................  1014
Priority Facilities and Activities (Appendix E)..................  1065
Proposed Appropriation Language..................................  1012
Recommendations Calendar--Key Procedural Events Table (Appendix 
  A).............................................................  1045
Technical Reports (Appendix C)...................................  1057
Technical Support Contracts (Appendix D).........................  1058

                             <all>
</pre></body></html>
